APPENDIX

TABLE OF APPENDICES
Appendix A
Opinion, United States Court of Appeals
for the Ninth Circuit, Senne v. Kansas
City
Royals
Baseball
Corp.,
Nos. 17-16245, 17-16267, 17-16276
(Aug. 16, 2019) ............................................. App-1
Appendix B
Order, United States Court of Appeals for
the Ninth Circuit, Senne v. Kansas City
Royals
Baseball
Corp.,
Nos. 17-16245, 17-16267, 17-16276
(Jan. 3, 2020) ............................................. App-90
Appendix C
Order, United States District Court for
the Northern District of California, Senne
v. Kansas City Royals Baseball Corp.,
No. 14-cv-00608-JCS (Mar. 7, 2017) ......... App-92

App-1
Appendix A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________
Nos. 17-16245, 17-16267, 17-16276
________________
AARON SENNE, et al.,
v.

Plaintiffs-Appellants,

KANSAS CITY ROYALS BASEBALL CORP., et al.,
Defendants-Appellees.
________________
Argued: June 13, 2018
Filed: Aug. 16, 2019
________________
Before: Michael R. Murphy, * Richard A. Paez, and
Sandra S. Ikuta, Circuit Judges.
________________
OPINION
________________
PAEZ, Circuit Judge:
It is often said that baseball is America’s pastime.
In this case, current and former minor league baseball
players allege that the American tradition of baseball
collides with a tradition far less benign: the
* The Honorable Michael R. Murphy, United States Circuit
Judge for the U.S. Court of Appeals for the Tenth Circuit, sitting
by designation.

App-2
exploitation of workers. We are tasked with deciding
whether these minor league players may properly
bring their wage-and-hour claims on a collective and
classwide basis.
BACKGROUND
I.

Most major professional sports in America have
their own “farm system” for developing talent: for the
National Basketball Association, it’s the G-League; for
the National Hockey League, it’s the American Hockey
League; and for Major League Baseball (MLB), it’s
Minor League Baseball. MLB and its thirty franchise
teams rely heavily on this extensive minor league
system, which has nearly 200 affiliates across the
country and employs approximately 6,000 minor
league players. Nearly all MLB players begin their
careers in the minor leagues. Each minor league club
is associated with one of the thirty franchise MLB
teams.
The minor league system is governed by the Major
League Rules (MLRs), which dictate the terms of
employment and compensation for both minor and
major league players. Under the MLRs, all minor
league players are required to sign a seven-year
Uniform Player Contract (UPC). Ostensibly, players
are required to sign the UPC for “morale” and “to
produce the similarity of conditions necessary for keen
competition.”
The UPC “obligates Player[s] to perform
professional services on a calendar year basis,
regardless of the fact that salary payments are to be
made only during the actual championship playing
season.” It describes its scope as setting “the terms

App-3
and conditions of employment during all periods in
which Player is employed by Club as a Minor League
Player.” Players are paid by the MLB franchise
affiliated with the minor league team for which they
play. Under the UPC, first-year players are paid a
fixed salary of $1,100 per month during the regular
(“championship”) season that runs from April through
September. In addition to their salaries during the
championship season, some players receive signing or
performance-related bonuses and college scholarships.
Beginning in early March each year, the minor
league affiliates conduct spring training in Arizona
and Florida; every MLB franchise operates a minor
league training complex in one of these two states. The
parties dispute whether spring training is required,
but the UPC strongly indicates that it is mandatory. 1
Virtually all players are unpaid during spring
training.
Spring training lasts approximately four weeks,
until the championship season begins in April. Some
players attest that spring training entails working
seven days a week, with no days off. During spring
training, teams typically have scheduled activities in
the morning prior to playing games in the afternoon.
For example, a team spring training schedule for one
The UPC provides that “Player’s duties and obligations under
[the UPC] continue in full force and effect throughout the
calendar year, including Club’s championship playing season,
Club’s training season, Club’s exhibition games, Club’s
instructional, post-season training or winter league games, any
official play-off series, any other official post-season series in
which Player shall be required to participate . . . and any
remaining portions of the calendar year.”
1

App-4
of the San Francisco Giants’ affiliates describes that
at 6:30 AM, there was an “Early Van for Treatment
and Early Work” 2; at 7:00 AM, the “Regular Van”
departed; at 7:45 AM, the “Early Work” began; and
then between 9:00 AM and 11:00 AM, the team would
perform activities such as “Stretch,” “Throwing
Program,” and “Batting Practice.” Lunch was to be at
11:00 AM, before a 12:10 PM bus to a neighboring city
for a 1:00 PM away game.
At the conclusion of spring training in early April,
some players are assigned to minor league affiliates,
and begin playing games in the championship season.
During the championship season, minor league teams
play games either six or seven days per week. The
championship season lasts around five months,
beginning in April and ending in September. One of
the regular season leagues within minor league
baseball is the California League, which—as the name
implies—plays games exclusively within California.
Players who are not assigned to play for affiliates
in the championship season stay at the Arizona or
Florida facilities for “extended spring training.”
Extended spring training continues until June, and
involves similar activities to spring training. Although
most players do not get paid during extended spring
training, as many as seven MLB clubs do pay for work
during extended spring training due to an ambiguity
in the MLRs over when players are permitted to be
paid.

2 The schedule instructed players to “CHECK [the] BOARD
FOR EARLY WORK.”

App-5
After the championship season ends in
September, some players participate in the
“instructional leagues,” which run from approximately
mid-September to mid-October. The parties dispute
whether participation in the instructional leagues is
mandatory for the players involved, although as with
spring training, the UPC strongly implies that
participation is required. Activities and schedules
during the instructional league are similar to spring
training. And just as with spring training, players are
virtually never paid for participation in the
instructional league.
II.
Plaintiffs are forty-five current and former minor
league baseball players who bring claims under the
federal Fair Labor Standards Act (FLSA) and the
wage-and-hour laws of California, Arizona, and
Florida against MLB, MLB Commissioner Bud Selig,
and a number 3 of MLB franchises. Plaintiffs allege
that defendants do not pay the players at all during
spring training, extended spring training, or the
instructional leagues. They further allege that
because players are “employees” and the activities the
players perform during those periods constitute
compensable work, defendants have unlawfully failed
to pay them at least minimum wage. And according to
plaintiffs, while the players are paid—albeit not
much—during the championship season, they

3 Plaintiffs originally named all 30 MLB franchises as
defendants, but eight of the franchises were subsequently
dismissed for lack of personal jurisdiction.

App-6
routinely work overtime, for which they are never
compensated as a matter of policy.
In May 2015, plaintiffs filed their Second
Amended Consolidated Class Action Complaint, which
alleged wage-and-hour claims under the laws of eight
states and the FLSA; plaintiffs also sought
certification of a FLSA collective action. The district
court preliminarily certified the FLSA collective in
October 2015. Notice was sent to approximately
15,000 current and former minor league players, of
which more than 2,200 opted in.
In 2016, defendants moved to decertify the FLSA
collective, while plaintiffs moved to certify a Rule
23(b)(2) class as well as Rule 23(b)(3) classes under the
laws of eight states. The district court denied
certification for all proposed Rule 23(b)(3) classes,
concluding that predominance was not satisfied for
two primary reasons. Senne v. Kansas City Royals
Baseball Corp., 315 F.R.D. 523, 572, 577-84 (N.D. Cal.
2016). First, the court concluded that predominance
was defeated by the choice-of-law issues presented by
the proposed classes, given that (1) the winter offseason training claims entailed work performed in
dozens of different states with no common schedule or
situs; and (2) the championship season claims
involved frequent travel between state lines for away
games. Id. at 580-81. The district court also
determined that the inclusion of claims for winter offseason work fatally undermined predominance, as the
court would be required to undertake an
overwhelming number of individualized inquiries to
determine which activities constituted compensable
“work” and how much time was spent doing “work.”

App-7
Id. at 577-84. For similar reasons, the court held that
plaintiffs were not “similarly situated” and therefore
decertified the FLSA collective. Id. at 585-86. The
court also granted the defendants’ motion to exclude
an expert survey (the “Pilot Survey”) submitted by
plaintiffs, finding that its methodology and results did
not satisfy the requirements of Federal Rule of
Evidence 702 and Daubert v. Merrell Dow
Pharmaceuticals, Inc., 509 U.S. 579 (1993). Id. at 58690. The court further refused to certify the proposed
Rule 23(b)(2) class, concluding that because the
plaintiffs were all former—rather than current—
players, they lacked standing to represent a (b)(2)
class. Id. at 584-85.
Plaintiffs moved for reconsideration, narrowing
their proposed classes significantly in response to the
concerns the district court expressed in its initial
certification order. Plaintiffs requested Rule 23(b)(3)
certification of an Arizona class and a Florida class for
work performed during spring training, extended
spring training, and the instructional leagues in those
states. Plaintiffs also moved for certification of a
23(b)(3) California class, covering players who
participated in the California League during the
championship season. Additionally, plaintiffs sought
to certify a reworked FLSA collective of players who
participated in the California League or in spring
training, extended spring training, and the
instructional leagues. In addition to the 23(b)(3)
classes and FLSA collective, plaintiffs requested
certification of a Rule 23(b)(2) injunctive relief class
consisting of current minor league players who
participate in spring training, extended spring
training, or the instructional leagues in Florida or

App-8
Arizona. To cure the court’s earlier concerns about
standing, four current minor league players moved to
intervene to represent the proposed (b)(2) class.
On reconsideration, plaintiffs argued that they
could meet Rule 23(b)(3)’s predominance requirement
and FLSA’s “similarly situated” requirement through
a combination of the use of representative evidence
and application of the so-called “continuous workday”
rule. 4 Plaintiffs’ representative evidence took a variety
of forms, including an expert survey (the “Main
Survey”), hundreds of team schedules, payroll data,
and testimony from both players and league officials.
The most controversial piece of evidence was the Main
Survey, which plaintiffs argued served as
representative evidence of hours worked, particularly
when used in concert with a continuous workday
theory.
The Main Survey asked players to report the
times they “most often” arrived and departed from the
ballpark or training facility during the championship
season, spring training, extended spring training, and
the instructional leagues, and asked players to
estimate how much time they spent eating meals
while at the ballpark. The survey did not, however,
ask players about the kinds of activities they
performed at the facilities, or how much time they
As we shall explain, the continuous workday rule presumes
that once the beginning of the workday is triggered, an employee
performs compensable work throughout the rest of the day until
the employee completes their last principal activity or the last
activity which is “integral and indispensable” to the employee’s
principal activities. IBP, Inc. v. Alvarez, 546 U.S. 21, 28, 32-37
(2005).
4

App-9
spent performing particular activities. Given these
purported shortcomings, defendants moved to exclude
the Main Survey, and further argued that even if the
survey were admissible under Daubert, it still could
not be used to meet the predominance and “similarly
situated” requirements due to its alleged flaws. The
district court denied defendants’ motion to exclude the
Main Survey, finding it admissible under Daubert and
concluding that defendants’ challenges went “to the
weight of the Survey and not its admissibility” and
were “better left to a jury to evaluate.” The district
court further concluded that the Main Survey could be
used in combination with other evidence—such as
team schedules, testimony, and payroll data—to meet
Rule 23(b)(3)’s predominance and FLSA’s “similarly
situated” requirements, observing that certifying the
classes and the FLSA collective “will not preclude
Defendants from challenging the sufficiency of the
Main Survey and Plaintiffs’ damages model on
summary judgment and/or at trial.”
Because it concluded that the predominance and
“similarly situated” requirements could be met with
the use of representative evidence and application of
the continuous workday rule, the district court
recertified the narrowed FLSA collective and certified
a California (b)(3) class. However, the district court
denied certification for the Arizona, Florida, and (b)(2)
classes, holding that choice-of-law concerns defeated
predominance for the Arizona and Florida classes and
undermined “cohesiveness” for the (b)(2) class.
At defendants’ request, the district court certified
the FLSA collective certification order for
interlocutory review under 28 U.S.C. § 1292. Plaintiffs

App-10
petitioned us for permission to appeal the denial of
certification for the Arizona, Florida, and Rule 23(b)(2)
classes, and defendants likewise petitioned to appeal
the certification of the California class; we granted
both petitions, consolidating those cross-appeals with
the FLSA collective appeal.
STANDARD OF REVIEW
We review for abuse of discretion the district
court’s class certification rulings, and review for clear
error any findings of fact the district court relied upon
in its certification order. Parsons v. Ryan, 754 F.3d
657, 673 (9th Cir. 2014). A district court’s choice of law
determinations, however, are reviewed de novo.
Mazza v. Am. Honda Motor Co., 666 F.3d 581, 589 (9th
Cir. 2012). A district court abuses its discretion where
it commits an error of law, relies on an improper
factor, omits a substantial factor, or engages in a clear
error of judgment in weighing the correct mix of
factors. Stockwell v. City & County of San Francisco,
749 F.3d 1107, 1113 (9th Cir. 2014) (citing Bateman v.
Am. Multi-Cinema, Inc., 623 F.3d 708, 712 (9th Cir.
2010)). When we review a grant of class certification,
“we accord the district court noticeably more deference
than when we review a denial.” Abdullah v. U.S. Sec.
Assocs., Inc., 731 F.3d 952, 956 (9th Cir. 2013)
(quoting Wolin v. Jaguar Land Rover N. Am., LLC,
617 F.3d 1168, 1171 (9th Cir. 2010)).
ANALYSIS
To paraphrase the Chief Justice, these complex
appeals require us to call a great number of balls and
strikes, as both parties raise numerous challenges to
the district court’s certification order. For their part,
plaintiffs challenge the district court’s decision to deny

App-11
certification for the Arizona and Florida Rule 23(b)(3)
classes and the Rule 23(b)(2) class on the grounds that
choice-of-law issues defeated the predominance
requirement for the Arizona and Florida (b)(3) classes
and also thwarted “cohesiveness” for the proposed
(b)(2) class. Defendants, on the other hand, contest the
district court’s certification of the California (b)(3)
class, arguing first that choice-of-law issues defeat
both predominance and adequacy, and second, that
plaintiffs cannot meet the predominance requirement
through the use of their proffered representative
evidence: the Main Survey, team schedules, payroll
records, deposition testimony, and declarations.
Defendants further charge that the district court erred
in certifying the FLSA collective because plaintiffs’
representative evidence does not show that the
collective members are “similarly situated.”
Defendants also contend that the district court erred
by not “rigorously analyzing” plaintiffs’ expert
evidence at the class and collective certification stage.
We address each argument in turn.
I.
Class certification is governed by Federal Rule of
Civil Procedure 23. As a threshold matter, a party
seeking class certification must satisfy the four
requirements of Rule 23(a): (1) numerosity;
(2) commonality; (3) typicality; and (4) adequacy of
representation. 5 “Class certification is proper only if
the trial court has concluded, after a ‘rigorous
analysis,’ that Rule 23(a) has been satisfied.” Parsons,
5 Of Rule 23(a)’s four requirements, defendants contest only
adequacy on appeal; their arguments pertaining to adequacy
have to do with choice-of-law issues.

App-12
754 F.3d at 674 (quoting Wang v. Chinese Daily News,
Inc., 737 F.3d 538, 542-43 (9th Cir. 2013)).
In addition to the requirements of Rule 23(a), a
proposed class must also meet the requirements of one
or more of the “three different types of classes” set
forth in Rule 23(b). Leyva v. Medline Industries, Inc.,
716 F.3d 510, 512 (9th Cir. 2013). Here, plaintiffs
proposed classes under two of Rule 23(b)’s class types:
Rule 23(b)(3) and 23(b)(2). A class may be certified
under Rule 23(b)(3) only if the district court “finds that
the questions of law or fact common to class members
predominate over any questions affecting only
individual members, and that a class action is superior
to other available methods for fairly and efficiently
adjudicating the controversy.” Fed. R. Civ. P. 23(b)(3).
Of these two requirements—predominance and
superiority—only predominance is at issue on appeal.
“The predominance inquiry focuses on ‘the
relationship between the common and individual
issues’ and ‘tests whether proposed classes are
sufficiently cohesive to warrant adjudication by
representation.’” Vinole v. Countrywide Home Loans,
Inc., 571 F.3d 935, 944 (9th Cir. 2009) (quoting Hanlon
v. Chrysler Corp., 150 F.3d 1011, 1022 (9th Cir. 1998)).
In
determining
whether
the
predominance
requirement is met, courts have a “duty to take a close
look at whether common questions predominate over
individual ones” to ensure that individual questions do
not “overwhelm questions common to the class.”
Comcast Corp. v. Behrend, 569 U.S. 27, 34 (2013)
(internal quotation marks and citation omitted).
Rule 23(b)(2), on the other hand, requires only
that “the party opposing the class ha[ve] acted or

App-13
refused to act on grounds that apply generally to the
class, so that final injunctive relief or corresponding
declaratory relief is appropriate respecting the class
as a whole.” Fed. R. Civ. P. 23(b)(2). Although 23(b)(2)
classes are most common in the civil rights context,
“we have certified many different kinds of Rule
23(b)(2) classes.” Parsons, 754 F.3d at 686.
II.

We first address whether choice-of-law issues
fatally undermine plaintiffs’ proposed Rule 23 classes.
The district court’s decision was split on the impact of
choice-of-law questions: as to the proposed Rule
23(b)(3) California class, the court held that choice-oflaw concerns defeated neither Rule 23(b)(3)’s
predominance requirement nor Rule 23(a)’s adequacy
requirement. Yet as to the proposed 23(b)(3) Arizona
and Florida classes, the district court held the
opposite: that choice-of-law issues posed an
insurmountable hurdle to meeting both predominance
and adequacy. Similarly, the court determined that
choice-of-law questions made certification of the
proposed Rule 23(b)(2) class inappropriate.
Concerns over which state’s laws apply to a
proposed class “do not necessarily preclude a 23(b)(3)
action.” Hanlon, 150 F.3d at 1022. But
“[u]nderstanding which law will apply before making
a predominance determination is important when
there are variations in applicable state law,” and
potentially varying state laws may defeat
predominance in certain circumstances. Zinser v.
Accufix Research Inst., Inc., 253 F.3d 1180, 1189 (9th
Cir. 2001) opinion amended on denial of reh’g, 273
F.3d 1266 (9th Cir. 2001). We have been particularly

App-14
concerned about the impact of choice-of-law inquiries
in nationwide consumer class actions and products
liability cases. See, e.g., Mazza, 666 F.3d at 585, 59194; Zinser, 253 F.3d at 1184-90.
A district court considering state law claims
brought in federal court must utilize the choice-of-law
rules of the forum state—here, California. Klaxon Co.
v. Stentor Electric Mfg. Co., 313 U.S. 487, 496-97
(1941). “By default, California courts apply California
law unless a party litigant timely invokes the law of a
foreign state, in which case it is the foreign law
proponent who must shoulder the burden of
demonstrating that foreign law, rather than
California law, should apply to class claims.” In re
Hyundai & Kia Fuel Econ. Litig., 926 F.3d 539, 561
(9th Cir. 2019) (en banc) (internal quotation marks
and citations omitted). To meet their burden, the
objectors must satisfy California’s three-step
governmental interest test, used to resolve choice of
law issues. Id.
First, the court determines whether the
relevant law of each of the potentially affected
jurisdictions with regard to the particular
issue in question is the same or different.
Second, if there is a difference, the court
examines each jurisdiction’s interest in the
application of its own law under the
circumstances of the particular case to
determine whether a true conflict exists.
Third, if the court finds that there is a true
conflict, it carefully evaluates and compares
the nature and strength of the interest of each
jurisdiction in the application of its own law

App-15
to determine which state’s interest would be
more impaired if its policy were subordinated
to the policy of the other state, and then
ultimately applies the law of the state whose
interest would be the more impaired if its law
were not applied.
Kearney v. Salomon Smith Barney, Inc., 137 P.3d 914,
922 (Cal. 2006) (internal quotation marks and
citations omitted); see also Hairu Chen v. Los Angeles
Truck Centers, LLC, No. S240245, 2019 WL 3281346,
at *3 (Cal. July 22, 2019).
In making its choice-of-law determinations, the
district court relied heavily on the California Supreme
Court’s decision in Sullivan v. Oracle Corp., 254 P.3d
237 (Cal. 2011), and the parties do not dispute that
Sullivan provides the most helpful guidance for the
choice-of-law questions before us. In Sullivan, the
California Supreme Court answered a certified
question from this court regarding whether California
overtime law applied to non-resident employees of a
California corporation who worked primarily in their
home states of Colorado and Arizona, but also worked
in California (and several other states) for “entire days
or weeks” at a time. Id. at 239, 243. Sullivan first
concluded that as a matter of statutory construction,
California law applied to all work performed for days
or weeks at a time within the state’s borders,
regardless of whether it was performed by residents or
non-residents. Id. at 241-43. Next, Sullivan undertook
California’s three-step governmental interest analysis
for choice-of-law questions. Id. at 244-47. At the first
step of the analysis—whether the relevant laws
differed—the court noted that California’s overtime

App-16
law “clearly” differed from the laws of the plaintiffs’
home states. Id. at 245.
At the second step—whether a “true” conflict
existed—the court held that the existence of a true
conflict was “doubtful, at best.” Id. The court explained
that the second step involves examining “each
jurisdiction’s interest in the application of its own law
under the circumstances of the particular case,”
noting that a court “may make [its] own determination
of the relevant policies and interests, without taking
‘evidence’ as such on the matter.” Id. (internal
quotation marks, alterations, and citations omitted).
Sullivan observed that “California has, and has
unambiguously asserted, a strong interest in applying
its overtime law to all nonexempt workers, and all
work performed, within its borders.” Id. at 245. The
court concluded that “neither Colorado nor Arizona
has a legitimate interest in shielding Oracle from the
requirements of California wage law as to work
performed here.” Id. at 246.
In so holding, the court rejected two specific
arguments advanced by Oracle. First, Oracle
contended that because Arizona and Colorado have
workers’ compensation statutes with express
extraterritorial application, those statutes indicate an
interest in extending the protection of their
employment laws to their residents working outside
the state. Id. Not so, Sullivan held. While “a state has
such an interest, at least in the abstract, when the
traveling, resident employee of a domestic employer
would otherwise be left without the protection of
another state’s law,” the states had “expressed no
interest in disabling their residents from receiving the

App-17
full protection of California overtime law when
working here, or in requiring their residents to work
side-by-side with California residents in California for
lower pay.” Id.
Second, Oracle argued that Arizona and Colorado
“have an interest in providing hospitable regulatory
environments for their own businesses” and thus “also
have an interest in shielding their own businesses
from more costly and burdensome regulatory
environments in other states.” Id. Relying on
principles of federalism, Sullivan dismissed this
argument. While “a state can properly choose to create
a business-friendly environment within its own
boundaries,” the federal Constitution does not require
a state to substitute “‘the conflicting statute of another
state’” for its own laws that are “‘applicable to persons
and events’” within that state. Id. (quoting Phillips
Petrol. Co. v. Shutts, 472 U.S. 797, 822 (1985)). Nor
does the Constitution “permit one state to project its
regulatory regime into the jurisdiction of another
state.” Id. (citing Healy v. Beer Insti., Inc., 491 U.S.
324, 336-37 (1989)).
Finally, although Sullivan held that there was
almost certainly no true conflict because neither
Arizona nor Colorado had a “legitimate interest” in
blocking the application of California law to the work
performed in California, the court nonetheless
proceeded to the third step of the analysis “for the sake
of argument.” Id. at 246-47. Sullivan concluded that
the analysis at the third step—determining which
state’s interest would be more impaired if its policy
were subordinated to the policy of the other state—
yielded a straightforward answer:

App-18
[T]o subordinate California’s interests to
those of Colorado and Arizona unquestionably
would bring about the greater impairment.
To permit nonresidents to work in California
without the protection of our overtime law
would completely sacrifice, as to those
employees, the state’s important public policy
goals of protecting health and safety and
preventing the evils associated with
overwork. Not to apply California law would
also encourage employers to substitute lower
paid temporary employees from other states
for California employees, thus threatening
California’s legitimate interest in expanding
the job market. By way of comparison, not to
apply the overtime laws of Colorado and
Arizona would impact those states’ interests
negligibly, or not at all . . . Alternatively,
viewing Colorado’s and Arizona's overtime
regimens as expressions of a general interest
in
providing
hospitable
regulatory
environments to businesses within their own
boundaries, that interest is not perceptibly
impaired by requiring a California employer
to comply with California overtime law for
work performed here.
Id. at 247 (citations omitted) (emphasis added).
A.
We first conclude that the district court did not err
in holding that under Sullivan, California law should

App-19
apply to the (b)(3) California class. 6 Although
defendants correctly point out that Sullivan is not
precisely analogous to the case at hand, the two
principal differences on which defendants rely are
unpersuasive. Specifically, defendants first rely on the
fact that while Sullivan involved a California
corporation, “most of the MLB Club Defendants with
affiliates in the California League are located outside
California.” But a close reading of Sullivan indicates
that California law should apply to the California
class, even though many of the employers are not
headquartered in California. For example, Sullivan
expressly contemplated that California’s overtime
laws may not apply to non-resident employees of an
out-of-state business who enter California only
“temporarily during the course of a workday,” but
contrasted such a scenario with employees who work
in California for “entire days and weeks,” who are
covered by California law. Id. at 243 (emphases,
internal quotation marks, and citations omitted).
Similarly, Sullivan specifically left open the
possibility that other California employment laws,
such as pay stub requirements, may not apply to nonresident employees of out-of-state employers—with
the clear implication that overtime laws would apply
to such employees. See id. at 243-44. Likewise, far
from limiting its holding only to non-resident
Contrary to the dissent’s criticism, Dissent at 74, we do not
shortcut the governmental interest analysis. As we explain in the
text, we believe that Sullivan mandates application of California
law to the California class. Rather than repeating Sullivan’s
choice of law analysis, we focus on several additional
considerations that further support our decision to affirm the
district court’s reliance on Sullivan.
6

App-20
employees of in-state employers, Sullivan merely
emphasized that employees of in-state employers
would especially be covered by California law. See id.
at 243.
Second, defendants characterize Sullivan as
resting on the court’s determination that “neither
Arizona nor Colorado . . . has asserted an interest in
regulating overtime work performed in other states.”
Defendants argue that here, by contrast, “numerous”
states have a competing interest in regulating work
performed in California. But defendants misread
Sullivan by erroneously presuming that its conclusion
at the third step—that subordinating “California’s
interests to those of Colorado and Arizona
unquestionably would bring about the greater
impairment”—hinged entirely on whether Arizona or
Colorado law had asserted an interest in
extraterritorial application of their wage laws. Id. at
247. It is certainly accurate to say that Sullivan’s
holding was influenced by the fact that neither
Arizona nor Colorado law purported to apply
extraterritorially. Yet the court’s discussion at step
three cannot fairly be read to support the argument
that California’s “strong interest in applying its
overtime law to . . . all work performed within its
borders,” id. at 245, would suddenly become the lesserimpaired interest in the event another state expressed
a clear interest in applying its wage laws to work
performed in California. Rather, Sullivan strongly
indicates that California’s interest in applying its laws
to work performed within its borders for days or weeks
at a time would reign supreme regardless of whether
another state expressed an interest in applying its
own wage laws instead of California’s.

App-21
Although we read Sullivan as clearly mandating
the application of California law to the California
class, two additional considerations support our
conclusion today. 7
First, because the district court found that
plaintiffs had met their burden of showing that
California law could constitutionally be applied—a
determination defendants do not contest on appeal—
the burden shifted to defendants “to demonstrate ‘that
foreign law, rather than California law, should apply
to class claims.’” Mazza, 666 F.3d at 590 (quoting
Wash. Mut. Bank v. Superior Court, 15 P.3d 1071,
1081 (Cal. 2001)). The district court held that
defendants failed to meet this burden, because they
had “not gone beyond speculating in a general manner
that the claims of some members of the putative
California Class might be subject to the law of another
state and that the interests of another state might be
more impaired by application of California law.”
Defendants specifically point to one of the named
plaintiffs—Mitch Hilligoss—as an example of the
alleged “need to conduct choice of law inquiries as to
every member of the California class.” The district
court found this example unpersuasive for several
reasons, and we agree. The defendants argued that
Illinois law should apply to Hilligoss’ work in
California because the time he spent in California was
a small proportion of his overall career (around two
months out of a six-year career). The district court,
however, correctly read Sullivan as indicating that
7 Moreover, as the dissent acknowledges, the California
Supreme Court has expressed a strong interest in regulating
wage and hour claims within its borders. Dissent at 77.

App-22
California law should nonetheless apply to Hilligoss’
California work. Indeed, the proportion of time the
non-resident employees in Sullivan worked in
California was quite small (and in one case, even less
than the proportion of Hilligoss’ career spent in
California): during the relevant three-year period, one
worked 20 days, another 74 days, and the third 110
days. 254 P.3d at 239. Put differently, the employees
in Sullivan worked in California approximately 1.8%,
6.7%, and 10% of the time, respectively. Id. What
mattered in Sullivan—and what matters here—is
that when the employees worked in California, they
did so for “entire days or weeks” at a time. Id. at 243.
Second, practical considerations strongly support
applying California law to work performed in
California, at least as a general rule; to hold otherwise
“would lead to bizarre and untenable results.” See
Brief for Professors Peter Hay and Patrick J.
Borchers, Dkt. No. 21, at 12-13 (hereinafter
“Professors’ Amicus Brief”). If the law of the state in
which work is performed is not the law that generally
applies, employers and employees alike would be
subjected to an unworkable scheme. Employers would
be required to properly ascertain the residency
status—itself not necessarily an easy task, as any
student or seasonal worker could attest—of each of its
employees. For every non-resident employee,
employers would then have to determine whether the
wage laws of that employee’s state of residence apply
extraterritorially, and then come up with different
rules for each of its employees according to their state
of residence and any extraterritorial application of
their home state’s laws. This would mean that at a
single worksite, employees working side-by-side in the

App-23
same position would not only be owed vastly different
minimum wages, but also that an employer would
need to set different rules for meal and rest breaks for
different employees, and so on and so forth. It cannot
be in any state’s legitimate “interest” to foist such an
administrative nightmare upon both employers and
employees.
Such a scenario would also result in an enormous
competitive
advantage—or
disadvantage—for
prospective employees based solely on their state of
residency. Employers would be incentivized to hire
residents of states with low minimum wages and
otherwise employer-friendly wage laws, while
residents of states with higher minimum wages and
more protective employment laws would suddenly be
far less appealing. Amici Professors Hays and
Borchers persuasively point out that as defendants
would have it, a college student still domiciled in
Seattle while attending a Nebraska university would
have to be paid $15 per hour at a part-time job in
Nebraska, “nearly double Nebraska’s minimum wage
of $8 per hour.” Professors’ Amicus Brief at 13. This,
of course, would put the student at a crushing
disadvantage; what rational employer would hire her?
Moreover, given the administrative cost involved
in attempting to comply with a patchwork of multiple
states’ wage laws at a single workplace, some
employers might instead choose to stick to hiring only
resident employees, or perhaps only non-resident
employees from a particular state (presumably one

App-24
with a low minimum wage and minimally protective
employment laws). 8
We do not foreclose the possibility that there could
be some circumstances in which a proper application
of California’s choice-of-law rules might lead to the
application of another state’s wage and hour laws to
work performed in California. Nor do we create a per
se rule or an unrebuttable presumption. We hold only
that, given the above considerations, we are more than
satisfied that the district court did not err in
concluding that under Sullivan, California law applies
to the California class.
B.
We next address whether the district court erred
in determining that choice-of-law considerations
defeated predominance and adequacy for the proposed
Arizona and Florida Rule 23(b)(3) classes, and
conclude that the district court’s determination must
be reversed. Our conclusion is animated in part by
several of the consideration outlined above, which
apply with equal force to the Arizona and Florida
classes. Moreover, the aforementioned enormous
practical implications of a contrary holding would be

The California class consisted of those players who
participated in the California League, which plays games
exclusively within California during the championship season.
The Arizona and Florida classes consisted of those who performed
during spring training, extended spring training, and the
instructional leagues in those states. Thus, the dissent’s fear that
employers will be required to research applicable state laws
whenever an employee crosses state lines is overstated. Dissent
at 84.
8

App-25
just as problematic and unworkable in Arizona and
Florida as in California.
1.
With those considerations in mind, we apply
California’s
three-step
governmental
interest
analysis, and conclude that Arizona law should apply
to the work performed in Arizona, and Florida law to
work performed in Florida. At the first step, we agree
with defendants that the differences in state law are
“material,” meaning that “they make a difference in
this litigation.” Mazza, 666 F.3d at 590. For example,
some states have more expansive definitions of “work,”
others have differing available defenses, and we have
previously held that the elements for a quantum
meruit claim—alleged in both the Arizona and Florida
classes—“vary materially from state to state.” Id. at
591 (citing Candace S. Kovacic, A Proposal to Simplify
Quantum Meruit Litigation, 35 Am. U.L. Rev. 547,
558-60 (1986)).
2.
“Because the relevant laws differ,” we must “next
examine each jurisdiction’s interest in the application
of its own law under the circumstances of the
particular case to determine whether a true conflict
exists.” Sullivan, 254 P.3d at 245 (alteration, internal
quotation marks, and citation omitted). We are not
persuaded, as defendants contend, that a “true”
conflict exists.
First, under California’s choice-of-law principles,
“a jurisdiction ordinarily has the predominant interest

App-26
in regulating conduct that occurs within its borders.” 9
Mazza, 666 F.3d at 592 (internal quotation marks
omitted) (quoting McCann v. Foster Wheeler LLC, 225
P.3d 516, 534 (Cal. 2010)). The dissent contends that
“California has long rejected” this approach. Dissent
at 71. In noting these principles, we do not ignore the
evolution of California’s choice of law doctrine. We
recognize that the California Supreme Court
“renounced the prior rule, adhered to by courts for
many years, that in tort actions the law of the place of
the wrong was the applicable law in a California forum
regardless of the issues before the court” when it
adopted the governmental interest approach. Hurtado
v. Superior Court, 522 P.2d 666 (Cal. 1974). Yet the
California Supreme Court has acknowledged that
while it “no longer follows the old choice-of-law rule
that generally called for application of the law of the
jurisdiction in which a defendant’s allegedly tortious
conduct occurred without regard to the nature of the
issue that was before the court . . . California choice-oflaw cases nonetheless continue to recognize that a
jurisdiction ordinarily has the predominant interest in
regulating conduct that occurs within its borders.”
McCann 225 P.3d at 534 (internal quotation marks
and citation omitted) (emphasis in original).
Thus, when conducting the governmental interest
analysis, we must also recognize that a state
ordinarily has the predominant interest in regulating
conduct within its borders. We draw this conclusion
9 Wage and hour laws are typically categorized as “conductregulating,” as opposed to “loss-allocating.” See Professors’
Amicus Brief at 15-16 (citing Hay, Borchers & Symeonides,
Conflict of Laws 874-78 (5th ed. 2010)).

App-27
not from California’s interest in regulating conduct
within its own borders, but from California’s choice-oflaw principles. 10 Thus these principles are not limited
to the California class but apply to the Florida and
Arizona classes as well. See Mazza, 666 F.3d at 593
(“The district court did not adequately recognize that
each foreign state [not just California] has an interest
in applying its law to transactions within its
borders.”). The district court erred in ignoring these
principles as a starting point, instead faulting
plaintiffs for not addressing “in detail the interests of
either Arizona or Florida in applying their law” and
focusing on the absence of Florida or Arizona cases
See e.g., McCann, 225 P.3d at 534, 537 (recognizing that
although California no longer uniformly applied the law of the
jurisdiction in which the allegedly tortious conduct occurred,
Oklahoma’s interests “would be more impaired if its law were not
applied” as the plaintiff’s exposure to asbestos occurred in
Oklahoma); Reich v. Purcell, 67 432 P.2d 727, 730 (Cal. 1967)
(“Missouri is concerned with conduct within her borders and as
to such conduct she has the predominant interest of the states
involved.”); Castro v. Budget Rent-A-Car Sys., Inc., 65 Cal. Rptr.
3d 430, 442 (Cal. Ct. App. 2007) (“The accident and Castro’s
injury occurred within Alabama’s borders, thus giving Alabama
a presumptive interest in controlling the conduct of those persons
who use its roadways, absent some other compelling interest to
be served by applying California law.”); Hernandez v. Burger, 162
Cal. Rptr. 564, 568 (Cal. Ct. App. 1980) (“It is true that the place
of the wrong is no longer treated as a controlling factor where
application of the law of another jurisdiction having a connection
with the accident will serve a legitimate interest or policy of the
other jurisdiction. However the situs of the injury remains a
relevant consideration.”); Cable v. Sahara Tahoe Corp., 155 Cal.
Rptr. 770, 777 (Cal. Ct. App. 1979) (“The state with the
‘predominant’ interest in controlling conduct normally is the
state in which such conduct occurs and is most likely to cause
injury.”).
10

App-28
akin to Sullivan—despite the strong indications that
Arizona and Florida have the “predominant interest”
in applying their laws to work performed within their
state. See Mazza, 666 F.3d at 592.
Second, Sullivan relied on several different
considerations to arrive at its conclusion that the
existence of a true conflict was “doubtful, at best”:
(1) the states in which the employees resided did not
express
an
intent
to
apply
their
laws
extraterritorially; (2) the employees’ states of
residence did not have a “legitimate interest” in
shielding an employer from California’s wage laws as
to work performed in California; and (3) federalism
and due process made extraterritorial reach doubtful
under the circumstances. See 254 P.3d at 245-47.
Although defendants vigorously argue that the first of
those rationales is inapplicable here—as discussed in
greater detail below—at a minimum, the second and
third rationales do apply, and weigh against the
existence of a true conflict.
As to the first rationale, both defendants and the
dissent contend that several states have expressed an
interest in applying their wage and hour laws to work
performed outside the state. In support of their
position, they cite to a handful of cases where courts
(largely district courts or intermediate state courts,
with the exceptions of West Virginia and
Washington) 11 have applied one state’s wage laws to
11 In New v. Tac & C Energy, Inc., 355 S.E.2d 629 (W. Va. 1987),
the West Virginia Supreme Court of Appeals applied its own
conflict-of-laws principles—relying on the Restatement (Second)
of Conflicts § 196—to conclude that while there was a
presumption that the law of the state where services were

App-29
work performed at least partially in another state. For
several reasons, we are unpersuaded by defendants’
arguments. For one, we read Sullivan as indicating
that under California’s choice-of-law principles, a
state has a legitimate interest in applying its wage
laws extraterritorially only in two limited
circumstances, neither of which apply here: one, when
a state’s resident employee of that state’s resident
employer leaves the state “temporarily during the
course of the normal workday,” and two, “when the
traveling, resident employee of a domestic employer
would otherwise be left without the protection of
another state’s law.” Id. at 242, 246 (citations, internal
quotation marks, and alterations omitted).
Moreover, the cases on which defendants and the
dissent rely are, in large part, both factually and
procedurally inapposite to the circumstances of this
case. 12 For example, defendants rely heavily on
rendered applies, the presumption could be overcome by showing
that another state had a “more significant relationship to the
transaction and the parties.” Id. at 631. Where all parties were
residents of West Virginia, the employment contract was made
and partially performed in West Virginia, and the plaintiffs were
only in Kentucky for the duration of the work, the court concluded
that the presumption was overcome and that West Virginia “had
the more significant connection to the employment relationship.”
Id. California’s choice-of-law test, of course, does not utilize the
“more significant relationship” test for choice-of-law questions in
the wage and hour context. See Sullivan, 254 P.3d at 244. New is
therefore unpersuasive here. We discuss the Washington
Supreme Court case below.
12 Defendants’ repeated citation to Gonyou v. Tri-Wire Eng’g
Sols., Inc., 717 F. Supp. 2d 152 (D. Mass 2010) is illustrative. In
Gonyou, a Massachusetts resident employee of a Massachusetts
employer worked largely, although not entirely, in Connecticut.

App-30
Bostain v. Food Exp., Inc., 153 P.3d 846, 851 (Wash.
2007) to argue that Washington has an interest in
applying its wage laws extraterritorially. As the
California Supreme Court held in Sullivan, however,
Bostain “says nothing about a case such as this”—that
is, a case which (1) involves work performed entirely
in one state, and (2) presents an unavoidable conflictof-laws issue. 254 P.3d at 243. In Bostain, by contrast,
either Washington law applied to the work performed
in both Washington and other states, or else no state’s
law applied. Id. at 243, 246. Significantly, Bostain
interpreted an overtime statute that specifically
delineated the circumstances under which its
provisions would apply to interstate truck drivers; as
the Washington Supreme Court noted, interstate
truck drivers by definition perform some of their work
out of state. 153 P.3d at 848-51. The statute at issue
in Bostain did “not limit the requirement for overtime
pay to hours worked” within the state’s borders. Id. at
851. Similarly, here, defendants point to no state
statutes potentially applicable to the Arizona and
Florida class members that limit their application to
work performed within the state.
3.
Although the existence of a “true” conflict is
questionable, we need not decide whether a true
Id. at 153-54. The defendant filed a motion to dismiss on the
ground that the Massachusetts overtime statute did not apply to
work performed in Connecticut. Id. at 154-55. The court denied
the motion but emphasized the limited nature of its ruling: “As is
eminently clear, this is a motion to dismiss and this ruling is
strictly limited to the facts and circumstances of this case and
this motion.” Id. at 155.

App-31
conflict exists, as the third step of California’s
governmental interest test yields a clear answer: the
laws of Arizona and Florida should apply to the work
performed
wholly
within
their
respective
13
boundaries. See Sullivan, 254 F.3d at 247. As the
California Supreme Court has explained the step
three inquiry:
[T]he court does not “weigh” the conflicting
governmental interests in the sense of
determining which conflicting law manifested
the “better” or the “worthier” social policy on
the specific issue. An attempted balancing of
conflicting state policies in that sense is
difficult to justify in the context of a federal
system in which, within constitutional limits,
states are empowered to mold their policies as
Furthermore, in many of the cases cited by the dissent to
demonstrate that some states have asserted an interest in
applying their wage and hour laws outside of their borders, courts
have looked closely at where the relevant work is performed. See
e.g., Pierre v. Gts Holdings, Inc., No. 15 CIV. 143 (PAC), 2015 WL
7736552, at *3-*4 (S.D.N.Y. Nov. 30, 2015) (concluding that New
York labor laws apply because, among other things, the majority
of the plaintiff’s chauffeured rides were conducted in New York);
Baxi v. Ennis Knupp & Assocs., Inc., No. 10-CV-6346, 2011 WL
3898034, at *14 (N.D. Ill. Sept. 2, 2011) (denying a motion to
dismiss Illinois labor law claims because the plaintiff, a foreign
resident, performed some work in Illinois); Friedrich v. U.S.
Computer Sys., Inc., No. CIV. A. 90-1615, 1996 WL 32888, at *8
(E.D. Pa. Jan. 22, 1996) (concluding that a Pennsylvania labor
law applies to the plaintiffs because the jury found the plaintiffs
were “based in Pennsylvania,” even if they were not residents of
the state); Dow, 989 N.E.2d at 914 (concluding that
Massachusetts law applied because, given the nature of the
plaintiff’s work, the work “sensibly may be viewed as having
‘occurred’ in Massachusetts”).
13

App-32
they wish. Instead, the process can accurately
be described as a problem of allocating
domains of law-making power in multi-state
contexts—by determining the appropriate
limitations on the reach of state policies—as
distinguished from evaluating the wisdom of
those policies. Emphasis is placed on the
appropriate scope of conflicting state policies
rather than on the “quality” of those policies.
McCann, 225 P.3d at 533-34 (alterations and citations
omitted) (emphasis added).
As discussed above, in Mazza, we faithfully
applied the principle under California’s choice-of-law
jurisprudence that “a jurisdiction ordinarily has the
predominant interest in regulating conduct that
occurs within its borders.” Mazza, 666 F.3d at 592
(internal quotation marks omitted) (quoting McCann,
225 P.3d at 534). We thus had no trouble concluding
at step three that “each class member’s consumer
protection claim should be governed by the consumer
protection laws of the jurisdiction in which the
transaction took place.” Id. at 594. Notably, we
reached this conclusion without specifically inquiring
into the interests potentially expressed by any state’s
statutory language or case law. Rather, our conclusion
was dictated by the principle, discussed above, that a
jurisdiction ordinarily has the predominant interest in
regulating conduct within its own borders. Id. at 59192 (first citing State Farm Mut. Auto. Ins. Co. v.
Campbell, 538 U.S. 408, 422 (2003); and then citing
McCann, 225 P.3d at 534).
Moreover, in Sullivan, the court concluded that to
subordinate California’s ability to apply its own wage

App-33
laws to work performed within the state would
“unquestionably” cause greater impairment to
California than to the states that might seek to apply
their wage laws to work performed by their residents
within California. 254 P.3d at 247. As described
previously, while this holding was influenced by the
absence of an expression of interest by Arizona or
Colorado in applying their laws extraterritorially, it
did not rise or fall on that ground. See id. at 244-47.
And although defendants point to a handful of cases
that have entertained the potential application of one
state’s wage laws to work performed in another state,
they have not pointed to a single state with a
potentially-applicable statute that expresses a clear
interest in applying to work performed wholly outside
the state.
But even if defendants were able to identify any
states that had unambiguously expressed an interest
in applying their wage laws to work performed
entirely in another state, Sullivan strongly militates
against concluding that such an expression of interest
would be adequate to overcome the principle that the
state in which the conduct at issue occurs has the
“predominant interest” in applying their own law. See
Mazza, 666 F.3d at 592-94; Sullivan, 254 P.3d at 24547. Forcing Arizona or Florida to allow the application
of other states’ wage laws in this case would be just as
destructive to the balance Arizona and Florida have
struck between protecting workers and fostering a
hospitable business environment within their states
as allowing the application of Colorado or Arizona law
in Sullivan would have been to the balance California
struck between those same interests. See Sullivan,
254 P.3d at 246-47. The district court fundamentally

App-34
misunderstood the proper application of California’s
choice-of-law principles—which, when correctly
applied, indicate that Arizona law should govern the
Arizona class, and Florida law the Florida class.
C.
We next address whether the district court erred
in refusing to certify a Rule 23(b)(2) class for unpaid
work at defendants’ training facilities in Arizona and
Florida on the sole basis that choice-of-law issues
undermined “cohesiveness” and therefore made
injunctive and declaratory relief inappropriate.
Because the district court’s errors in its choice-of-law
analysis relating to the proposed Arizona and Florida
Rule 23(b)(3) classes apply equally to its refusal to
certify the proposed Rule 23(b)(2) class, we also
reverse the denial of the (b)(2) class.
We further hold that the district court erred in
imposing a “cohesiveness” requirement for the
proposed Rule 23(b)(2) class. Although we have never
explicitly addressed whether “cohesiveness” is
required under Rule 23(b)(2), courts that have
imposed such a test treat it similarly to Rule 23(b)(3)’s
predominance
inquiry 14—something
we
have
previously rejected in no uncertain terms. See Walters
v. Reno, 145 F.3d 1032, 1047 (9th Cir. 1998) (“[W]ith
respect to 23(b)(2) in particular, the government’s
dogged focus on the factual differences among the
14 The similarity between “cohesiveness” and predominance is
perhaps unsurprising, given that the Supreme Court described
the predominance inquiry under 23(b)(3) as testing whether a
class is “sufficiently cohesive to warrant adjudication by
representation.” Amchem Products, Inc. v. Windsor, 521 U.S. 591,
623 (1997) (emphasis added).

App-35
class members appears to demonstrate a fundamental
misunderstanding of the rule. Although common
issues must predominate for class certification under
Rule 23(b)(3), no such requirement exists under
23(b)(2).”); see also 2 Newberg on Class Actions § 4:34
(5th ed. 2012) (describing similarity between
predominance under rule 23(b)(3) and “cohesiveness”
under Rule 23(b)(2) in courts that have adopted it). We
therefore remand for the district court to consider
anew whether to certify the proposed Rule 23(b)(2)
class. 15
III.
Having addressed the impact of choice-of-law
questions, we turn to the issue next up at bat: whether
the district court erred in concluding that plaintiffs
could meet the predominance requirement for the
proposed California, Florida, and Arizona (b)(3)
classes through a combination of representative
evidence and application of the “continuous workday”
rule.
Rule 23(b)(3)’s predominance requirement
requires courts to ask “whether the common,
aggregation-enabling issues in the case are more
prevalent or important than the non-common,
aggregation-defeating, individual issues.” Tyson
Foods, Inc. v. Bouaphakeo, 136 S. Ct. 1036, 1045
(2016) (quoting 2 Newberg on Class Actions § 4:49 (5th
15 While the parties advanced numerous arguments regarding
(b)(2) certification in the district court, and advance similar
arguments—along with a few new ones—before us, we decline to
pass on those other issues in the first instance. See Stockwell, 749
F.3d at 1113, 1116-17; Davis v. Nordstrom, Inc., 755 F.3d 1089,
1094-95 (9th Cir. 2014).

App-36
ed. 2012)). A proposed (b)(3) class may be certified as
long as “one or more of the central issues in the action
are common to the class and can be said to
predominate . . . even though other important matters
will have to be tried separately, such as damages or
some affirmative defenses peculiar to some individual
class members.” Id. (quoting 7AA C. Wright, A. Miller,
& M. Kane, Federal Practice and Procedure § 1778 (3d
ed. 2005)).
“[P]redominance in employment cases is rarely
defeated on the grounds of differences among
employees so long as liability arises from a common
practice or policy of an employer.” 7 Newberg on Class
Actions § 23:33 (5th ed. 2012). Although the existence
of blanket corporate policies is not a guarantee that
predominance will be satisfied, such policies “often
bear heavily on questions of predominance and
superiority.” In re Wells Fargo Home Mortg. Overtime
Pay Litig., 571 F.3d 953, 958 (9th Cir. 2009).
Whether the district court was correct in
concluding that plaintiffs had satisfied the
predominance requirement hinges on the application
of two longstanding wage-and-hour doctrines to this
case: first, the burden-shifting framework initially set
forth in the Supreme Court’s seminal decision in
Anderson v. Mt. Clemens, 328 U.S. 680 (1946) and
recently expanded upon in Tyson Foods v.
Bouaphakeo, 136 S. Ct. 1036 (2016); and second, the
so-called “continuous workday” rule. We address each
of these doctrines and their application to this case in
turn.

App-37
A.
In Mt. Clemens, the Supreme Court acknowledged
the difficult bind that employees frequently
confronted when seeking to bring wage-and-hour
claims against their employers: if their employers had
failed to maintain proper timekeeping records,
proving the hours of uncompensated work often posed
“an impossible hurdle for the employee.” 328 U.S. at
687. Mt. Clemens held that such a catch-22 was not in
line with “the remedial nature of [the FLSA] 16 and the
great public policy which it embodies.” Id. After all,
“[s]uch a result would place a premium on an
employer’s failure to keep proper records in conformity
with his statutory duty; it would allow the employer to
keep the benefits of an employee’s labors without
paying due compensation.” Id.
To address this problem, Mt. Clemens established
its landmark burden-shifting framework for actions in
which the employer has kept inaccurate or inadequate
records: if an employee “proves that he has in fact
performed work for which he was improperly
compensated” and “produces sufficient evidence to
show the amount and extent of that work as a matter
of just and reasonable inference,” then the burden
“shifts to the employer to come forward with evidence
of the precise amount of work performed or with
Although Mt. Clemens was decided under the FLSA, its
holding has been consistently applied in the context of state
wage-and-hour claims as well. See, e.g., Tyson, 136 S. Ct. at 104548; Torres v. Mercer Canyons Inc., 835 F.3d 1125, 1140 (9th Cir.
2016); Hernandez v. Mendoza, 245 Cal. Rptr. 36, 39-40 (Cal. Ct.
App. 1988) (applying Mt. Clemens to claims under California
wage and hour law).
16

App-38
evidence to negative the reasonableness of the
inference to be drawn from the employee’s evidence.”
Id. at 687-88. If the employer does not rebut the
employee’s evidence, damages may then be awarded
to the employee, “even though the result be only
approximate.” Id. at 688.
Mt. Clemens explicitly rejected the notion that
allowing approximate damages in such situations
would be unfair due to its speculative and imprecise
nature or because employers sometimes make goodfaith mistakes over what constitutes compensable
“work”:
The employer cannot be heard to complain
that the damages lack the exactness and
precision of measurement that would be
possible had he kept records in accordance
with the [statutory] requirements . . . And
even where the lack of accurate records grows
out of a bona fide mistake as to whether
certain activities or non-activities constitute
work, the employer, having received the
benefits of such work, cannot object to the
payment for the work on the most accurate
basis possible under the circumstances . . . In
such a case it would be a perversion of
fundamental principles of justice to deny all
relief to the injured person, and thereby
relieve the wrongdoer from making any
amend for his acts.
Id. (internal quotation marks and citation omitted).
Seventy years after Mt. Clemens addressed the
use of representative evidence at the trial stage to
show damages, Tyson extended Mt. Clemens’ holding

App-39
to answer two important questions: whether
representative evidence may be used at the class
certification stage, and whether representative
evidence may also be used to establish liability in
addition to damages. In Tyson, employees who worked
in more than 400 jobs across three departments at a
meat processing plant sued under the FLSA and an
Iowa wage law, alleging that Tyson had not paid them
overtime for time they spent donning and doffing
protective gear; the employees also sought
certification of a Rule 23 class and a FLSA collective
action. 136 S. Ct. at 1041-42.
The district court certified the class and collective
actions, rejecting Tyson’s arguments that the claims
were inappropriate for resolution on a classwide and
collective basis due to the dissimilarity in the types of
protective gear worn and the variations in time spent
donning and doffing that gear. Id. at 1042-43. Because
Tyson had not kept records of the donning and doffing
time, plaintiffs relied on representative evidence to
demonstrate both liability 17 and damages: employee
testimony,
video
recordings,
and—most
significantly—an expert study that computed an
estimated amount of time spent donning and doffing
Because the employees brought only overtime claims (as
opposed to minimum wage or other wage claims), “each employee
had to show he or she worked more than 40 hours a week,
inclusive of time spent donning and doffing, in order to recover.”
Tyson, 136 S. Ct. at 1043. That the majority permitted the use of
representative evidence to establish “an otherwise uncertain
element of liability”—i.e., whether class members worked more
than 40 hours per week—was one of the key bases for Justice
Thomas’s vigorous dissent. See id. at 1057-59 (Thomas, J.,
dissenting).
17

App-40
for each of the three departments based on hundreds
of video observations. Id. at 1043. Although the expert
estimated that the time spent donning and doffing was
18 minutes per day for two of the departments and
21.25 minutes for the other, id., the survey data
showed a great deal of variation in how long it took
individual employees to don and doff. Id. at 1055
(Thomas, J., dissenting). Specifically, the time spent
donning ranged from around thirty seconds to more
than ten minutes, and the time doffing varied from
under two minutes to over nine minutes. Id. After a
jury verdict in the employees’ favor (albeit one that
awarded less than half of the damages recommended
by the employees’ expert based on the survey data),
Tyson moved to decertify the class and set aside the
jury verdict, arguing that this variance made class and
collective certification inappropriate. Id. at 1044-45.
The district court denied the motion, and the Eighth
Circuit affirmed. Id.
Tyson sought certiorari on the grounds that using
representative evidence “manufactures predominance
by assuming away the very differences that make the
case inappropriate for classwide resolution,” “absolves
each employee of the responsibility to prove personal
injury,” and strips the employer of their ability to
“litigate its defenses to individual claims.” Id. at 1046.
Rejecting these arguments, the Supreme Court
affirmed the class and collective certifications. Id. at
1046-47. Because of Tyson’s dereliction of their
recordkeeping duties, the employees were entitled to
“introduce a representative sample to fill an
evidentiary gap created by the employer's failure to
keep adequate records.” Id. at 1047. The Court held
that if the representative sample introduced were

App-41
admissible and “could have sustained a reasonable
jury finding as to hours worked in each employee’s
individual action, that sample is a permissible means
of establishing the employees’ hours worked in a class
action.” Id. at 1046-47.
Stated another way, Tyson concluded that even
where “reasonable minds may differ” about whether
representative evidence is sufficiently probative of the
requirements for liability for a particular cause of
action—in Tyson, whether it was probative of the
“time actually worked by each employee”—that
question is to be resolved by the jury, not at the class
certification stage. Id. at 1049 (“The District Court
could have denied class certification on this ground
[whether the representative evidence was “probative
as to the time actually worked by each employee”] only
if it concluded that no reasonable juror could have
believed that the employees spent roughly equal time
donning and doffing.”) (emphasis added). If the
proffered representative evidence, however, were
“statistically inadequate or based on implausible
assumptions,” it “could not lead to a fair or accurate
estimate of the uncompensated hours an employee has
worked.” Id. at 1048-49. But where the evidence is
admissible—for expert evidence, using the Daubert
standard—then the “no reasonable juror” standard at
the class certification stage applies. See id. at 1049.
B.
Having established the parameters of when
representative evidence may be used at the class
certification stage, we address the second significant
wage-and-hour doctrine relevant to this case: the
“continuous workday” rule. The rule was first

App-42
promulgated by the Department of Labor (DOL)
consistent with the Supreme Court’s decisions
interpreting the FLSA prior to the enactment of the
Portal-to-Portal Act 18 in 1947. IBP, Inc. v. Alvarez, 546
U.S. 21, 27-28 (2005). It presumes that once the
beginning of the workday is triggered, an employee
performs compensable work throughout the rest of the
day until the employee completes their last principal
activity (or the last activity which is “integral and
indispensable”
to
the
employee’s
principal
activities)—whether or not the employee actually
engages in work throughout that entire period. See id.
at 28, 32-37; see also Alvarez v. IBP, Inc., 339 F.3d 894,
907 (9th Cir. 2003), aff’d, 546 U.S. 21 (2005) (holding
that under the continuous workday rule, “work time
[is] continuous, not the sum of discrete periods”).
Of course, this rule raises inevitable questions:
when does the workday begin, and when does it end?
The DOL defines the “workday” to generally mean
In response to what Congress perceived as excessively
expansive judicial interpretations of what constitutes
compensable work under the FLSA, IBP, 546 U.S. at 27-28, it
passed the Portal-to-Portal Act to exempt certain activities as
compensable under FLSA:
18

“(1) walking, riding, or traveling to and from the actual place
of performance of the principal activity or activities which
such employee is employed to perform, and
(2) activities which are preliminary to or postliminary to said
principal activity or activities,
which occur either prior to the time on any particular workday at
which such employee commences, or subsequent to the time on
any particular workday at which he ceases, such principal
activity or activities.” 61 Stat. 86-87 (codified at 29 U.S.C.
§ 254(a)).

App-43
“the period between the commencement and
completion on the same workday of an employee's
principal activity or activities.” 29 C.F.R. § 790.6(b).
The Supreme Court expanded upon this definition,
interpreting “principal activity or activities” to also
include “all activities which are an integral and
indispensable part of the principal activities.” IBP,
546 U.S. at 29-30 (internal quotation marks and
citation omitted). Thus, any activity which is “integral
and indispensable” to principal activities, even if
performed outside of a scheduled shift, triggers the
beginning of the “workday.” Id. at 31-37. “Among the
activities included as an integral part of a principal
activity are those closely related activities which are
indispensable to its performance,” 29 C.F.R.
§ 790.8(c), such as knife-sharpening performed
outside of a scheduled shift by butchers at a
meatpacking plant. Mitchell v. King Packing Co., 350
U.S. 260, 261-63 (1956).
C.
With all of that in mind, we turn to how these two
doctrines impact this case, and more specifically,
whether the district court was correct in concluding
that the combination of Tyson and the continuous
workday rule enabled plaintiffs to show that they meet
Rule
23(b)(3)’s
predominance
requirement.
Defendants contend that the district court erred in
holding
that
plaintiffs
had
demonstrated
predominance for two main reasons: (1) because the
Main Survey asked only about arrival and departure
times at the ballpark and not about what activities the
players actually performed while at the ballpark,
plaintiffs cannot rely on the continuous workday

App-44
theory because there is no way to determine the
beginning or end of the “workday,” and (2) the Main
Survey revealed significant variations in players’
arrival and departure times, even among players
employed by the same MLB franchise.
This task requires us to address the proposed
Arizona and Florida classes separately from the
California class. As an initial matter, however, we
note that despite defendants’ repeated suggestions to
the contrary, the representative evidence offered by
plaintiffs was not limited to just the Main Survey, nor
are observational studies the only type of evidence
permitted to fill in evidentiary gaps under Tyson. We
reject defendants’ erroneous view of the record and
their cramped reading of Tyson.
1.
As to the Arizona and Florida classes, we easily
affirm the district court’s determination. Recall that
these two classes cover time spent participating in
spring training, extended spring training, and the
instructional leagues—periods during which virtually
all players are completely unpaid for their
participation. 19 Moreover, these classes do not bring
Payroll data produced by defendants reveals that of the
21,211 players who participated in spring training between the
2009 and 2015 seasons, only 11 were paid a salary. Put
differently, a mere .005% of players received a salary during
spring training, and those 11 players may be identified through
payroll records and appropriately excluded from the class.
Likewise, a small number of MLB franchises pay players during
extended spring training, but these players are identifiable
through payroll records and may either be excluded from the
class or, potentially, placed into a subclass.
19

App-45
overtime claims, but rather allege minimum wage
violations, 20 Therefore—as the district court correctly
held—liability can be established simply by showing
that the class members performed any compensable
work. 21 That is easily resolved on a classwide basis by
answering two questions: (1) are the players
employees of defendants, and (2) do the minor league
team activities during these periods constitute
compensable work under the laws of either Arizona or
Florida? We hold that these two “common,
aggregation-enabling issues in the case are more
prevalent [and] important than the non-common,
aggregation-defeating,
individual
issues,”
therefore making certification appropriate. Tyson,
136 S. Ct. at 1045 (2 Newberg on Class Actions
§ 4:49 (5th ed. 2012)).
Defendants do not seriously contest that their
policy is to deny players compensation during spring
training, extended spring training, and the
instructional leagues—nor could they credibly do so,
given that the MLB’s own mandatory contract
“obligates Player[s] to perform professional services
on a calendar year basis, regardless of the fact that
salary payments are to be made only during the actual
championship playing season.” And as we have long
The Arizona and Florida classes also bring quantum meruit
claims, and the Arizona class alleges recordkeeping violations,
but the parties do not dispute that these claims are irrelevant to
this portion of our predominance analysis.
20

21 We also note that the Arizona class’s claims are bolstered by
the fact that under Arizona law, failure to keep appropriate
records of hours worked “raise[s] a rebuttable presumption that
the employer did not pay the required minimum wage rate.” Ariz.
Rev. Stat. Ann. § 23-364.

App-46
held, such uniform corporate policies “carry great
weight for certification purposes.” In re Wells Fargo
Home Mortg. Overtime Pay Litig., 571 F.3d at 958.
This is not the “rare[]” case where predominance is
defeated despite the existence of an employer’s
“common practice or policy.” 7 Newberg on Class
Actions § 23:33 (5th ed. 2012).
We also agree with the district court that as to
these classes, many of defendants’ protests go to
damages, not liability. Damages may well vary, and
may require individualized calculations. But “the rule
is clear: the need for individual damages calculations
does not, alone, defeat class certification.” Vaquero v.
Ashley Furniture Indus., Inc., 824 F.3d 1150, 1155 (9th
Cir. 2016); see Tyson, 136 S. Ct. at 1045 (holding that
where “one or more of the central issues in the action
are common to the class and can be said to
predominate,” certification may be appropriate “even
though other important matters will have to be tried
separately, such as damages.” (quoting 7AA C.
Wright, A. Miller, & M. Kane, Federal Practice and
Procedure § 1778 (3d ed. 2005))).
We do not, however, mean to minimize
defendants’ criticisms of the Main Survey. Indeed, we
agree that there are a number of legitimate questions
about the persuasiveness of the Main Survey,
especially if it were the only representative evidence
submitted in support of certification. But as we have
mentioned, the Main Survey was but one piece of the
plaintiffs’ representative evidence—evidence that also
included hundreds of internal team schedules and
public game schedules, payroll data, and the
testimony of both players and league officials.

App-47
At minimum, if the players are “employees” under
either Arizona or Florida law and defendants are
unable to prove that any affirmative defenses apply,
the team schedules will serve to conclusively
demonstrate that the players spent time working for
which they were uncompensated. See Ariz. Rev. Stat.
Ann. § 23-362; Ariz. Admin. Code. § R20-5-1202(19)
(“‘Hours worked’ means all hours for which an
employee covered under the Act is employed and
required to give to the employer, including all time
during which an employee is on duty or at a prescribed
work place and all time the employee is suffered or
permitted to work.”); 29 C.F.R. § 778.223 (“As a
general rule the term ‘hours worked’ will include:
(a) All time during which an employee is required to
be on duty or to be on the employer's premises or at a
prescribed workplace and (b) all time during which an
employee is suffered or permitted to work whether or
not he is required to do so.”). 22 Moreover, if plaintiffs
can persuade a jury that their workday began at a
particular time—either because they were required to
report at that time, 23 or because they arrived of their
We rely on interpretations of the FLSA here because
Florida’s constitution provides that “case law, administrative
interpretations, and other guiding standards developed under
the federal FLSA shall guide the construction of [the
constitutional amendment providing for a minimum wage] and
any implementing statutes or regulations.” Fla. Const. art. X,
§ 24.
22

23 See 29 C.F.R. § 790.6 (“If an employee is required to report at
the actual place of performance of his principal activity at a
certain specific time, his ‘workday’ commences at the time he
reports there for work in accordance with the employer’s
requirement.”).

App-48
own volition but engaged in work activities upon
arriving (i.e., were “permitted” to work)—the
continuous workday doctrine eliminates the need for
plaintiffs to prove which activities they engaged in
throughout the day. 24 See IBP, 546 U.S. at 28, 32-27.
Defendants should not “be heard to complain that
the damages lack the exactness and precision of
measurement that would be possible had [they] kept
records in accordance with the [statutory]
requirements,” even if their “lack of accurate records
grows out of a bona fide mistake as to whether certain
activities or non-activities constitute work.” Mt.
Clemens, 328 U.S. at 688. “Having received the
benefits of such work, [defendants] cannot object to
the payments for the work on the most accurate basis
possible under the circumstances.” Id.
2.
We next address whether the district court was
correct to hold that predominance had been met for
the California class. Given the differences in the types
of claims brought by the California class as compared
to the Arizona and Florida classes, certification of the
California class is more complex and requires
additional analysis. Unlike the Arizona and Florida
classes, the California class brought claims relating to
work performed during the championship season—a
time when the players do get paid, albeit not much. As
24 A jury may also decide that for baseball players, activities
like hitting practice with coaches and supervised weightlifting—
much like knife-sharpening by butchers at a meatpacking
plant—are “integral and indispensable” to the principal activity
of playing baseball and therefore trigger the start of the
“workday.” See Mitchell, 350 U.S. at 261-63.

App-49
a result, in order to prove liability on their overtime
claims, the California class must show that its
members worked more than 8 hours in a day, more
than 40 hours in a week, and/or worked 7 days in a
workweek. See Cal. Labor Code § 510; Mendoza v.
Nordstrom, Inc., 393 P.3d 375, 381-82 (Cal. 2017).
Likewise, to establish liability on their minimum wage
claims, the California class must demonstrate that
they worked hours for which they were not paid at
least minimum wage—but whereas the Arizona and
Florida classes can demonstrate liability simply by
showing they worked any hours, the California class’s
burden is made more challenging by the fact that the
players receive some pay. See Cal. Labor Code §§ 1182
et seq; Armenta v. Osmose, Inc., 37 Cal. Rptr. 3d 460,
466-68 (Cal. Ct. App. 2005). Nonetheless, a number of
considerations lead us to affirm the district court’s
determination.
First, as with defendants’ uniform policy of not
paying players for participation outside of the
championship season, defendants do not credibly
dispute that their policy is to never pay overtime and
to pay a fixed salary, regardless of the actual number
of hours worked. We reiterate that common corporate
policies like this “carry great weight for certification
purposes,” In re Wells Fargo Home Mortg. Overtime
Pay Litig., 571 F.3d at 958, and that predominance is
“rarely” defeated in cases where such uniform policies
exist. See 7 Newberg on Class Actions § 23:33 (5th ed.
2012).
Second, the team schedules alone—independent
of the Main Survey or any other evidence—may suffice
to show overtime liability. As the district court noted,

App-50
plaintiffs’ expert testified that approximately 65-85%
of California League players had at least one
workweek with games on all seven days, and that
nearly half of all workweeks included games on all
seven days. For those workweeks, the players would
be entitled to overtime pay for their work on the
seventh day of the workweek. See Cal. Labor Code
§ 510.
Third, and most significantly, we are persuaded
that under Tyson, the representative evidence
plaintiffs offered was adequate to meet their burden
at this stage. As we observed in the preceding section,
defendants do identify multiple legitimate criticisms
of the Main Survey, and it is certainly possible that a
jury may not find the Main Survey—even in
combination with all of plaintiffs’ other evidence—
adequate proof of liability (or at least not to the extent
plaintiffs allege). In particular, a jury may be
persuaded by defendants’ arguments that players did
not begin compensable work upon arriving at the
ballpark or that players stopped engaging in
compensable work long before they left the ballpark,
such that the Main Survey’s estimated arrival and
departure times are insufficient to clear the
preponderance hurdle. As we explain below, however,
Tyson counsels that such criticisms do not doom
certification here unless no reasonable jury could
conclude that the combination of the Main Survey and
plaintiffs’ other representative evidence was probative
of the amount of time players actually spent
performing compensable work. See Tyson, 136 S. Ct.
at 1046-49. And while defendants correctly point out
that the Main Survey revealed meaningful variations
in players’ arrival and departure times, the same was

App-51
true of the employees’ donning and doffing times in
Tyson—yet such variation did not preclude
certification there. See id. at 1043; id. at 1055
(Thomas, J., dissenting).
Because defendants do not challenge the district
court’s ruling on admissibility under Daubert, the
defects they have identified with the Main Survey
could only have defeated certification upon a
conclusion that all of the representative evidence
offered—the Main Survey, schedules, testimony, and
the like—could not have “sustained a reasonable jury
finding as to hours worked in each employee’s
individual action.” See Tyson, 136 S. Ct. at 1046-47. As
in Tyson, the district court “made no such finding,” id.
at 1049, and indeed found the opposite:
Plaintiffs will be able to use the survey data
in combination with other evidence that may
be sufficient to allow a jury to draw
conclusions based on reasonable inference as
to when players were required to be at the
ballpark and how long after games they were
required to remain at the ballpark. . . . Thus,
as in Tyson Foods, it appears that
representative evidence can be combined
with actual records of time spent engaged in
the various activities to derive a reasonable
estimate of the amount of time worked by
class members.
We are then left to ask whether “the record here
provides [a] basis for [us] to second-guess that
conclusion.” Id.
After reviewing the record, we are satisfied that
we should not disturb the district court’s

App-52
determination, in part due to California’s expansive
definition of “employ” and “hours worked.” 25 Under
California law, to “employ” means “to engage, suffer,
or permit to work.” Cal. Code Regs. tit. 8,
§§ 11040(2)(E), 11100(2)(E) (emphasis added). 26
“Hours worked” means “the time during which an
employee is subject to the control of an employer, and
includes all the time the employee is suffered or
permitted to work, whether or not required to do so.”
Cal. Code Regs. tit. 8, §§ 11040(2)(K), 11100(2)(H).
Inexplicably, however, defendants claim that under
California law, “time spent engaging in activities that
are not required by, or under the control of, an
employer is not compensable and does not begin or
Unlike Arizona and Florida law—the former of which is
silent on the incorporation of FLSA doctrines, and the latter of
which expressly incorporates them—we are not persuaded that
the continuous workday rule should apply to the California class.
We view California’s definition of “hours worked” as more
expansive and more employee-friendly than under the FLSA,
even with the incorporation of the continuous workday rule. The
California Supreme court has “cautioned against confounding
federal and state labor law,” and has consistently held that
“absent convincing evidence of the [California agency’s] intent to
adopt the federal standard for determining whether time is
compensable under state law, we decline to import any federal
standard, which expressly eliminates substantial protections to
employees, by implication.” Troester v. Starbucks Corp., 421 P.3d
1114, 1119 (Cal. 2018) (alterations, citations, and internal
quotation marks omitted).
25

26 The California Industrial Welfare Commission’s wage orders
“have the force of law.” Alvarado v. Dart Container Corp. of Cal.,
411 P.3d 528, 532 (Cal. 2018). We need not decide today which
wage order applies to minor league players, as all of the most
relevant orders define “employ” and “hours worked” the same
way.

App-53
extend a workday.” This is a tortured and wholly
unsupported reading of the law, and is manifestly
contrary to one of the cases defendants themselves cite
in support of their argument. See Morillion v. Royal
Packing Co., 995 P.2d 139, 143 (Cal. 2000) (“[T]he two
phrases—‘time during which an employee is subject to
the control of an employer’ and ‘time the employee is
suffered or permitted to work, whether or not required
to do so’—can also be interpreted as independent
factors, each of which defines whether certain time
spent is compensable as ‘hours worked.’”) (citation
omitted).
Indeed, Morillion counsels that “hours worked”
includes all time the employer “permit[s]” an employee
to work, even if the work is not required and the
employee is not under the employer’s control. See id.
Thus, a player who arrives early or stays late at the
ballpark of their own volition and performs “work”
activities during that time is still owed compensation
because the player was “permitted” to work, despite
the work not being required.
Likewise, under Morillion, if players were
expected to arrive or depart at a particular time—
whether that requirement was de facto or official—it
is immaterial what activities the players actually
engaged in while at the ballpark. Even if the players
spent their time at the ballpark doing things like
eating or showering, they were still under their
employer’s control and unable “to use the time
effectively for their own purposes,” and thus were
owed compensation. See id. at 146. Indeed, Morillion
explicitly rejected an analogous argument by the
employer in that case:

App-54
We reject Royal’s contention that plaintiffs
were not under its control during the required
bus ride because they could read on the bus,
or perform other personal activities.
Permitting plaintiffs to engage in limited
activities such as reading or sleeping on the
bus does not allow them to use the time
effectively for their own purposes . . .
Plaintiffs were foreclosed from numerous
activities in which they might otherwise
engage if they were permitted to travel to the
fields by their own transportation. Allowing
plaintiffs the circumscribed activities of
reading or sleeping does not affect, much less
eliminate, the control Royal exercises by
requiring them to travel on its buses and by
prohibiting them from effectively using their
travel time for their own purposes.
Similarly . . . listening to music and drinking
coffee while working in an office setting can
also be characterized as personal activities,
which would not otherwise render the time
working noncompensable.
Id. (alterations, internal quotation marks, and
citations omitted). Thus, if plaintiffs use their
representative evidence—especially the Main Survey
and the testimony of players and league officials—to
persuade a jury that they were required to be at the
ballpark at particular times, they need not show how
the players spent that time.
The fourth and final consideration weighing in
favor of affirming the district court’s determination is
our standard of review. Abuse of discretion is always

App-55
a relatively deferential standard, but when we review
a grant of class certification, “we accord the district
court noticeably more deference than when we review
a denial.” Abdullah, 731 F.3d at 956 (citation omitted).
Were we to review de novo, this would likely be a
closer call. But as they say, tie goes to the runner—
and, under our deferential standard, to the district
court.
D.
Finally, defendants, citing to Wal-Mart Stores,
Inc. v. Dukes, 564 U.S. 338, 352 (2011), contend that
the district court was required to “rigorously analyze”
the Main Survey, rather than evaluating its
admissibility under Daubert and its appropriateness
for meeting class certification requirements under
Tyson. Tyson requires that we reject this argument.
There, the Court explicitly distinguished the use of
representative evidence to establish hours worked in
wage and hour claims from the use of representative
evidence in cases like Wal-Mart. Tyson, 136 S. Ct. at
1048. Specifically—as we have explained—for wage
and hour cases where the employer has failed to keep
proper records, Tyson holds that once a district court
has found expert evidence to be admissible, it may
only deny its use to meet the requirements of Rule 23
certification if “no reasonable juror” could find it
probative of whether an element of liability was met.
Id. at 1049. Given the similarities between this case
and Tyson, the rule set forward in Tyson controls, and

App-56
“[defendants’] reliance on Wal-Mart is misplaced.” 27
Id. (citation omitted).
IV.
We next address whether the district court
properly certified the FLSA collective action.
FLSA permits employees to bring lawsuits on
behalf of “themselves and other employees similarly
situated.” 29 U.S.C. §216(b). We recently delineated
the appropriate standard for FLSA collective
certification in Campbell v. City of Los Angeles, 903
F.3d 1090 (9th Cir. 2018). As we explained in
Campbell, “there is no established definition of the
FLSA’s ‘similarly situated’ requirement, nor is there
an established test for enforcing it.” Id. at 1111 (citing
Thiessen v. Gen. Elec. Capital Corp., 267 F.3d 1095,
1102 (10th Cir. 2001)). In Campbell, we rejected both
the minority approach to FLSA collective
certification—which treats a FLSA collective as
analogous to a Rule 23(b)(3)class—and the majority
“ad hoc” approach. Id. at 1111-1117. The former
approach, we observed, is inconsistent with the
statute itself, as well as the choice of Congress and the
Advisory Committee on Rules to distinguish FLSA
collectives from Rule 23 class actions. Id. at 11111113. And while the latter approach—the so-called ad
hoc approach—is a “significant improvement” over the
minority approach, it has two major flaws that led us
to decline to adopt it. Id. at 1113-1116. First, this
approach inappropriately “focus[es] on differences
27 Tyson expressly cautioned that this rule should be read
narrowly and not assumed to apply outside of the wage and hour
context. 136 S. Ct. at 1049.

App-57
rather than similarities among the party plaintiffs,”
leading district courts to “treat[] difference as
disqualifying,” rather than “treat[ing] the requisite
kind of similarity as the basis for allowing partially
distinct cases to proceed together.” Id. at 1117. Second,
because the ad hoc approach allows district courts to
weigh “fairness and procedural considerations,” it
“invites courts to import, through a back door,
requirements with no application to the FLSA,” such
as Rule 23’s predominance, adequacy, and superiority
requirements. Id. at 1115.
Because of the flaws in the two predominant
approaches to FLSA collective certification, we instead
developed our own standard: “[p]arty plaintiffs are
similarly situated, and may proceed in a collective, to
the extent they share a similar issue of law or fact
material to the disposition of their FLSA claims.” Id.
at 1117. Significantly, as long as the proposed
collective’s “factual or legal similarities are material to
the resolution of their case, dissimilarities in other
respects should not defeat collective treatment.” Id. at
1114 (emphasis omitted).
The district court here did not have the benefit of
our opinion in Campbell, and instead followed the vast
majority of district courts in this circuit by applying
the ad hoc approach. See, e.g., Lewis v. Wells Fargo &
Co., 669 F. Supp. 2d 1124, 1127 (N.D. Cal. 2009)
(“Although various approaches have been taken to
determine whether plaintiffs are ‘similarly situated,’
district courts in this circuit have used the ad hoc, twotiered approach.”). While legally incorrect, we
conclude that the district court’s erroneous use of the
ad hoc approach was harmless under the

App-58
circumstances, 28 and we affirm the collective’s
certification.
The district court found that plaintiffs met their
burden of demonstrating they were “similarly
situated,” reasoning:
First, by eliminating the winter conditioning
claims and pursuing on a classwide basis only
claims that are based on the continuous
workday
doctrine,
Plaintiffs
have
significantly reduced the need to engage in
individualized inquiries relating to the type of
work performed. Second, the Court is now
persuaded
that
the
payroll
records
maintained by Defendants will allow any
variations in compensation to be analyzed
without burdensome individualized inquiries.
This is especially true as to the spring
training, extended spring training and
instructional league claims because players
generally were not compensated for their
participation in these activities and the small
fraction of players who did receive
compensation for these activities can be
identified using payroll records maintained
by Defendants. Third, as discussed above, the
Court finds that the defenses asserted by
As we explained in Campbell, the ad hoc approach imposes a
higher bar for certification than the FLSA requires. See
Campbell, 903 F.3d at 1114-1116. Thus, if the collective was
appropriately certified under the more stringent ad hoc
approach, a fortiori the collective would be appropriately certified
under Campbell’s more lenient approach to “similarly situated.”
See id.
28

App-59
Defendants to the FLSA present common
questions that are not likely to be
overwhelmed by the need to conduct
individualized
inquiries.
Finally,
the
possibility that the Court will be required to
apply the laws of numerous states (or at a
minimum, conduct numerous choice of law
inquiries) is not present as to the FLSA class,
which will require the Court to apply only
federal wage and hour law.
Defendants’ arguments in support of reversal
echo those they make in relation to the Rule 23(b)(3)
classes, and we reject them for largely the same
reasons. Cf. Tyson, 136 S. Ct. at 1036 (“For purposes
of this case . . . if certification of respondents’ class
action under [Rule 23] was proper, certification of the
collective action was proper as well.”). We therefore
expand on our earlier reasoning only briefly.
Because the FLSA collective covers work
performed during spring training, extended spring
training, and the instructional leagues—that is, work
for which the players received no pay—we affirm the
certification of the collective for that work.
Specifically, for these time periods, two common legal
questions drive the litigation: are the players
employees, and do the activities they perform during
those times constitute compensable work? As nearly
all players are unpaid during these time periods, if the
answers to those two questions are resolved in
plaintiffs’ favor, liability may be established by
showing that the players performed any work.
We also affirm the district court’s certification of
the FLSA collective as to plaintiffs’ overtime claims,

App-60
although this holding requires additional explanation.
Critical to our decision is that plaintiffs allege a single,
FLSA-violating policy—the failure to pay overtime
under any circumstances—and argue a common
theory of defendants’ statutory violations: that
defendants “suffer or permit” plaintiffs to perform
compensable work before and after scheduled practice
and game times. These are “similar issue[s] of law or
fact material to the disposition of their FLSA claims,”
thus making plaintiffs “similarly situated.” Campbell,
903 F.3d at 1117. And as previously discussed, we
believe a reasonable jury could find that all of
plaintiffs’ evidence—not just the Main Survey, but
also the schedules, testimony, and payroll data—
sustains a “just and reasonable inference” as to the
hours players actually worked. See Tyson, 136 S. Ct.
at 1046-47.
Specifically, there are several overlapping ways
that plaintiffs may be able to rely on their
representative evidence to persuade a jury that they
have worked overtime hours for which they were not
compensated. Under any of these scenarios, the
continuous workday rule lends significant assistance
to plaintiffs by eliminating the need for plaintiffs to
prove exactly which activities they engaged in
throughout the day. See IBP, 546 U.S. at 28, 32-37.
First, plaintiffs could potentially use their
evidence—particularly the Main Survey, but also the
testimony of players and league officials—to establish
approximate times that they were required to arrive
at and depart from the ballpark. This would obviate
the need for plaintiffs to demonstrate which activities
they engaged in upon arrival or prior to departure. See

App-61
29 C.F.R. § 790.6 (“If an employee is required to report
at the actual place of performance of his principal
activity at a certain specific time, his ‘workday’
commences at the time he reports there for work in
accordance with the employer's requirement.”); 29
C.F.R. § 778.223 (“As a general rule the term ‘hours
worked’ will include . . . [a]ll time during which an
employee is required to be on duty or to be on the
employer’s premises or at a prescribed workplace.”)
(emphasis added).
Second,
plaintiffs could rely
on
their
representative evidence to demonstrate that before
and after the times they were required to be at the
ballpark, they still performed activities at the ballpark
that were “an integral and indispensable part of
[their] principal activities” and were therefore
compensable. See IBP, 546 U.S. at 29-30. As
mentioned previously, a jury may well determine that
activities like batting practice or supervised
weightlifting are to baseball players what knifesharpening is to butchers at a meatpacking plant—
that is, activities that are “integral and indispensable”
to the principal activity of playing baseball. See
Mitchell, 350 U.S. at 261-63. If so, such activities
would trigger the start of the “workday” within the
meaning of the FLSA. Plaintiffs may have somewhat
of an uphill battle proceeding under this second theory
on a collective-wide basis, but we are certainly not
prepared to say that no reasonable jury could find
defendants liable for overtime violations under this
theory. See Tyson, 136 S. Ct. at 1048-49; cf. Campbell,
903 F.3d at 1117-1119 (explaining that post-discovery
decertification motions should be evaluated under the
summary judgment standard where “overlap exists

App-62
between the availability of the collective action
mechanism and the merits of the underlying claim”).
Finally, if internal team schedules establish that
plaintiffs had required team-related activities for forty
hours a week, 29 then plaintiffs can establish liability
simply by showing that they performed any additional
work beyond those officially-scheduled times. Cf.
Tyson, 136 S. Ct. at 1036 (Thomas, J., dissenting)
(explaining that in Mt. Clemens, the employer was
“presumptively liable to all employees because they all
claimed to work 40 hours per week. All additional
uncompensated work was necessarily unpaid
overtime.”) (citation omitted).
Under any of these theories, damages will
inevitably be individualized, at least to some extent.
But just as the need for individualized damage
calculations is insufficient to defeat Rule 23
certification, “[i]ndividual damages amounts cannot
defeat collective treatment under the more forgiving
standard” for FLSA collective certification. See
Campbell, 903 F.3d at 1117 (citing Leyva v. Medline
Given the internal team schedules in the record, this may be
an easy task, particularly for spring training and extended spring
training. For example, a spring training schedule for one of the
San Francisco Giants’ affiliates involved a workday beginning at
6:30 AM on the day of a 1:00 PM away game, with a 50 minute
window provided for transit between the training facility and the
ballpark. Assuming for the sake of argument that the 1:00 PM
game lasted 2.5 hours and that the return trip to the training
facility took the same amount of time—50 minutes—as the
outgoing trip, that day alone entailed approximately 10 hours of
work if the players left the training facility immediately upon
their return (and based on the testimony in the record, that
assumption seems implausible).
29

App-63
Indus. Inc., 716 F.3d 510, 514 (9th Cir. 2013)). District
courts are well-equipped to deal with issues of
individualized calculations in the wage-and-hour
context, and may use “any of the practices developed
to deal with Rule 23 classes facing similar issues.” Id.
at 18 (citing Jimenez v. Allstate Ins. Co., 765 F.3d
1161, 1167 (9th Cir. 2014)).
As is true in all FLSA cases, underlying our
decision today is the background principle that
“because the FLSA is a remedial statute, it must be
interpreted broadly.” Lambert v. Ackerley, 180 F.3d
997, 1003 (9th Cir. 1999) (en banc) (citing Tennessee
Coal, Iron & R. Co. v. Muscoda Local No. 123, 321 U.S.
590, 597 (1944)). After all, the FLSA does not deal
“with mere chattels or articles of trade but with the
rights of those who toil.” Tennessee Coal, 321 U.S. at
597. We are satisfied that certification of the collective
is not only appropriate under our interpretation of
“similarly situated,” but also that it is consistent with
“the great public policy” embodied by the FLSA. Mt.
Clemens, 328 U.S. at 687.
V.
For the reasons explained above, we AFFIRM in
part, REVERSE in part, and REMAND for further
proceedings consistent with this opinion.
Plaintiffs-Appellants/Cross-Appellees
recover their costs on appeal.

shall

App-64
IKUTA, Circuit Judge, dissenting:
The proposed classes here comprise employees
who reside in at least 19 states, who are suing
employers who are headquartered in at least 22 states,
relating to work that took place in three different
states. Determining whether to certify a class in these
cases would (among other things) require identifying
the relevant laws of each of the potentially affected
jurisdictions, examining each jurisdiction’s interest in
the application of its own law to determine whether a
true conflict exists, and then deciding which
jurisdiction’s interest would be most impaired if its
law were not applied. Sullivan v. Oracle Corp., 51 Cal.
4th 1191, 1202-03 (2011). No wonder the district court
concluded that consideration of the plaintiffs’ claims
on a classwide basis would be overwhelmed by
individualized choice-of-law inquiries.
Yet the majority feels empowered to cut through
all these complexities by applying a simple rule of its
devise: just apply the law of the jurisdiction where the
work took place. Under this simple formula, each class
can readily be certified without any fuss. One may
admire the simplicity of this rule—but unfortunately,
it is contrary to our framework for analyzing the
intersection of class action and choice-of-law issues,
overlooks the complexity of California’s choice-of-law
rules, and creates significant practical and logistical
problems. I therefore dissent.
I
The plaintiffs in this case are current or former
Minor League Baseball players who played during the
period from 2009 to 2015. They sued Major League
Baseball (MLB) (which they argue is a joint employer

App-65
of all minor league players) and the MLB Clubs for
which they worked for violations of federal and state
labor laws, including the federal Fair Labor Standards
Act, state minimum wage laws, and state overtime
laws. The plaintiffs argue that they were entitled to
the minimum wage and overtime rates established by
California, Arizona, or Florida for work they
performed in those states.
MLB
is
an
unincorporated
association
headquartered in New York. The MLB Clubs, which
are corporate entities that own MLB teams, are
members of the MLB. All told, there are 30 MLB
Clubs, based in 17 states throughout the United
States (with one Club located in Canada). The MLB
Clubs employ around 6,000 minor league players.
Each of these players signs a Uniform Player
Contract, which governs the employment relationship
between the player and an MLB Club. The Uniform
Player Contract contains a New York choice-of-law
provision.
Each MLB Club is associated with at least six
minor league affiliate teams; most Clubs have seven
or eight. Minor league affiliate teams are loose
associations or groups, rather than corporate entities;
they do not function as employers. The minor league
teams are located in one of 44 different states.
Each spring, each Major League Club sends its
minor league players to spring training in either
Arizona or Florida. Following spring training, the
Club assigns selected employee-players to play on one
or more of its minor league affiliate teams. Employees
who are not selected to play on an affiliate team
remain at the Arizona or Florida facilities for extended

App-66
spring training. The Clubs reassign their employeeplayers to different minor league affiliate teams
throughout the five-month championship season,
sometimes playing on a minor league team for only a
single game.
During each championship season, the affiliate
minor league teams play against other teams in one of
several minor leagues. One of these minor leagues, the
California League, is comprised of eight to ten minor
league affiliate teams. During the 2010 through the
2015 championship seasons, a total of 2,113 minor
league players were assigned to play for affiliate
teams in the California League. While the California
League plays its championship season games only in
California, the players participating in the California
League are employees of MLB Clubs located in one of
six different states: California, Arizona, Ohio,
Colorado, Washington, or Texas. Several of the
plaintiffs in this appeal who played in the California
League during the championship season worked for
MLB Clubs located outside of California. For example,
Ryan Kiel, who played in the California League on the
Bakersfield Braves during part of the 2012
championship season, is a resident of Florida and an
employee of the Cincinnati Reds, a Club
headquartered in Cincinnati, Ohio. Brad McAtee, a
New York resident and another representative of the
California class, worked for the Colorado Rockies, a
club headquartered in Denver, Colorado; he trained or
played in Washington, Arizona, California, and New
York. And another California class representative,
Mitch Hilligoss, resides in Illinois and was employed
by both the New York Yankees and the Texas
Rangers. He played not only in California, but also in

App-67
Arizona, Texas, and South Carolina during the 2010
and 2011 seasons. In short, the potentially affected
jurisdictions include: (1) Arizona and Florida, where
the employees trained for varying lengths of time;
(2) the states in which the players reside, which
includes at least 19 states (only accounting for the 61
class representatives); and (3) the states in which the
players’ employers (the 22 MLB Clubs) are located.
Because
the
employees
argue
that
MLB
(headquartered in New York) is also an employer, and
because the Uniform Player Contract provides that
the laws of New York apply to any dispute under the
contract, New York minimum wage and overtime law
is likewise applicable.
Plaintiffs initially sought certification of eight
classes under Federal Rule of Procedure 23(b)(3): a
California class, a Florida class, an Arizona class, a
North Carolina class, a New York class, a
Pennsylvania class, a Maryland class, and an Oregon
class. The district court declined to certify the
plaintiffs’ proposed classes, in part because they
presented significant choice-of-law problems that
could not be handled on a classwide basis. The
plaintiffs then moved for reconsideration, narrowing
the proposed classes to the Florida and Arizona
classes, 1 and the California class. 2 The proposed
The Florida and Arizona classes were defined (respectively)
as including “[a]ny person who, while signed to a Minor League
Uniform Player Contract, participated in spring training,
instructional leagues, or extended spring training in [Florida or
Arizona] on or after Feb 7, 2009, and had not signed a Major
League Uniform Player Contract before then.”
1

2 The California class was defined as “[a]ny person who, while
signed to a Minor League Uniform Player Contract, participated

App-68
Arizona class consists of players who are employees of
Major League Baseball Clubs located in 14 states, who
are residents of at least 13 states (only accounting for
the 25 class representatives), and who were assigned
to spring training in Arizona for four weeks or more.
The proposed Florida class consists of players who are
employees of Major League Baseball clubs located in
17 states, who are residents of at least 13 states (only
accounting for the 29 class representatives), and who
were assigned to spring training in Florida for four
weeks or more. The proposed California class consists
of 2,113 players who are employees of the 11 Major
League Baseball Clubs that had affiliate teams in the
California League during the 2010 through 2015
championship seasons, who are residents of at least 11
states (only accounting for the named class
representatives), and who played on an affiliate team
in the California League during the 2010 through
2015 championship seasons.
The district court declined to certify a Florida
class and an Arizona class of plaintiffs under Rule
23(b)(3) of the Federal Rules of Civil Procedure. 3 It
in the California League on or after February 7, 2010, and had
not signed a Major League Uniform Player Contract before then.”
3

Rule 23(b)(3) provides that:

A class action may be maintained if Rule 23(a) is satisfied
and if: . . .
(3) the court finds that the questions of law or fact common
to class members predominate over any questions affecting
only individual members, and that a class action is
superior to other available methods for fairly and
efficiently adjudicating the controversy. The matters
pertinent to these findings include:

App-69
held that under California choice-of-law principles,
the problems that would have to be navigated in order
to adjudicate the claims of the Florida and Arizona
classes presented significant individualized issues
that could not be handled on a classwide basis. We
review this determination for abuse of discretion.
Abdullah v. U.S. Sec. Assocs., 731 F.3d 952, 956 (9th
Cir. 2013).
II
A brief summary of the legal framework for
deciding whether choice-of-law issues preclude
certifying a class under Rule 23(b)(3) is helpful here.
In short, before certifying a class under this provision,
the court must find “that the questions of law or fact
common to class members predominate over any
questions affecting only individual members.” Fed. R.
Civ. P. 23(b)(3). When the plaintiffs bring a class
action involving multiple jurisdictions, a court must
consider the impact of potentially varying state laws.
See Zinser v. Accufix Research Inst., Inc., 253 F.3d
1180, 1188-89 (9th Cir. 2001). If the forum state’s
substantive law may be constitutionally applied to
parties in other states, the district court must apply
the forum state’s choice-of-law rules to determine
(A) the class members’ interests in individually controlling
the prosecution or defense of separate actions;
(B) the extent and nature of any litigation concerning the
controversy already begun by or against class members;
(C) the desirability or undesirability of concentrating the
litigation of the claims in the particular forum; and
(D) the likely difficulties in managing a class action.
Fed. R. Civ. Proc. 23(b)(3).

App-70
which laws apply. See Mazza v. Am. Honda Motor Co.,
666 F.3d 581, 589-90 (9th Cir. 2012). After applying
the forum state’s choice-of-law rules, if the district
court determines that the laws of only one state apply,
then variations in state law do not raise a barrier to
class certification. See id. at 590-91. But if the
plaintiffs’ claims must be adjudicated under the laws
of multiple jurisdictions, the district court will have to
determine whether the complexities and managerial
problems defeat predominance. See Zinser, 253 F.3d
at 1188-89.
The forum state here is California, and thus
California’s choice-of-law rules apply. A brief dive into
the history of California’s choice-of-law jurisprudence
indicates that California has long rejected the
approach that the majority now adopts.
In the first half of the twentieth century,
California courts agreed that it was “the settled law in
the United States that an action in tort is governed by
the law of the jurisdiction where the tort was
committed.” Loranger v. Nadeau, 215 Cal. 362, 364-66
(1932), overruled in part by Reich v. Purcell, 67 Cal. 2d
551 (1967). California courts would therefore
generally “determine the substantive matters
inherent in the cause of action by adopting as their
own the law of the place where the tortious acts
occurred, unless it [was] contrary to the public policy
of” California. Grant v. McAuliffe, 41 Cal. 2d 859, 862
(1953). This typical approach was reflected in the
Restatement (First) of the Conflict of Laws. See
Restatement (First) of Conflict of Laws § 377 (1934)
(applying the law of “[t]he place of the wrong”).
California courts “assumed that the law of the place of

App-71
the wrong created the cause of action and necessarily
determined the extent of the liability.” Reich, 67 Cal.
2d at 553. Therefore, when the injury at issue occurred
in California, courts would generally apply California
law. See Loranger, 215 Cal. at 364-66.
But this approach came under fire for being an
inflexible and mechanical rule. See Travelers Ins. Co.
v. Workmen’s Comp. Appeals Bd., 68 Cal. 2d 7, 14 n.6
(1967). Moreover, “[i]n a complex situation involving
multi-state contacts,” California courts realized that
“no single state alone can be deemed to create
exclusively governing rights.” Reich, 67 Cal. 2d at 553.
In response, California courts began adopting a more
flexible approach. See, e.g., id.; Hurtado v. Super. Ct.
of Sacramento Cty., 11 Cal. 3d 574, 581-82 (1974). In
a “landmark opinion . . . for a unanimous court in
Reich v. Purcell,” the California Supreme Court
“renounced the prior rule, adhered to by courts for
many years, that in tort actions the law of the place of
the wrong was the applicable law in a California forum
regardless of the issues before the court.” Hurtado, 11
Cal. 3d at 579. Instead, California concluded that each
state’s interest in applying its own law must be
evaluated. See id. In 1971, the Restatement (Second)
of Conflict of Laws reflected the general movement
away from the law-of-the-situs approach espoused by
the First Restatement by replacing it with a more
flexible approach that considered each state’s interest
in applying its own laws. See Restatement (Second) of
Conflict of Laws § 6 (1971); see also id. introduction
(describing the revised approach as an “enormous
change” from the “rigid rules” laid out in the First
Restatement). California courts described the new
approach to choice-of-law principles, which reflected

App-72
the approach of the Second Restatement, as a
“governmental interest approach” that required
consideration of the interests of all the involved states.
See, e.g., Dixon Mobile Homes, Inc. v. Walters, 48 Cal.
App. 3d 964, 972 (1975). In Offshore Rental Co. v.
Continental Oil Co., the California Supreme Court
definitively announced that “[q]uestions of choice of
law are determined in California . . . by the
‘governmental interest analysis,’” which requires the
court to “search to find the proper law to apply based
upon the interests of the litigants and the involved
states.” 22 Cal. 3d 157, 161 (1978).
Today, California courts no longer apply “the old
choice-of-law rule that generally called for application
of the law of the jurisdiction in which a defendant’s
allegedly tortious conduct occurred without regard to
the nature of the issue that was before the court.”
McCann v. Foster Wheeler LLC, 48 Cal. 4th 68, 97
(2010) (emphasis in original). Instead, California
courts apply the three-step governmental interest
test. Hairu Chen v. Los Angeles Truck Ctrs., LLC,
No. S240245, 2019 WL 3281346, at *3 (Cal. July 22,
2019). “First, the court determines whether the
relevant law of each of the potentially affected
jurisdictions with regard to the particular issue in
question is the same or different.” Id. (internal
quotation marks omitted). If there is a difference, “the
court examines each jurisdiction’s interest in the
application of its own law under the circumstances of
the particular case to determine whether a true
conflict exists.” Id. (internal quotation marks
omitted). As the final step, “if the court finds that
there is a true conflict, it carefully evaluates and
compares the nature and strength of the interest of

App-73
each jurisdiction in the application of its own law to
determine which state’s interest would be more
impaired if its policy were subordinated to the policy
of the other state, and then ultimately applies the law
of the state whose interest would be the more impaired
if its law were not applied.” Id. (cleaned up).
Although California choice-of-law cases “continue
to recognize that a jurisdiction ordinarily has the
predominant interest in regulating conduct that
occurs within its borders,” see McCann, 48 Cal. 4th at
97-98 (internal quotation marks omitted), California
courts have not relied on this general principle to
shortcut the required three-part analysis, see, e.g.,
Sullivan, 51 Cal. 4th at 1202. Indeed, in McCann, a
case on which the majority relies for its rule, Maj. Op.
at 30-31, the California Supreme Court walked
through each of the steps of the governmental interest
analysis to determine whether to apply the law of
Oklahoma (where the tort occurred) or California
(where the plaintiff resided). 48 Cal. 4th at 96-98. Only
after determining at the second step that “each state
has an interest in having its law applied under the
circumstances of the present case,” id. at 96, did the
court proceed to the third step and determine that
Oklahoma law applied, in part because “a failure to
apply California law on the facts of the present case will
effect a far less significant impairment of California’s
interest,” id. at 99 (emphasis added). In short, as the
California Supreme Court recently explained, “the
governmental interest test is far from a mechanical or
rote application of various factors,” Hairu Chen, 2019

App-74
WL 3281346, at *5, and California courts must
scrupulously apply each step of the three-step test. 4
California courts also apply the governmental
interest analysis in cases where plaintiffs and
defendants raise choice-of-law issues, even outside the
tort context. In Sullivan, the California Supreme
Court applied the governmental interest analysis to a
wage-and-hour dispute, in a case where plaintiffs
contended California’s overtime law governed their
work in California, and the defendant contended the
laws of plaintiffs’ home states governed. 51 Cal. 4th at
1202. Sullivan did not merely apply California’s
overtime law, although California was the site where
the work occurred. See id. As explained below,
Sullivan made a detailed analysis of each of the three
steps of the governmental interest test. See id.
At the same time as California courts were
migrating towards the multifaceted governmental
interest test espoused by the Second Restatement,
California courts also adopted the Second
Restatement’s approach to contractual choice of law
provisions. See Gamer v. duPont Glore Forgan, Inc., 65
Cal. App. 3d 280, 287-88 (1976). Under this test,
courts would generally defer to the law of the state
chosen by the parties unless either “the chosen state
Indeed, in the California class action context, the California
Supreme Court has made clear there are no presumptive choiceof-law rules. Rather, a “trial court cannot reach an informed
decision on predominance and manageability without first
determining whether class claims will require adjudication under
the laws of other jurisdictions and then evaluating the resulting
complexity where those laws must be applied.” Hairu Chen, 2019
WL 3281346, at *5.
4

App-75
has no substantial relationship to the parties or the
transaction and there is no other reasonable basis for
the parties choice, or . . . application of the law of the
chosen state would be contrary to a fundamental
policy of a state which has a materially greater
interest than the chosen state in the determination of
the particular issue and which . . . would be the state
of the applicable law in the absence of an effective
choice of law by the parties.” Nedlloyd Lines B.V. v.
Super. Ct. of San Mateo Cty., 3 Cal. 4th 459, 465
(1992).
In undertaking the predominance analysis under
Rule 23(b), the court is required to consider the full
scope of California’s choice-of-law framework,
including each state’s interest in applying its own law,
as well as the contractual choice-of-law provision. See
Mazza, 666 F.3d at 590-91. If individualized choice-oflaw inquiries swamp predominance, then the class
cannot be certified. See id.
III
In addressing the choice-of-law framework in the
context of a Rule 23(b) inquiry, the majority concedes
that the differences in state law involved in this case
are material. Maj. Op. at 29-30. But instead of
undertaking California’s choice-of-law analysis by
identifying the relevant laws of each potentially
affected jurisdiction and examining each jurisdiction’s
interest in the application of its own law, the majority
sidesteps this analysis entirely by relying solely on its
general rule that the jurisdiction where an employee’s
work occurs has the predominant interest in
regulating conduct that occurs within its borders. Maj.
Op. at 30-35. Not only is this approach contrary to

App-76
substantive California law, but the majority’s
justification of this approach on practical grounds is
entirely misguided.
A
First, as the above description of California law
makes clear, the majority misreads and misapplies
substantive California law. In considering whether
the district court erred in declining to certify the
Arizona and Florida classes, the majority interprets
California’s choice-of-law rules as establishing the
general principle that California has the predominant
interest in regulating conduct occurring within its
borders. Maj. Op. at 31. In this vein, the majority
asserts that Sullivan “strongly militates” against
concluding that any other state has an interest in
wage and hour laws that “would be adequate to
overcome the presumption that the state in which the
conduct at issue occurs has the ‘predominant interest’
in applying their own law.” Maj. Op. at 37. These
conclusions are wrong in two different ways.
Most
important,
the
majority misreads
California’s choice-of-law rules to conclude that the
law of the situs where the work took place controls.
This is clearly contrary to California law: as shown
above, California courts have expressly rejected the
blanket rule that the law of the situs applies,
Travelers, 68 Cal. 2d at 11, and “when application of
the law of the place of the wrong would defeat the
interests of the litigants and of the states concerned,”
they do not apply that law. Reich, 67 Cal. 2d at 554;
see also Berhard v. Harrah’s Club, 16 Cal. 3d 313, 316,
323 (1976) (applying California law where the tort
occurred in Nevada but the harm was felt in

App-77
California). 5 Even where, as here, a contractual
choice-of-law provision is involved, California applies
the law of the parties’ choosing only after considering
the relevant state interests. See Nedlloyd, 3 Cal. 4th
at 465. For example, in Washington Mutual Bank, FA
v. Superior Court, the California Supreme Court
analyzed a state class action that involved both a
contractual
choice-of-law
provision
and
the
applicability of the governmental interest test. 24 Cal.
4th 906, 915 (2001). The court determined that the
test from the Restatement (Second) of Conflict of Laws
under Nedlloyd applied to the class action, id. at 918,
and that if the choice-of-law provision did not apply
under Nedlloyd, the court must undertake the
governmental interest analysis, id. at 919-21.
Second, in the context of wage-and-hour disputes,
the majority wildly overreads Sullivan. In Sullivan,
the California Supreme Court expressly limited its
The majority also errs in applying substantive California law
to determine Arizona’s and Florida’s interests in the application
of their own laws, the second step of California’s governmental
interest test. Maj. Op. at 30-32. In other words, because the
California Supreme Court has expressed a strong interest in
regulating wage and hour claims within its borders, the majority
assumes that Arizona and Florida have the exact same interest.
To support this assumption, the majority cites California cases
which determined—after the application of the governmental
interest test—that a particular foreign state had a superior
interest in having its law applied. The majority fails to identify
any Arizona or Florida opinion expressing such an interest,
however. This is clearly wrong. Although the district court is
bound to apply the choice-of-law provisions of California (the
forum state), the district court may not impute California’s
interest in regulating conduct within its borders to Arizona and
Florida.
5

App-78
ruling to the situation before it: the state’s interest in
applying California labor law to nonresident
employees working for a California employer.
Sullivan, 51 Cal. 4th at 1194-95. The court was careful
not to address any other scenario. See id. Therefore,
the majority’s extension of Sullivan to establish a
general rule that California has a superior interest in
applying its law to wage-and-hour claims that arise
within its borders, Maj. Op. at 37-38, (let alone
generalizing
the
majority’s extrapolation of
California’s rule to all other states) is not supported by
Sullivan.
A brief description of Sullivan reveals the
majority’s error. In Sullivan, the California Supreme
Court responded to a certified question regarding
whether California labor law applied to nonresident
employees who worked both in California and in other
states for a California-based employer. 51 Cal. 4th at
1194. The employees at issue worked as instructors for
Oracle Corporation, a large California-based
company. Id. at 1194-95. Two of the employees were
residents of Colorado; while they worked primarily in
Colorado, they were required to travel and work in
other states, including California. Id. at 1195. A third
employee was an Arizona resident, but worked 20 days
in California. Id. Oracle did not pay these employees
overtime on the ground that they were exempt under
California and federal overtime laws as instructors.
Id. The employees sued Oracle, seeking unpaid
overtime compensation. Id. The question certified to
the California Supreme Court was whether California
overtime law applied to the employees’ work in
California. Id. at 1196.

App-79
In its response to the certified question, the
California Supreme Court addressed two distinct
inquiries: first, whether, as a matter of statutory
construction, the California Labor Code’s overtime
provisions applied to work performed in California by
nonresidents, id. at 1196-97, and second, whether
California’s choice-of-law principles directed the court
to apply the California Labor Code to the plaintiffs, id.
at 1202-06. Sullivan focused on the question whether
a California employer had to pay its employees under
California’s overtime law or under the overtime law of
the state where the employees resided during the
period when the employees worked in California. See
id. at 1196. Because the employer in that case was
Oracle, a resident of California, the court did not have
to consider whether the overtime law of the state of a
nonresident employer (the issue in our case) might
apply.
Sullivan first made a point of carefully examining
California’s overtime statute to ensure it applied to
nonresident employees of a California employer. Id. at
1197. The court noted that the plain text of the
applicable overtime statute stated that the statute
applied to “all individuals,” which would include
residents and nonresidents alike. Id. It also noted that
the legislature knew how to exclude nonresidents
when it wanted to do so, because it had expressly
exempted some out-of-state employers from complying
with workers’ compensation provisions. Id. Therefore,
Sullivan held the overtime statute would apply to the
plaintiffs in the case before it.
Because the statute was potentially applicable to
nonresidents by its terms, the California Supreme

App-80
Court
then
applied
California’s
three-step
governmental interest test to determine which state’s
law applied. Id. at 1202-03. Sullivan first asked
whether the overtime law of California was the same
or different than the overtime laws of Colorado and
Arizona, where the employees resided. Id. at 1203.
The court determined that the laws were different. Id.
Federal overtime law applied in Arizona, and federal
law required less overtime compensation than
California. Id. Colorado overtime law applied in
Colorado, but it too required less compensation than
California. Id.
Sullivan next examined “each jurisdiction’s
interest in the application of its own law under the
circumstances of the particular case to determine
whether a true conflict exists.” Id. at 1203. Relying on
the California statute and case law, Sullivan first
noted that “California has, and has unambiguously
asserted, a strong interest in applying its overtime law
to all nonexempt workers, and all work performed,
within its borders.” Id. Arizona had no overtime law,
and Colorado’s statute expressly did not apply out of
state, so the court found that neither Arizona nor
Colorado had “asserted an interest in regulating
overtime work performed in other states.” Id. at 1204.
Therefore, there was no true conflict. See id. The court
acknowledged, however, that states could have an
interest in the extraterritorial application of their
employment
laws
under
certain
limited
circumstances. See id. at 1199.
The final step in the governmental interest
analysis was to determine which state’s interest would
be more impaired if its policy were subordinated to the

App-81
policy of the other state. See id. at 1205-06. The court
concluded that California’s interests would be more
impaired if nonresidents employed in California were
covered only by the law of the nonresident’s state. Id.
Among other considerations, Sullivan reasoned that
adopting a different rule might encourage California
employers to hire nonresidents of California to work
in California. Id. at 1206. By contrast, Colorado and
Arizona had no interest in applying their overtime
laws to their residents working in California. See id.
Sullivan therefore concluded that California’s
overtime law “does apply to overtime work performed
in California for a California-based employer by outof-state plaintiffs in the circumstances of this case.”
Id. The court did not address whether the same rule
would apply for a nonresident employer.
Contrary to the majority’s conclusion, Sullivan
did not establish a rule that every California wageand-hour law applies to all persons working in
California regardless of their state of residence or
their employer’s state of residence. To the contrary,
rather than enunciate such a rule, Sullivan carefully
analyzed the law and policy of each relevant
jurisdiction,
consistent
with
California’s
governmental interest test. See id. at 1202-06.
Sullivan expressly limited its analysis to the
particular facts of the case before it: a case involving
California overtime law, a California employer, and
employees residing in Arizona and Colorado. See id.
Sullivan specified that it was not applying its rule to
out-of-state employers, as is the case here. Id. at 1201
(noting that the court did not need to address “the
asserted burdens on out-of-state businesses to which

App-82
Oracle refers,” in part because “no out-of-state
employer is a party to this litigation[, and] Oracle
itself is based in California”). Further, Sullivan
clarified that its holding did not apply to any
California labor law other than the overtime law,
explaining, “[w]hile we conclude the applicable
conflict-of-laws analysis does require us to apply
California’s overtime law to full days and weeks of
work performed here by nonresidents one cannot
necessarily assume the same result would obtain for
any other aspect of wage law.” Id. at 1201 (citation
omitted). Indeed, “California’s interest in the content
of an out-of-state business’s pay stubs, or the
treatment of its employees’ vacation time, for example,
may or may not be sufficient to justify choosing
California law over the conflicting law of the
employer’s home state.” Id.
Moreover, Sullivan acknowledged that different
outcomes could result under different circumstances.
By beginning its analysis with the statutory language,
Sullivan indicated that the state legislature could
decide not to apply its employment laws to some
employees who work in-state, id. at 1197 (conducting
statutory analysis to confirm that the California
overtime legislation applied to “any individual”), or
could exempt out-of-state employers who send
employees into California from complying with
California law, as it did in the case of workers’
compensation law, id., or could choose not to apply
overtime law to employees who reside out of state, id.
at 1198. Similarly, Sullivan acknowledged that a
truck driver employee based at a Washington facility
of a California employer could be entitled to overtime

App-83
compensation under Washington law for the time he
spent driving outside the state. See id. at 1200, 1204.
In fact, Sullivan expressly rejected the arguments
that it was adopting a general rule that California’s
employment laws applied in all contexts, holding
instead that disputes in each different context would
be “resolved under the applicable conflict of laws
analysis.” Id. at 1200. “In any event,” the court
explained, “to the extent other states have legitimate
interests in applying their own wage laws to their own
residents for work performed in California, the
applicable conflict-of-laws analysis takes those
interests into account.” Id. at 1202. In other words,
Sullivan rejected the very approach that the majority
now adopts, and instead, Sullivan stands for the
proposition that the determination of which state’s
law applies requires a careful analysis of each relevant
state’s law and policies.
B
Second, the majority’s argument that practical
considerations compel the adoption of a general rule
has the situation entirely backwards.
The only practical consideration flagged by the
majority is that, absent a rule that the hours and wage
laws of the situs always apply to workers within its
borders, Maj. Op. at 35-36, employers would be
required to properly ascertain the residency status of
each of its employees, to track applicable state laws,
and to determine which law applies, Maj. Op. at 2728. Such a concern does not arise if the state law at
issue merely requires a resident employer to pay each
of its employees according to the resident state’s laws,
even when the employee is working temporarily in

App-84
another state. In other words, if an MLB Club in Ohio
paid each of its player—employees pursuant to Ohio
overtime law, the MLB Club would have no extra
burden at all. Unlike Sullivan, the majority fails to
recognize that states may enact many different types
of laws, and that conflicts between state laws can be
resolved through the application of choice-of-law rules.
Cf. Sullivan, 51 Cal. 4th at 1201-02.
On the other hand, the rule the majority
establishes today could have dire consequences for
employers and employees. For example, a rule
requiring that the law of the situs always applies
would require employers to research and comply with
various states’ laws whenever their employees
traveled for short conferences or business meetings.
An employer would have to research applicable state
law whenever an employee traveled across state lines,
including when an employee was in transit.
Presumably, when an employee traveled across state
lines by car or airplane, the employer would need to
track the amount of time the employee spent in each
state during travel in order to comply with this rule.
Such a rule would make it difficult for employers to
compensate interstate truck drivers or traveling
salespersons. Moreover, the majority’s rule would also
burden employees who would no longer be protected
by the laws of their resident state or employer’s state
while traveling for work, forcing the employees to earn
less money for work travel. Rather than adopting a
rule that the law of the situs applies, the better
solution is faithfully adhering to long-established
choice-of-law principles, which resolve the issue in a
reasonable and time-tested way.

App-85
IV
Because it is not possible to derive a general rule
from Sullivan, and California’s choice-of-law rules
weigh against any such rule, the majority should have
considered the applicability of California’s choice-oflaw rules to the plaintiffs’ claims.
Given that a minimum of 22 states potentially
have an interest in applying their wage and hour laws,
and that (as the majority concedes) there are material
differences between the states, applying California’s
three-step governmental interest test would be a
significant task.
First, as a threshold matter, the court must
analyze the contractual choice-of-law provision (i.e.,
New York) in the governmental law analysis under
Nedlloyd, 3 Cal. 4th at 466, and the Restatement
(Second) of Conflict of Laws. This would require the
court to analyze whether New York law has a
substantial relationship to the parties or transactions
here and whether application of New York law would
be contrary to Arizona’s or Florida’s interests. See id.
at 465.
Second, if the contractual choice-of-law provision
does not govern, a court applying Sullivan would first
have to determine whether the minimum wage laws
and overtime laws of Arizona and Florida apply by
their terms to nonresident employees who work for
nonresident employers, Sullivan, 51 Cal. 4th at 120203. Assuming the laws did apply, the court would then
have to identify the relevant laws of each of the
potentially affected jurisdictions. See id. at 1203. It
would then have to determine whether there is a
conflict between the laws of Arizona and Florida, on

App-86
the one hand, and the laws of the different states in
which the employees and employers reside. See id.
If there is a true conflict, then the court would
have to compare the nature and strength of each
jurisdiction’s interest in the application of its own law
to determine whether a true conflict exists under the
circumstances of the particular case. See id. at 120305. Contrary to the majority, Maj. Op. at 34-35, other
states have an interest in applying their wage and
hour laws outside their borders. For example, the
Boston Red Sox is an MLB Club headquartered in
Boston, Massachusetts, and a franchise defendant in
this lawsuit. Massachusetts has previously applied its
wage-and-hour laws extraterritorially. See Dow v.
Casale, 989 N.E. 2d 909 (Mass. App. Ct. 2013).
Moreover, MLB Clubs in Illinois, Pennsylvania, New
York, and Washington are also defendants in this
proposed class action, and courts have applied wageand-hour laws in those states extraterritorially. See
Baxi v. Ennis Knupp & Assocs., Inc., No. 10-cv-6346,
2011 WL 3898034, at *14-15 (N.D. Ill. Sept. 2, 2011);
Truman v. DeWolff, Boberg & Assocs., No. 07-cv-1702,
2009 WL 2015126, at *2 (W.D. Pa. July 7, 2009);
Friedrich v. U.S. Comput. Sys., Inc., No. 90-cv-1615,
1996 WL 32888, at *8 (E.D. Pa. Jan. 22, 1996); Pierre
v. Gts Holdings, Inc., No. 15-cv-143, 2015 WL
7736552, at *1, *5 (S.D.N.Y. Nov. 30, 2015); Bostain v.
Food Express, Inc., 159 Wash.2d 700, 709-711 (Wash.
2007) (en banc). 6
6 The majority notes that, in many cases, state “courts have
looked closely at where the relevant work is performed” to
determine whether to apply the state’s laws extraterritorially.
Maj. Op. at 35 n.13. Certainly, state courts look to where the work

App-87
It is not surprising that the district court
determined that this type of analysis would defeat the
predominance that Rule 23(b)(3) requires. No two
player-employees’ circumstances are alike; the players
hail from at least 19 resident states, worked for one or
more MLB Clubs based in one of 22 states for varying
lengths of time, and played on one or more minor
league affiliate teams in an assortment of states for as
little as one day or as long as an entire season.
Sullivan and California’s choice-of-law analysis
require the court to consider all of the relevant states’
laws and weigh the commensurate state interests in
applying those laws. The highly individualized nature
of the choice-of-law inquiry with respect to each player
could swamp the predominance required for
certification under Rule 23(b)(3). See Hanlon v.
Chrysler Corp., 150 F.3d 1011, 1022 (9th Cir. 1998);
Wash. Mut. Bank, FA, 24 Cal. 4th at 922. In any event,
the district court did not abuse its discretion by
refusing to certify the Florida and Arizona classes.
For the same reason, the district court erred in
certifying the California class without completing its
choice-of-law analysis. Sullivan’s conclusion does not
control where the relevant employer is not a
California-based employer. 51 Cal. 4th at 1197-98.
While Sullivan held that California’s overtime laws
apply to employees of a California employer who are
residents of Arizona and Colorado but work
occasionally in California, Sullivan did not address
is performed as one factor to determine which state’s law applies.
The majority errs by concluding that where the work is
performed is effectively the only relevant factor in the choice-oflaw analysis.

App-88
the application of both overtime and minimum wage
laws to employees of out-of-state employers who work
occasionally in California. Id. at 1197-98. Instead,
Sullivan requires a court to apply the three-part
governmental interest analysis, including weighing
the interests of the employees’ and employers’ resident
states in applying their own laws. Id. at 1202-03.
Here, more than half of the MLB Clubs with
minor league affiliates that play in the California
League are out-of-state employers. Moreover, the
plaintiffs argue that the MLB, a New York-based
entity, is also an employer. The players themselves
hail from at least 11 states, even if only the 26 class
representatives named in this lawsuit were included
in the class. In addition, 68.7% to 74.7% of the players
who were assigned to a minor league affiliate in the
California League also played as a member of a minor
league affiliate in a different state during the 2010 to
2015 championship seasons. Approximately 11% of
the proposed class members from the 2010
championship season were assigned to an affiliate in
the California League for one week or less. Sullivan
requires that the court weigh each relevant
jurisdiction’s interest in applying its laws, including
all of the relevant variables: whether the players are
employed by an out-of-state MLB Club; whether the
players are nonresidents of California; whether the
players spent only a short time in California; whether
any other state’s law might apply; and whether that
state’s interest in applying its own law outweighs
California’s interest. See 51 Cal. 4th at 1202-03.
Because the choice-of-law inquiries cannot be neatly
solved with a law-of-the-situs rule as the majority

App-89
suggests, individual choice-of-law issues also appear
to defeat predominance for the California class.
V
No doubt the analysis of the intersection between
Rule 23(b)(3)’s predominance inquiry and California’s
choice-of-law inquiry is multilayered and complex,
particularly in a case like this one, involving different
types of wage and hour claims, employers residing in
multiple states, employees residing in multiple states,
and three states where work was performed. But the
majority errs in attempting to sidestep the analysis
entirely in one fell swoop by the simple expedient of
declaring that each jurisdiction generally has a
predominant interest in regulating conduct that
occurs within its borders, a conclusion that is contrary
to the requirement that California courts undertake
the governmental interest analysis in every case.
Although the majority gives lip service to the
possibility of exceptions to this rule, its failure to
consider all the variables in this case to determine
whether any exception was applicable here gives the
lie to such claimed flexibility. Because the majority’s
conclusion that courts can sidestep a choice-of-law
analysis by relying on a general rule is contrary to our
precedents, and because it will impose burdens on
employers and disadvantage employees in many
circumstances, I dissent.

App-90
Appendix B
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________
Nos. 17-16245, 17-16267, 17-16276
________________
AARON SENNE, et al.,
v.

Plaintiffs-Appellants,

KANSAS CITY ROYALS BASEBALL CORP. et al.,
Defendants-Appellees.
________________
Filed: Jan. 3, 2020
________________
Before: Michael R. Murphy, * Richard A. Paez, and
Sandra S. Ikuta, Circuit Judges.
________________
ORDER
________________
Judge Paez has voted to deny the petition for
rehearing en banc and Judge Murphy has so
recommended. Judge Ikuta has voted to grant the
petition for rehearing en banc. the full court has been
advised of the petition for rehearing en banc and no

* The Honorable Michael R. Murphy, United States Circuit
Judge for the U.S. Court of Appeals for the Tenth Circuit, sitting
by designation.

App-91
judge has requested a vote on whether to rehear the
matter en banc. Fed. R. App. P. 35.
The petition for rehearing en banc is DENIED.

App-92
Appendix C
UNITED STATES DISTRICT COURT FOR THE
NORTHERN DISTRICT OF CALIFORNIA
________________
Nos. 14-cv-00608-JCS
________________
AARON SENNE, et al.,
v.

Plaintiffs,

KANSAS CITY ROYALS BASEBALL CORP. et al.,
Defendants.
________________
Filed: Mar. 7, 2017
________________
ORDER
________________
I.

INTRODUCTION

On July 21, 2016, the Court denied Plaintiffs’
request for class certification under Rule 23 of the
Federal Rules of Civil Procedure and decertified the
FLSA collective it had preliminarily certified. See
Docket No. 687 (“Class Certification Order” or “July
21 Order”). In the same Order, it granted Defendants’
request to exclude the testimony of Plaintiffs’ expert,
Dr. J. Michael Dennis, under Rule 702 of the Federal
Rules of Evidence and Daubert. Plaintiffs brought a
Motion for Leave to File a Motion for Reconsideration
(“Motion for Leave”) on August 4, 2016. The Court
granted in part and denied in part the Motion for
Leave on August 19, 2016, allowing Plaintiffs to “file a

App-93
renewed motion . . . for class certification under Rule
23 in which Plaintiffs will propose narrower classes
and address the concerns articulated by the Court in
its July 21 Order, including those related to the survey
conducted by their expert and the expert opinions that
were based on the survey.” Docket No. 710 (“August
19 Order”) at 1. Under the August 19 Order, Plaintiffs
were also permitted to “seek (re)certification of
narrower FLSA classes than the ones the Court
decertified in its July 21 Order.” Id.
Presently before the Court are the following
motions (“Motions”): 1) Plaintiffs’ Motion for
Reconsideration Regarding Class and Collective
Certification (“Motion for Reconsideration”); 2) Motion
to Intervene by Shane Opitz, Corey Jones, Brian
Hunter, Kyle Johnson, and Aaron Dott; 3) Defendants’
Motion to Exclude the Declaration and Testimony of
J. Michael Dennis, Ph.D. (“Motion to Exclude”); and 4)
Defendants’ Motion for Leave to File Sur-Reply. A
hearing on the Motions was held on December 2, 2016
at 9:30 a.m. The Court’s rulings are set forth below. 1
II. BACKGROUND
A. The Class Certification Order
In their original class certification motion,
Plaintiffs asked the Court to certify under Rule
23(b)(3), or in the alternative, Rule 23(b)(2), classes
consisting of “[a]ll persons who under a Minor League
1 The parties to this action have consented to the jurisdiction of
the undersigned magistrate judge pursuant to 28 U.S.C. § 636(c).
The individuals who seek to intervene also have consented to the
jurisdiction the the undersigned magistrate judge pursuant to 28
U.S.C. § 636(c). See Docket No. 728.

App-94
Uniform Player contract, work or worked for MLB or
any MLB franchise as a minor league baseball player
within the relevant state at any time” during the
applicable statutory period. See Motion to Certify
Class, Docket No. 496. These classes asserted wage
and hour claims under the laws of eight different
states based on a variety of activities the putative
class members perform throughout the year, including
spring training, extended spring training, the
championship season, instructional leagues, and
winter conditioning. Class Certification Order at 3-4,
7-9. To show that their claims were amenable to class
treatment, Plaintiffs offered a declaration by their
expert, Dr. J. Michael Dennis, describing a survey
questionnaire (“Pilot Survey”) he conducted to show
that it would be possible to conduct a “main survey”
(“Main Survey”) that would produce reliable results
and would address the issues in this case through
common proof. See Declaration of J. Michael Dennis,
Ph.D. in Support of Plaintiffs’ Motion for Class
Certification, Docket No. 498 (“March 3, 2016 Dennis
Decl.”).
Defendants argued, inter alia, that the classes
should not be certified under Rule 23 because the
experiences of the putative class members varied
widely. See generally, Defendants’ Opposition to
Plaintiffs’ Motion for Class Certification Under
Federal Rule of Civil Procedure 23, Docket No. 628.
Similarly, they argued that the FLSA collective should
be decertified because the named Plaintiffs were not
similarly situated, either to each other or the opt-in
plaintiffs. See generally, Motion to Decertify the Fair
Labor Standards Act Collective, Docket No. 495.
Finally, Defendants sought to exclude the testimony

App-95
of Plaintiffs’ expert, Dr. Dennis, on the grounds that it
was unreliable, and to exclude the testimony of
Plaintiffs’ damages expert, Dr. Kriegler, to the extent
he relied on Dr. Dennis’s survey results. See Motion to
Exclude Plaintiffs’ Expert Declarations and
Testimony of J. Michael Dennis, Ph.D and Brian
Kriegler, Ph.D filed In Support of Plaintiffs’ Motion for
Class Certification, Docket No. 632.
The Court agreed with Defendants that the
classes, as proposed, could not be certified under Rule
23. First, it found that one of the requirements of Rule
23(a), ascertainability, was not satisfied because of the
“problems associated with determining membership
in the State Classes based on winter training.” Class
Certification Order at 59. These problems arose from
the wide variations as to the types of activities in
which the players engaged to meet their winter
conditioning obligations, the fact that many players
performed these activities in more than one state, the
absence of official records documenting these
activities, and the difficulty players would likely have
remembering the details relating to their winter
conditioning activities, including, in some cases, the
state or states where they performed them. Id.
The Court went on to hold that Plaintiffs’
proposed classes did not meet the requirements of
Rule 23(b)(3) because of the highly individualized
inquiries that would have been required to evaluate
the claims of the class members. Id. at 81. The Court
pointed to variation in the types of activities in which
the minor leaguers engage, finding that these
variations were “particularly striking as to winter
training.” Id. The Court also pointed to variations as

App-96
to the hours and activities of minor league players
during the championship season and variations with
respect to salaries, bonuses and other forms of
compensation. Id. at 81-82. The Court found that
these variations went not only to damages but also
liability, reasoning that “[c]lass members can
demonstrate minimum wage and overtime violations
only by demonstrating that their rate of pay fell below
the minimum wage rate and that they worked the
requisite number of hours to be entitled to overtime
pay, both of which will turn on the number of hours of
compensable work they performed and the amount of
compensation they received for that work.” Id. at 82.
The individualized choice-of-law determinations
that would be required to address the claims of the
putative class members were also a source of
significant concern to the Court. Id. at 86-87. Again,
the Court found that winter training was particularly
problematic as players are permitted to perform their
conditioning wherever they choose and the evidence
shows that many players perform their conditioning in
more than one state. Id. The Court also found that
individualized inquiries related to the seasonal
amusement and recreational establishment defenses
and the creative professionals exemption would
“increase the likelihood that class treatment of
Plaintiffs’ claims will be overwhelmed by the
individual inquiries.” Id. at 84-86. The Court noted as
to both of these defenses, however, that they would not
be sufficient, on their own, to warrant denial of class
certification. Id.
In the end, the Court concluded that the
variations were too significant to meet the

App-97
predominance requirements of Rule 23(b)(3) and that
the survey results on which Plaintiffs intended to rely
constituted an impermissible attempt to “paper over
significant material variations that make application
of the survey results to the class as a whole improper.”
Id. at 91. In reaching this conclusion, the Court
rejected Plaintiffs’ reliance on Tyson Foods v.
Bouaphakeo, 136 S. Ct. 1036, 1045 (2016), in which
the Supreme Court found, applying the rule of its
seminal Mt. Clemens decision, that the plaintiffs could
demonstrate their work based on representative
evidence sufficient to support a “just and reasonable
inference” where the employer had not kept adequate
records of their work. Id. at 88. The undersigned found
that “[a]llowing Plaintiffs to rely on the survey
evidence obtained by Dr. Dennis (whether the Pilot
Survey or the future survey he planned to conduct
using the same methodology) would be inappropriate
under the circumstances here because doing so would
enlarge the rights of Plaintiffs and deprive Defendants
of the right to litigate the individual issues discussed
above.” Id. at 91.
With respect to Plaintiffs’ request that the Court
certify the same proposed classes under Rule 23(b)(2),
the Court found that Plaintiffs did not have standing
to pursue injunctive relief claims under Rule 23(b)(2)
because none of the named Plaintiffs was a current
minor leaguers and therefore, Plaintiffs could not
demonstrate a likelihood of future harm. Class
Certification Order at 92-93. The Court further found
that “the absence of any current minor league players
among named Plaintiffs reflects that any interest they
may have in obtaining injunctive relief for future

App-98
players is incidental to their request for money
damages.” Id. at 93.
The Court also decertified the FLSA collective
that it had previously certified, finding that the
collective members were not “similarly situated”
because of the many individualized inquiries that
would be required to resolve those claims. Id. at 95.
Finally, on Defendants’ motion to exclude, the
Court found that some of the problems identified by
Defendants with respect to Dr. Dennis’s Pilot Survey,
including alleged coverage error and non-response
bias, were “exaggerated or remediable.” Id. at 97-99.
On the other hand, the Court was “troubled by the
format of [a] question flagged by” Defendants’ expert,
Dr. Ericksen, that asked respondents to “go through a
difficult series of questions to come up with an
answer,” possibly leading them to “satisfice” or give
“best guesses.” Id. at 99. Specifically, Dr. Ericksen
pointed to a question that asked respondents to
provide the total amount of time they spent on a
variety of activities for each of the four weeks of spring
training. Id. (citing Ericksen Decl. ¶¶ 36-38). The
Court found that the “satisficing” problem was
compounded by: 1) the fact that all of the respondents
of the Pilot Survey had opted in to the FLSA class,
giving them a vested interest in the results of the
survey; and 2) the likelihood of recall bias, given that
respondents were asked to remember mundane events
that occurred more than a year earlier and often
several years earlier, such as when they arrived at and
left the stadium each day. Id. at 100-101.
As a consequence, the Court held that Dr.
Dennis’s Pilot Survey (as well as Dr. Kriegler’s expert

App-99
report to the extent he relied on Dr. Dennis’s opinions)
was not sufficiently reliable to meet the requirements
of Daubert and Rule 702 of the Federal Rules of
Evidence. Id. at 103. In particular, the Court
concluded that “both the methodology and the results
of the Pilot Survey [conducted by Dr. Dennis and
offered in support of Plaintiffs’ request for class
certification] are unreliable and . . . any future survey
that applies a similar methodology is likely to yield
unreliable results as well, especially in light of the
problems . . . as to its failure to adequately ensure
objectivity and its reliance on the players’ ability to
recall details of activities and events that occurred
many months (and often years) ago.” Id.
B. The August 4, 2016 Dennis Declaration
In support of their Motion for Reconsideration,
Plaintiffs filed a new declaration by Dr. Dennis in
which he responded to the concerns expressed by the
Court in its July 21, 2016 Order and described the
“findings, methodology and results” of the Main
Survey. Declaration of J. Michael Dennis Ph.D.,
Docket No. 696 (“August 4, 2016 Dennis Decl.”).
According to Plaintiffs, the Main Survey and Dr.
Dennis’s opinions in the August 4, 2016 Declaration
“lay to rest” the Court’s concerns regarding the Pilot
Survey. Motion for Leave at 2.
In the Main Survey, Dr. Dennis collected
responses from 720 Minor Leaguers between July 9,
2016 and July 27, 2016. August 4, 2016 Dennis Decl.
¶ 3. According to Dr. Dennis, he took numerous
measures to improve the methodology of the Main
Survey, using lessons he had learned from the Pilot
Survey, “including conducting cognitive interviews

App-100
with actual English- and Spanish-speaking minor
league players, sampling Non Opt-in class members
for the main survey, creating a study website for
respondents to use to access the survey, translating
the survey into Spanish language, and setting up an
outbound telephone campaign to support survey
participation.” Id. These measures were, among other
things, intended to avoid self-interest bias, recall bias
or non-response bias in the Main Survey results
and/or allow Dr. Dennis to determine whether the
survey results were affected by any of these forms of
bias. See generally id. ¶¶ 3-12. Dr. Dennis concluded
that the results of the Main Survey are a reliable
measure of the hours worked by minor league players
and that they are not infected by any of these forms of
bias. Id. ¶¶ 7, 9, 47.
On the question of self-interest bias, Dr. Dennis
points to the fact that non opt-in minor leaguers made
up 87.2% of the 7,762 randomly sampled class
members selected to receive the survey and that the
majority of those who responded (66%) were non optins. See id. ¶¶ 4, 41. In addition, to the extent that the
percentage of opt-ins who responded relative to non
opt-ins resulted in over-representation of the opt-ins,
Dr. Dennis performed a statistical adjustment so that
the opt-ins in the survey would represent the same
share of the survey results as they do the total class,
that is, 15%. Id. ¶¶ 18, 46. The high proportion of non
opt-in survey respondents reduces the likelihood of
self-interest bias, according to Dr. Dennis, because
“[n]on Opt-ins have the lowest potential for selfinterest bias as evidenced by their not having joined
the lawsuit. Although they may be aware of the
lawsuit, they have not expressed interest in joining or

App-101
participating in the litigation.” Id. ¶¶ 4, 13. At the
same time, Dr. Dennis opines that “reliable surveys
can be done with respondents who are also plaintiffs
in a lawsuit.” Id. ¶ 12. He cites The Reference Manual
on Scientific Evidence (3d Edition) (“the Reference
Guide”) as the “authoritative guide to the acceptable
use of scientific evidence in litigation,” noting that the
Reference Guide “cites employee surveys as an
example of litigation surveys conducted with the
‘appropriate universe’ and again in the context of
survey questionnaire design (p. 389).”
Dr. Dennis also took measures to avoid recall bias
in the Main Survey. Id. ¶ 4. First, he added “aided
prompt” survey questions to “improve the accuracy of
respondents’ recall of time spent on baseball related
activities.” Id. ¶¶ 4, 33-38. He explains that these
questions are designed to “cue” the respondent to
trigger recall of past events, a technique that has been
found to be effective in the literature on survey
research methods in helping a respondent to recall
events more accurately. Id. The aided recall questions
used in the Main Survey related to housing, roommate
status and transportation were asked in connection
with each year in which the respondent participated
in baseball-related activities. Id. ¶ 35. According to
Dr. Dennis, the eight cognitive interviews he
conducted led him to conclude that these aided prompt
questions “were effective in stimulating the
respondents to think about the reference period (i.e.,
the year that the baseball activity took place).” Id.
¶ 44.
Dr. Dennis further states that he reduced the
potential for recall bias by adjusting the spring

App-102
training questions in the Main Survey. Id. ¶ 37. These
questions had been flagged by Dr. Ericksen (and the
Court) as being overly burdensome to the extent they
asked players to recall the number of hours they
worked for each week in which they participated in
spring training. See Class Certification Order at 99
(citing Ericksen Decl. ¶¶ 36-38). In the Main Survey,
Dr. Dennis instead asked players to answer questions
about the times they arrived at and left the ballpark
on game days and non-game days. August 4, 2016
Dennis Decl. ¶ 37. Dr. Dennis states, “[b]ecause the
main survey questions asked the respondent to recall
routines and daily schedules instead of an abstract
number of hours worked in a week, the spring training
questions then mirrored the structure of the other
non-off-season questions that also place less recall
burden on the respondents.” Id. In support of this
conclusion, he cites survey research literature that
has found that “[w]ith respect to routine tasks, . . .
recall is likely to be more accurate for situations that
occur more regularly.” Id. ¶ 31. He also points to
deposition testimony and schedules produced by
Defendants that he contends establish that the work
of minor league players “tends to be predictable and
based on routines, particularly for spring training,
extended spring training, the regular season, and fall
instructionals.” Id. ¶ 32.
Dr. Dennis also notes that because the Main
Survey was conducted in July 2016, the most recent
“survey modules included the 2016 reference year for
both spring training and extended spring training,
placing a lower recall burden on the respondents for
those that participated in 2016.” Id. ¶ 38. According to
Dr. Dennis, “[s]ince 36% of respondents indicated they

App-103
had participated in spring training earlier in 2016 and
another 15% participated in 2015, a majority of the
main survey respondents were recalling events that
occurred as little as three to 16 months ago.” Id.
Dr. Dennis analyzed the results of the Main
Survey to determine whether they were affected by
self-interest bias or recall bias by identifying a
“Control Group” of respondents for whom there was
the lowest potential for these types of bias. Id. ¶¶ 5,
13-21. The Control Group consisted of respondents
who met two criteria: 1) they had not opted in to the
FLSA collective; and 2) they participated recently in
baseball activity—either in 2015 or 2016. Id. He
compared the survey results for the Control Group to
the results based on all of the interviews and found
that they were very similar, leading him to conclude
that self-interest bias and recall error had little impact
on the results. Id. ¶ 6. In particular, he found that the
average hours worked for the Control Group was 17
minutes less than the hours worked estimate for the
total sample. Id. According to Dr. Dennis, the
difference was only 6 minutes for regular season hours
at the ballpark for non-playing day away games and 9
minutes for home game days. Id. Even if this
discrepancy were considered unacceptably high, the
damages expert could use the data from the Control
Group to avoid any self-interest or recall bias, Dr.
Dennis opines. Id. at 21.
Dr. Dennis also conducted a non-response
analysis to ensure that there was no error in the Main
Survey caused by low response rate. Id. ¶¶ 9, 22-25.
He cites the Reference Guide in support of the opinion
that “while ‘surveys may achieve reasonable estimates

App-104
even with relatively low response rates,’ even surveys
with high response rates still need to [be] examined
since they ‘may seriously underrepresent’ some
portions of the population.” Id. ¶ 8 (citation omitted).
Dr. Dennis conducted his non-response analysis by
using administrative data he obtained from BaseballReference.com to compare respondents and nonrespondents with respect to age, the year they last
played in the minor leagues for a major league team,
and fielding position. Id. He also reviewed the
Baseball-Reference.com database to ensure that there
were at least ten completed interviews for each MLB
franchise. Id. ¶ 9. Based on his analysis, Dr. Dennis
concluded that “error was not introduced via
nonresponse.” Id.
Dr. Dennis conducted two tests to validate the
Main Survey data. Id. ¶ 26. First, he looked at a set of
85 documents, many of which are daily itineraries
produced by Defendants, that contained information
about start and end times, with about half referring to
game days and half to non-game days. Id. From these
documents Dr. Dennis “ascertained when the first and
last activities of the particular workday were
scheduled to occur, both for ‘anyone’ and ‘everyone.’”
Id. Based on his analysis of these documents, Dr.
Dennis concluded that the “documents align with the
survey results.” Id. ¶ 27. He explains his conclusion as
follows:
Looking at game days, the data obtained from
the validating documents do not include game
durations or travel times to away games.
Without including this time for game
durations or travel, the average time spent

App-105
performing activities on a spring training
game day amounts to between 4.13 and 5.76
hours. . . . Given that deposition testimony
indicates that the duration of a spring game
is close to three hours, the documents
therefore show that the average workday for
a spring game day would be between roughly
7 and 8.5 hours, not including travel. The
survey data indicated that respondents spent
between 7.91 and 8.76 hours at the workplace
on spring game days (depending on whether
it was a home game or away game). This data
therefore validates the survey results.
Id.
Dr. Dennis acknowledges that “[o]n some
measures, the survey data is somewhat higher than
the data extracted from the validating documents.” Id.
In particular, the documents “yield a lower average
number of hours than the survey dataǁ for non-gamedays during spring training and extended spring
training.” Id. He opines that this may be because the
documents “do not include time spent changing into
uniforms, time spent performing extra work, and often
do not include time spent performing strength
workouts.” Id. He further suggests that “it is possible
that minor leaguers perform more of this extra work
and strength conditioning on non-game-days during
these periods, which would explain the differences in
the data.” Id.
Because fewer daily itineraries were produced for
the championship season, Dr. Dennis conducted
another validation test for that period. Id. ¶ 29. In
particular, he “looked at the deposition testimony from

App-106
Defendants’ own witnesses to validate the survey data
for the championship season.” Id. According to Dr.
Dennis, “[t]hese witnesses testified that players
generally arrived to work between 3 and 4.5 hours
before a night game, depending on whether the game
was home or away.” Id. While these estimates would
“yield a smaller number of hours than the survey data
yields,” Dr. Dennis opined, the difference would not be
substantial. Id. Dr. Dennis suggests that “[a]
conservative measure of the survey data, such as the
tenth percentile, could be used if needed to more than
account for any differences.” Id.
In sum, Dr. Dennis concludes that the Main
Survey was conducted using a methodology that is
consistent with generally accepted methods for survey
research and that its results are reliable. Id. ¶ 47.
C. The Motion for Reconsideration
In their Motion for Reconsideration, Plaintiffs ask
the Court to certify a set of classes that they contend
will address the concerns expressed by the Court in
the Class Certification Order. The proposed classes
are defined as follows:
Florida Class: Any person who, while signed
to a Minor League Uniform Player Contract,
participated in spring training, instructional
leagues, or extended spring training in
Florida on or after February 7, 2009, and had
not signed a Major League Uniform Player
Contract before then.
Arizona Class: Any person who, while signed
to a Minor League Uniform Player Contract,
participated in spring training, instructional
leagues, or extended spring training in

App-107
Arizona on or after February 7, 2011, and had
not signed a Major League Uniform Player
Contract before then.
California Class: Any person who, while
signed to a Minor League Uniform Player
Contract, participated in the California
League on or after February 7, 2010, and had
not signed a Major League Uniform Player
Contract before then.
California Waiting Time Subclass: Any
California Class Member who played in the
California League since February 7, 2010, but
who is no longer employed by MLB or its
franchises as a minor league player.
Motion for Reconsideration at i-ii. Plaintiffs also
propose a separate Rule 23(b)(2) injunctive relief class,
defined as follows:
Any person who is a) signed to a Minor
League Uniform Player Contract, b) has
never signed a Major League Player Contract,
and c) participates in spring training,
instructional leagues, or extended spring
training in Florida or Arizona.
Id. at ii. The proposed class representatives for each of
these classes is listed in the Declaration of Garrett
Broshuis in Support of Motion to Reconsider
Regarding Class Certification (“Broshuis Decl.”), Ex.
E. Their participation in Arizona and Florida spring
training, extended spring training and instructional
leagues and in the California League, is set forth in
Exhibit F to the Broshuis Declaration.

App-108
Finally, Plaintiffs seek (re)certification of an
FLSA collective and propose the following definition:
Any person who, while signed to a Minor
League
Uniform
Player
Contract,
participated in the California League, or in
spring training, instructional leagues, or
extended spring training, on or after
February 7, 2011, and who had not signed a
Major League Uniform Player Contract
before then.
Id.
According to Plaintiffs, the “streamlined class
structure” that they now propose will eliminate the
problems associated with winter conditioning work
because they no longer seek certification as to those
claims. Id. at 1. Further, with respect to the California
Class, Plaintiffs seek certification only as to the
California League championship season, which they
contend involves no interstate travel. Id. Moreover,
Plaintiffs argue, for all the proposed classes the work
at issue was performed only in a single state and
therefore, the choice-of-law determination will be
simplified; in particular, Arizona law will be applied
to the training season work performed in Arizona,
Florida law will be applied to the training season work
performed in Florida, and California law will be
applied to work performed in the California League.
Id. at 1, 3-5.
Plaintiffs also argue that their new Rule 23(b)(3)
classes “eliminate concerns about the variations in the
work class members performed.” Id. at 1. This is
because the “three proposed classes are focused
exclusively on work class members performed as

App-109
teams at team complexes, under the direct control and
supervision of Defendants.” Id. This means that an
activity-by-activity inquiry will not be necessary and
instead, the common question will be, when did the
team’s workday begin and end. Id. at 1, 6-10. This
approach is consistent with the “whistle to whistle”
measure of the workday that is applied under the
“continuous workday” doctrine, Plaintiffs argue. Id.
According to Plaintiffs, under this doctrine, all
activities that occur during the workday are
compensable. Id. They further assert that it is
permissible to rely on the Main Survey to establish the
average length of the workday and that that survey is
sufficiently reliable to meet the requirements of Rule
702 and Daubert. Id. at 11-13. In light of Mt. Clemens
and Tyson Foods, they assert, this evidence will allow
a jury to draw “just and reasonable” inferences about
when the work day began and ended for class
members. Id. at 14-17.
Plaintiffs also argue that differences in
compensation among minor league players do not give
rise to individualized issues that defeat certification
because these variations go to damages rather than
liability. Id. at 17-18. Plaintiffs acknowledge that the
Court treated these variations as relating to liability
in its Class Certification Order but contend that under
the Ninth Circuit’s decision in Torres v. Mercer
Canyons, Inc., 835 F.3d 1125 (9th Cir. 2016), which
this Court cited elsewhere in its opinion, this issue is
more appropriately treated as one going to damages.
Id.
Plaintiffs further contend that the two main
affirmative defenses that Defendants assert as to the

App-110
class claims—the seasonal amusement or recreational
establishment defense and the creative professional
defense—do not raise sufficient individualized issues
or manageability problems to preclude certification of
their proposed classes. Id. at 19-21. As to the former,
which applies only under Florida law and the FLSA, 2
Plaintiffs address the Court’s suggestion that it might
be “swamped” by the individual inquiries necessary to
determine whether a multitude of “establishments”
qualified for the exemption. Id. at 19 (citing Class
Certification Order at 85). They point out that these
inquiries rely on common evidence and therefore are
not individualized in the sense that the issue must be
addressed on a class-member-by-class-member basis.
Id. at 20. In any event, they argue, the number of
“establishments” at issue under the narrower class
definitions they now propose is significantly reduced
because there are “at most 15 facilities in Florida, 15
facilities in Arizona, and 10 facilities in California.”
Id.
With respect to the creative professionals
exemption, Plaintiffs argue that neither of the two
prongs of the applicable test—the first relating to an
individual’s primary duties and the second setting a
minimum compensation requirement of $455/week—
requires individualized inquiries. Id. at 20-21.
Plaintiffs note that the Court already concluded that
there are no individualized inquiries as to the
2 Plaintiffs correctly note that the court erred in its Class
Certification Order when it stated that California law provides
for a seasonal amusement or recreational establishment
exemption. Motion for Reconsideration at 19 n. 16. In fact, it does
not.

App-111
“primary duties” prong of the test but found that the
“compensation” prong of the test would require
individualized inquiries. Id. Plaintiffs argue that in
fact, the second prong of the test also will not require
individualized
inquiries
because
there
are
employment and payroll records that can be used to
determine whether any particular class member
meets this requirement. Id. at 21 (citing Minns v.
Advanced Clinical Employment Staffing LLC, No. 13CV-03249-SI, 2015 WL 3491505, at *8 (N.D. Cal. June
2, 2015)). Plaintiffs also point out that the Court
already found that any individualized inquiries
associated with this defense would not, on their own,
be sufficient to defeat class certification. Id. (citing
Class Certification Order at 86).
Plaintiffs contend their more narrowly crafted
classes also satisfy all of the requirements of Rule
23(a) and solve the ascertainability problem identified
by the Court in its Class Certification Order. Id. at 2122. In particular, Plaintiffs argue that because they
are no longer asking to certify any classes to pursue
the winter conditioning claims, the problems
associated with determining who is a member of the
State Classes based on that work is eliminated. Id.
Plaintiffs also argue that the Court should certify
its proposed Rule 23(b)(2) class to pursue injunctive
relief. Id. at 22-23. They contend the problem with
standing identified by the Court has been remedied by
the (requested) intervention of four current minor
league players. Id. at 22. They further assert that in
order for a Rule 23(b)(2) to be certified, Plaintiffs need
only establish that Defendants have “acted or refused
to act on grounds that apply generally to the class” and

App-112
need not demonstrate that they have suffered the
same injury. Id. (citing Rodriguez v. Hayes, 591 F.3d
1105, 1125 (9th Cir. 2010)). Plaintiffs assert this
requirement is met, citing Defendants’ compensation
policies, including failure to pay wages outside of the
championship season and failure to pay overtime
during the championship season. Id. at 23. According
to Plaintiffs, “[t]he adjudication of the legality of these
practices will not only resolve a central issue ‘in one
stroke’ . . . , it will conclusively determine whether the
(b)(2) plaintiffs and class members are entitled to the
injunctive and declaratory relief they seek, namely, an
order compelling Defendants to pay current minor
leaguers in compliance with applicable state wage
laws.” Id. (citation omitted).
With respect to the requirement that any
monetary relief sought by a Rule 23(b)(2) class must
be incidental to the injunctive relief sought by that
class, Plaintiffs contend this issue is not a concern
because the (b)(2) class they propose is requesting only
injunctive relief. Id. at 23 (citing In re NCAA StudentAthlete Name & Likeness Licensing Litig., No. C 091967 CW, 2013 WL 5979327, at *7 (N.D. Cal. Nov. 8,
2013)). According to Plaintiffs, courts have found that
“[i]t is permissible to seek both a damages class under
Rule 23(b)(3) and a separate injunctive relief class
under Rule 23(b)(2)” and when such an approach is
taken it is not necessary to address whether damages
are “incidental” to injunctive relief. Id. (citing In re
NCAA Student-Athlete Name & Likeness Licensing
Litig., No. C 09-1967 CW, 2013 WL 5979327, at *7
(N.D. Cal. Nov. 8, 2013); Ellis v. Costco Wholesale
Corp., 285 F.R.D. 492, 503, 536-37 (N.D. Cal. 2012);

App-113
Aho v. AmeriCredit Fin. Servs., Inc., 277 F.R.D. 609,
619, 623 (S.D. Cal. 2011)).
Even if the Court declines to certify Plaintiffs’
proposed 23(b)(2) and (b)(3) classes, Plaintiffs request
that the Court certify a Rule 23(c)(4) class to address
common issues, including the following:
Whether minor leaguers are employees under
the wage-and-hour laws, and, relatedly,
whether MLB jointly employs them;
• Whether minor leaguers are performing
“work” during the training seasons and the
championship season;
• Whether the creative artist exemption applies
to minor leaguers under Florida and California
law;
• Whether the seasonal and amusement
exemption applies under Florida law.
Id. at 24-25.
•

Finally, Plaintiffs argue that the FLSA collective
should be recertified “with the exception that
Plaintiffs propose limiting the Collective in the same
manner as their proposed narrowing of the Rule 23
classe[s] (ie., eliminating the winter offseason claims
and limiting the Collective to minor leaguers who
participated in spring training, extended spring
training or instructional leagues in Arizona or Florida
or who worked in the California League.).” Id. at 25.
In their Opposition brief, Defendants argue that
Plaintiffs’ proposal does not remedy any of the
deficiencies identified by the Court in its Class
Certification Order and that Plaintiffs have even
introduced new problems relating to certification of
their proposed classes. Opposition to Motion for

App-114
Reconsideration at 1. First, Defendants contend that
even the more limited classes proposed by Plaintiffs
will require the Court to conduct individualized choice
of law inquiries to compare the relative interests of the
states that might potentially have an interest in
applying their laws, which will depend on the
circumstances of each individual player. Id. at 1, 3-9.
They reject Plaintiffs’ assertion that the law of the
situs where the relevant work was performed can be
applied to each of the three proposed Rule 23(b)(3)
classes. Id. at 5.
With respect to the Arizona and Florida Classes,
Defendants assert that the players who participate in
spring training and instructional leagues typically do
not reside in these states and spend only about four
weeks there during spring training. Id. at 6. Under
these circumstances, they contend, there will be other
states that have an interest in applying their law and
therefore, a balancing test will have to be applied for
each player in the class. Id. at 6-7. Similarly, they
assert, there will be choice of law questions requiring
individualized inquiries as to the California Class. Id.
at 7-9. Defendants contend the application of
California law to these class members should not be
assumed, given that the majority of MLB Clubs with
affiliates in the California League are not based in
California and the putative members of this class
spend varying amounts of time in the California
League—some as little as a single day. Id. at 8.
Defendants support their argument with an expert
declaration by Mr. Paul K. Meyer, who reviewed and
analyzed player transaction records for the 11 MLB
Clubs that had a minor league baseball affiliate in the
California League between the 2010 and 2015

App-115
Championship Seasons. Declaration of Paul K. Meyer
in Support of Defendants’ Opposition to Plaintiffs’
Renewed Motion for Class and Collective Certification
Under Federal Rule of Civil Procedure 23 and the
FLSA (“Meyer Decl.”) ¶ 11.
According to Mr. Meyer, he analyzed over 469,000
data rows of player transaction history information.
Id. The “detailed transaction records contain
information on the affiliates and/or MLB Clubs to
which a player was assigned, including when the
player was transferred from one affiliate and/or MLB
Club to another.” Id. ¶ 12. They also contain
information about when a player: 1) signed a Major or
Minor League contract; 2) was placed on the disabled
list; 3) was placed on rehabilitation assignment;
4) was placed on an inactive list; or 5) was released by
a Club. Mr. Meyer found that a total of 2,113 players
were assigned to affiliates in the California League
between the 2010 and 2015 championship seasons. Id.
¶ 15. He further found that between 68% and 75% of
those players played for affiliates outside of California
during the same championship season in which they
played for the California League. Id. ¶¶ 16-17. These
players spent varying amounts of time playing in
California. Id. For example, for the 2010
championship season, Mr. Meyer found a range of
between one day and 151 days, with approximately
11% of the 364 players who were assigned to the
California League that season spending one week or
less playing in California. Id. ¶ 19.
Mr. Meyer also found that of the players who were
assigned to play in the California League and other
affiliates outside of California in the same season, over

App-116
50% spent more time assigned to affiliates outside of
California than they spent assigned to play for the
California League. Id. ¶¶ 20-21. He also performed an
analysis to determine how many different states
putative class members were assigned to during the
championship season in addition to the California
League, both individually and collectively. Id. ¶¶ 2224. He found that “many players played in multiple
states during the same season” and that between 2010
and 2015 putative class members played for between
27 and 33 different states during the same seasons in
which they were assigned to the California League. Id.
Finally, Mr. Meyer analyzed the transaction
histories to determine what percentage of the
California League were first-year players. Id. ¶¶ 2526. He concluded that less than five percent of the
California League players were first year players
during the period of 2010 and 2015. Id. Based on Mr.
Meyer’s findings Defendants contend “it is clear that
there is no basis for the global application of California
law” because “[t]he players’ ephemeral contacts with
the state of California must always be balanced
against the interests of the other states where they,
for example, reside, play, train, and where their MLB
Club is located.” Opposition at 8-9.
Next, Defendants argue that Plaintiffs have not
addressed the problem that there is a “plethora of
individualized issues requiring resolution in order to
determine the amount of compensable time.” Id.
Defendants reject Plaintiffs’ assertion that they have
eliminated this problem by “focus[ing] only on team
work periods” and that their Main Survey “provides
reliable representative evidence that eliminates the

App-117
need for player-by-player review.” Id. Instead, they
argue that individualized liability issues still
predominate, despite Plaintiffs’ reliance on the
“continuous workday” doctrine and “representative
evidence” that allegedly demonstrates “average” time
players spent working based on responses to the Main
Survey. Id. at 1-2, 9-16.
With respect to Plaintiffs’ reliance on the
“continuous workday” doctrine, Defendants contend
this theory does not help Plaintiffs because there “is
no common continuous workday;” instead, they assert,
“[d]etermining what constitutes a ‘continuous
workday’ for a single player depends not only on when
the day begins and ends [but] also requires an
individualized analysis of what activities are
‘principal’ and ‘integral and indispensable’” in order to
determine whether they are “compensable at all or
part of a continuous workday.” Id. at 10 (citing Bryant
v. Service Corp. Int’l, No. C 08-01190 SI, 2011 WL
855815 (N.D. Cal. Mar. 9, 2011)).
Defendants also reject Plaintiffs’ assertion that
they can use the Main Survey results to provide
representative evidence of a “common workday for all
minor league players.” Id. at 11. According to
Defendants, even if the Main Survey survived scrutiny
under Daubert, it cannot properly be used for this
purpose because it does not take into account
variations in player circumstances. Id. Defendants
argue that the Main Survey does not address “team
related activities,” contrary to Plaintiffs’ assertions,
pointing out that it does not ask minor league players
about the specific activities in which they engaged
while at the ballpark and only asked them to recall

App-118
their “most often” arrival and departure times. Id.
Consequently, they contend, the Main Survey does not
provide evidence of “hours worked” at all. Id. at 12. Id.
In addition, they argue, relying on “averaging” will
result in significantly understating or overstating the
players’ hours because of the variations among
players. Id.
Defendants offer two expert declarations that
address the variations in responses to the Main
Survey, one by Dr. Jonathon Guryan and another by
Dr. Denise M. Martin. See Declaration of Jonathon
Guryan, Ph.D. in Support of Defendants’ Opposition
to Plaintiffs’ Renewed Motion for Class and Collective
Certification under Rule 23 and the FLDA, Docket
No. 749 (“Guryan Decl.”); Declaration of Denise N.
Martin, Ph.D. in Support of Defendants’ Opposition to
Plaintiffs’ Renewed Motion for Class and Collective
Certification under Rule 23 and the FLSA, Docket
No. 750 (“Martin Decl.”). Dr. Guryan opines that there
is substantial variation among respondents to the
Main Survey as to arrival and departure times for
each of the types of day at issue (e.g., non-game days,
home game days, away game days) and between the
hours reported at the 10th percentile and the 90th
percentile. Guryan Decl., ¶ 8. He finds that as a result
of these variations, reliance on the “average” hours
worked could result in significantly overstating or
understating the hours worked for a substantial
portion of respondents. Id. Dr. Guryan also finds
significant differences for hours reported across Clubs
and from year to year. Id. Finally, he finds significant
variations even among players who played for the
same Club in the same year, which he contends

App-119
renders the Main Survey unreliable for proving
classwide damages. Id. ¶¶ 11-16.
Dr. Martin updates her earlier opinions with
regard to whether the results of Dr. Dennis’s survey
(previously, the Pilot Survey, now the Main Survey)
can be used in the “formulaic model proposed by Dr.
Kriegler to generate a reliable classwide estimate of
the number of ‘hours worked’ . . . and, therefore, allow
determination of the extent to which each player was
not paid at least the applicable minimum wage and/or
worked uncompensated overtime.” Martin Decl. ¶ 6.
Dr. Martin concludes that they cannot. Id. ¶ 8. First,
she agrees with Dr. Ericksen that recall and selfinterest bias, combined with respondent burden, will
cause the estimate of hours worked derived from the
Main Survey to be inflated. Id. ¶ 9. She further opines
that variability among responses as to arrival and
departure times is a reflection of the discretionary
activities in which players engage before and after
team-related activities; to the extent the Main Survey
results include these activities, “the inclusion of such
hours in any formulaic model would inflate the
estimate of any ‘hours worked’ to an unknowable
degree.” Id. ¶¶ 11, 19-30.
Dr. Martin also rejects the validation tests
conducted by Dr. Dennis as having “no value.” Id.
¶ 12. This is because the schedules upon which Dr.
Dennis relied were merely “aspirational and do not
reflect what happened on a given day,” according to
Dr. Martin. Id. In any event, she contends, any test to
validate the results of the Main Survey that used the
schedules should have compared the survey responses
of players on individual teams to see if the players of

App-120
teams with longer scheduled hours actually reported
longer hours. Id. Dr. Martin states that she conducted
such an analysis and found no such correlation. Id.
¶¶ 12, 31-39.
Dr. Martin opines that the unreliability of Dr.
Dennis’s survey would also render any “formulaic
damages model” that used these results unreliable
and that no such model “could repair the infirmities
embodied in the survey responses.” Id. ¶ 14, 40-41.
She bases this opinion on the fact that the Main
Survey “is Plaintiffs’ proposed source of 100% of the
hours for spring training, extended spring training
and instructional league, as well as all of the pre- and
post-game hours for the Championship season.” Id.
¶ 40.
Next, Dr. Martin challenges Plaintiffs’ assertion
that “standardized ‘working hours’ during spring
training, extended spring training, instructional
league and standardized pre- and post-game hours
during the championship season were required by the
Clubs.” Id. ¶ 42. She opines that the Main Survey
results do not support this conclusion but instead
show “pronounced variability exists in the survey
responses regarding hours reportedly spent at the
ballpark, even for players on the same team.” Id. This
variability is indicative of the discretion players have
as to their hours, she opines, giving rise to the need to
conduct individualized inquiries as to whether the
activities they performed at the ballpark were
voluntary or required by the Clubs. Id. According to
Dr. Martin, reliance on an average or use of 10th
percentile data as a measure of hours worked would

App-121
“mis-estimate liability and damages for many, if not
most, individual players.” Id. ¶ 43.
Finally, Dr. Martin opines that the data Dr.
Dennis obtained from the Main Survey is
distinguishable statistically from the data that was
found by the Supreme Court to be acceptable in Tyson
Foods v. Bouaphakeo. Id. ¶¶ 45-50. She concedes that
she is “not an expert in the Tyson matter” but states
that she has “reviewed the reports in that matter, as
well as the decision rendered.” Id. ¶ 45. She
distinguishes the study at issue in Tyson on two main
grounds.
First, Dr. Dennis notes that Tyson Foods involved
a time and motion study in which the expert “actually
watched employees engaged in discrete donning and
doffing tasks, providing measurements with virtually
no error.” Id. ¶ 46. In contrast, she opines, the data
from the Main Survey consists of player recollections
and do not address specific tasks, resulting in a
likelihood that the estimates will be inflated and
infected with various forms of bias. Id.
Second, Dr. Dennis states that the expert in Tyson
Foods calculated an “average or mean time spent
donning and doffing, adding up all the time spent and
dividing by the number of observations, while Dr.
Dennis asked about the mode time, or the time that
‘most often’ occurred.” Id. ¶ 47 (emphasis in original).
She opines that “[u]se of an overall mean to estimate
liability and aggregate damages is not subject to [the]
same skewness/overestimation problem that can
affect mode.” Id. She further states that “the mode is
systematically likely to differ from the mean for
players, to the extent that shorter-than-typical days

App-122
due to factors such as injuries, rain-outs, manager
discretion or other unforeseen events are more likely
to occur than longer-than-typical days.” Id. ¶ 50.
Therefore, she concludes, “in addition to getting the
estimate of any hours worked wrong for virtually
every player, use of the ‘mode’ results from Dr.
Dennis’[s] survey (vs. the average gathered in Tyson)
may not even offer the prospect of getting the estimate
of liability or aggregate damages correct.” Id.
In opposing Plaintiffs’ new proposed classes,
Defendants further point to the Court’s reliance in its
Class Certification Order on the variations in the types
of activities in which the players engaged as a basis for
declining to certify the proposed classes under Rule
23(b)(3). Opposition at 14 (citing Class Certification
Order at 83). In espousing a “broad definition” of work
based only on departure and arrival times, Defendants
contend, Plaintiffs “all but ignore this aspect of the
Court’s decision.” Id. Similarly, Defendants contend,
Plaintiffs have not addressed the significant variations
as to compensation that the Court cited, except to
argue that this variation goes to damages rather than
liability. Id. at 14-15. According to Defendants, the
Court already rejected this argument and moreover,
Plaintiffs’ reliance on Torres v. Mercer Canyons, Inc. is
misplaced because that case involved informational
injury that was classwide and therefore liability could
be established without regard to the pecuniary loss to
the plaintiffs. Id. at 15 (citing No. 15-35615, 2016 WL
4537378 (9th Cir. Aug. 31, 2016)).
Defendants further contend Plaintiffs’ proposed
classes will give rise to new defects under Rule 23. Id.
at 16. First, they argue that because Plaintiffs have
“abandoned classwide pursuit of the vast majority of

App-123
the claims they are still pursuing individually,” the
class device is no longer the “superior means of
adjudication under Rule 23.” Id. at 16. Second, they
argue that there are now “adequacy” problems
relating to Plaintiffs’ representation of the putative
classes because Plaintiffs seek to apply the laws of
Arizona, Florida and California to the proposed
classes even though some class members may have an
interest in having the law of some other state applied.
Id. at 17. Defendants also argue that by limiting two
of the classes to spring training and instructional
leagues, when players are not compensated at all, they
have revived the question of whether they are trainees
or employees, which will turn on individualized
inquiries
relating
to
their
expectation
of
compensation. Id. at 18. There also remain “numerous
individualized inquiries that must be resolved in
connection with other defenses asserted in this case,”
Defendants contend. Id.
Defendants also contend the Court should reject
Plaintiffs’ request to certify a separate Rule 23(b)(2)
class. Id. at 19. First, they argue, certification of the
Rule 23 (b)(2) class should be denied because the
“relief the proposed intervenors seek—the future
payment of money—is a claim for damages disguised
as equitable relief.” Id. According to Defendants,
courts reject such attempts to transform a claim for
money into one for injunctive relief. Id. (citing
Herskowitz v. Apple, Inc., 301 F.R.D. 460, 482 (N.D.
Cal. 2014); Cholakyan v. Mercedes-Benz, USA, LLC,
281 F.R.D. 534, 560 (C.D. Cal. 2012)). Second, they
argue, the intervenors’ request for injunctive relief is
not “incidental” to the money damages they seek. Id.
Finally, Defendants argue that adjudication of the

App-124
claims of the Rule 23(b)(2) class would require
“endlessly individualized adjudication.” Id. In
particular, they assert that “the Court would be faced
with the very same fact-intensive determinations that
have rendered all of the other classes unsuitable for
certification, including: what state law applies to each
class member, what activities constitute compensable
time (if any), which players (if any) are owed
additional compensation, and the applications of the
various defenses.” Id. According to Defendants, “these
individualized inquiries would necessitate a separate
injunction tailored to each player” and therefore, the
requirements of Rule 23(b)(2) are not met. Id. (citing
McKinnon v. Dollar Thrifty Auto. Grp., Inc., No. CV
12-cv-04457-SC, 2015 WL 4537957, at *12 (N.D. Cal.
July 27, 2015); Cholakyan, 281 F.R.D. at 560).
With respect to Plaintiffs’ request that the Court
certify an issues class under Rule 23(c)(4), Defendants
argue that the request is an attempt to “circumvent
this Court’s prior denial of class certification” and that
Plaintiffs have not provided sufficient details to show
that the issues are amenable to classwide treatment.
Id. at 21-23. They further contend that Plaintiffs’
request does not address one of the Court’s primary
findings in the Class Certification Order, namely, that
“key issues going to liability require individualized
proof.” Id. at 21-22. Defendants also assert that
Plaintiffs have not demonstrated that the
commonality requirement of Rule 23(a) would be met
as to the issues classes Plaintiffs propose, which
requires that Plaintiffs demonstrate not only that
their claims turn on common issues of law but also
that these questions are susceptible to a common
answer. Id. at 22 n. 28. Moreover, Defendants argue,

App-125
the issues classes Plaintiffs propose will not
“significantly advance the resolution of the underlying
case.” Id. at 23 (quoting Valentino v. Carter-Wallace,
Inc., 97 F.3d 1227, 1229 (9th Cir. 1996)).
Defendants again raise the issue of Article III
standing, arguing that this is a threshold issue that
should be decided before deciding whether the
proposed classes should be certified. Id. at 23. They
contend that the problem of standing is particularly
significant as to the California Class and the proposed
(b)(2) class. Id. In particular, they point to the fact that
the California Class contains class representatives
who played in the California League for only seven of
the eleven Club Defendants. Id. at 24 (citing Bloom
Decl., Ex. A). Similarly, they assert, the (b)(2) class
contains class representatives who played for only
four of the Club Defendants. Id.
Finally, Defendants argue that the proposed
FLSA collective does not meet the heightened “secondstage” standard for certification with respect to
demonstrating that the putative opt-ins are similarly
situated. Id. Even with the modifications proposed by
Plaintiffs, Defendants contend, Plaintiffs have not
solved the problems related to the “disparate factual
and employment settings of the class members” and
the “plethora of individualized inquiries” necessary to
adjudicate their claims. Therefore, they assert, the
Court should deny Plaintiffs’ request to re-certify the
FLSA collective just as it should deny their request to
certify modified classes under Rule 23. Id. at 25.
In their Reply brief, Plaintiffs reject Defendants’
assertion that the new proposed classes will require a
multitude of choice of law analyses that defeat class

App-126
certification, arguing that it is Defendants’ burden to
show that another state’s law applies to class
members’ claims. Reply at 1-2. According to Plaintiffs,
Defendants have not met that burden. Id. at 3-5.
Plaintiffs also challenge Defendants’ argument
that there is no common continuous work day because
players do not arrive and depart at the same time each
day. Id. at 5-6. Plaintiffs contend they have “never
argued that all players arrive and depart at the same
time each day” and in any event, it is not their burden
to prove that they do; rather, they need only show that
they performed work for which they were improperly
compensated and present evidence from which a “just
and reasonable inference” can be drawn as to the
amount of work they performed. Id. at 6 (citing
Anderson v. Mt. Clemens Pottery Co., 328 U.S. 680,
687-88 (1946)). Plaintiffs also argue that Defendants
are incorrect in reading Tyson Foods as requiring that
a representative sample must be based on an
observational study, or that it must measure every
discrete activity, in order to be considered in the class
action context. Id. Moreover, they contend, Tyson
Foods itself allowed the use of representative evidence
where there were material variations between
employees as to the time spent donning and doffing of
equipment. Id.
Plaintiffs contend they can provide a reasonable
estimate of hours worked based on the model offered
by Dr. Kriegler. Id. at 7-8. 3 Dr. Kriegler offered a
3 Defendants object to Plaintiffs’ introduction of Dr. Kriegler’s
Rebuttal Declaration (Docket No. 755) and ask the Court to
Strike that declaration, as well as all of the arguments in
Plaintiffs’ Reply brief that rely on Dr. Kriegler’s declaration. See

App-127
declaration in support of Plaintiffs’ original class
certification motion and has now updated that
Docket No. 767 (“Objection”). They further request leave to file a
sur-reply in the event the Court decides to consider this material.
See Docket No. 768 (“Motion for Leave to File Sur-Reply”). In
support of their request that the Court strike the Kriegler
Rebuttal Declaration, Defendants contend Dr. Kriegler’s
declaration violates the Court’s instructions at the August 19,
2016 hearing, when it addressed the question of whether
Plaintiffs would be permitted to offer any additional expert
declarations beyond the declaration of Dr. Dennis addressing the
main survey. See Objection, Ex. B (August 19, 2016 hearing
transcript) at 42-46. At that hearing, the Court opined that it was
unlikely that any additional expert opinions would be helpful if
it found that the Main Survey was deficient because of the
problems related to individual players’ recall of relevant events.
See id. at 42. As discussed below, however, the Court now finds
that the Main Survey meets Daubert’s threshold reliability
requirement and therefore the Court must resolve the critical
question of whether the claims of the new classes proposed by
Plaintiffs can be proven on a classwide basis through common
evidence. The answer to that question turns, in part, on how the
data obtained from the Main Survey will be used, in conjunction
with other evidence, to establish the amount of work performed
by the proposed classes. Defendants have offered two expert
declarations offering opinions on this question, including one that
is based on an entirely new and very extensive study of the player
transaction records. Under these circumstances, it is appropriate
that Plaintiffs be permitted to introduce a rebuttal declaration by
Dr. Kriegler explaining why the opinions of Defendants’ experts
are incorrect. The Court also finds that Defendants’ assertions
the Dr. Kriegler has offered a “new” damages model are
exaggerated and that many of the approaches he explains in his
rebuttal declaration, such as his use of a percentile method, were
also described in his earlier declaration. Therefore, the Court
declines to strike Dr. Kriegler’s declaration. To alleviate any
possible prejudice to Defendants, however, the Court will
consider Defendants’ Sur-Reply. Therefore, the Motion for Leave
to File a Sur-Reply is GRANTED.

App-128
declaration to address the expert declarations of
Defendants’ experts and explain how he would use the
results of the Main Survey, in combination with other
available information, to come up with a classwide
estimate of damages. See Kriegler Rebuttal Decl. ¶¶ 112.
In his rebuttal declaration, Dr. Kriegler explains
that MLB’s eBis data, which contains the
transactional history for each player, will allow him to
determine for each day during the class period each
class member’s status and the team for which he was
playing. Id. ¶ 14. This information is the starting
point for his damages model and “combined with the
technical capabilities of computational software
programs” such as the one used by Defendants’ expert,
Mr. Meyer, will enable him to “perform very precise
calculations for every player for any time period.” Id.
¶¶ 14, 18. Dr. Kriegler states that he intends to crossreference the transactional data with other
information, including: 1) for game days, the game
duration times, which are available on MiLB.com;
2) for away games, the travel commute times, which
can be obtained using Google maps; 3) the type of
workday, which can be determined from information
on MiLB.com and organizational schedules;
4) estimated hours worked given the type of workday.
Id. ¶ 14. Dr. Kriegler states that organizational
schedules will allow him to categorize workdays
during the championship season depending on
whether games were home or away and whether they
were night games or day games. Id. ¶ 14. Similarly,
with respect to spring training, he will be able to use
Club training schedules to distinguish between camp
days and game days. Id. ¶¶ 9-10.

App-129
Plaintiffs further contend that Defendants’
criticisms of the Main Survey are not sufficient to
warrant denial of class certification. Id. at 8-10. First,
Plaintiffs reject Defendants’ assertion that the Main
Survey cannot be relied upon to determine the amount
of work conducted by class members because it does
not attempt to evaluate the specific tasks the players
were performing throughout the day and does not take
into account the fact that some players arrived at the
ballpark early (ie., before they were required to be at
the ballpark). Id. at 8. According to Plaintiffs, under
the continuous workday doctrine, it is neither
necessary
nor
appropriate
to
assess
the
compensability of each discrete activity. Id. To the
extent that there are variations as to arrival time,
Plaintiffs contend, these should not defeat class
certification. Id. In particular, Plaintiffs assert, both
California and Arizona law treat all hours at the
ballpark as being compensable, with Arizona law
defining “hours worked” as “all time . . . at a
prescribed workplace,” id. (quoting Ariz. Admin. Code
§ R20-5-1202(9)) (emphasis added in Plaintiffs’ brief)
and California law defining hours worked as all time
an employee is “permitted to work, whether or not
required to do so” and further providing that an
employee “subject to an employer’s control does not
have to be working during that time.” Id. (quoting
Morillon v. Royal Parking Co., 995 P.2d 139, 143 (Cal.
2000)).
As to Florida and federal law, Plaintiffs contend,
variations in arrival times also do not preclude
certification because they lie “at the fringe of the
workday.” Id. Citing the testimony of Defendants’
witnesses, Plaintiffs contend “[t]here is a core work

App-130
routine across minor league baseball that consists of
some form of early work or team fundamentals, a
stretch, throwing, batting practice, and then a game.”
Id. Much of this workday can be established through
common evidence other than the Main Survey,
Plaintiffs contend, such as schedules. Id. The Main
Survey, however, captures time at the beginning and
end of the workday that is spent performing required
activities that is not reflected on the schedules. Id. at
9. As to this time, Plaintiffs argue that much of the
variation can be taken care of using averages, which
will eliminate outliers. Id. If the Court is concerned
about the players whose arrival and departure times
were significantly above the average, Plaintiffs
suggest, the class notice can alert class members that
the class claims will be based on averages and that
class members may be able to recover more in an
individual action if they opt out of the class. Id.
Plaintiffs argue further that conservative
estimates can be used to measure this time, such as
the 10th percentile. Id. at 9. Plaintiffs contend that
Defendants “do not genuinely dispute that there was
a time by which all team members had to arrive to
begin work activities, so the continuous workday must
begin no later than that time.” Id. at 9. According to
Plaintiffs, “[t]he 10th percentile can be used to reveal
when the required team work began because it
represents the time by which 90% of respondents had
already arrived at work. Id. at 10 (citing Kriegler
Rebuttal Decl. ¶¶ 7, 34-35). 4 Plaintiffs argue that
4 Dr. Kriegler states in his declaration that “the 10th percentile
for hours worked closely tracks (and in some instances is lower
than) the required work hours according to daily schedules and

App-131
while Defendants are “free to try to rebut this
evidence . . . the persuasive value of the evidence is a
jury question, not a question of class certification.” Id.
(citing Tyson Foods, 136 S. Ct. at 1049; Villalpando v.
Exel Direct Inc., 12-CV-04137-JCS, 2016 WL 1598663,
at *21 (N.D. Cal. April 21, 2016)).
Next, Plaintiffs reject Defendants’ reliance on
variations in pay as a reason for denying class
certification. Id. at 10. Plaintiffs note that Defendants
make this argument only as to the California Class. Id.
This is because the Arizona and Florida Classes focus on
periods when players receive no compensation. Id. n. 6.
As to the California Class, Plaintiffs do not dispute that
depositions.” Kriegler Rebuttal Decl. ¶ 13. To illustrate this
point, he provides bar charts for each of the seven types of
workdays in which games are played (spring training, extended
spring training, instructional league and the four types of
championship season game days—home, away, day and night
games). Id. ¶ 35 & Exhibit A-G. According to Dr. Kriegler, these
bar charts reveal that the Main Survey results at the 10th
percentile are generally at or below the hours reported in the
schedules. Id. He acknowledges that the 10th percentile is higher
than the hours reflected on some of the daily schedules for home
night games (depicted in Exhibit 4G to his declaration) but opines
that this is not a cause for concern because the schedules for
these days include pre-game stretching, throwing, batting
practice and fielding practice but do not include conditioning,
weight lifting, team meetings, video review, training room
treatment, or putting on uniforms, even though deposition
testimony reflects these activities were required. Id. ¶ 36. Dr.
Kriegler opines that the close correlation between the times
reflected on the schedules and the results of the Main Survey at
the 10th percentile “supports the notion that, while some Minor
Leaguers may have performed more early activities than others,
survey data can be relied upon to estimate hours worked, and
there is a minimum expectation for the number of work hours
that is common to all class members.” Id. ¶ 13.

App-132
the vast majority of class members are beyond their
first year—which means that their salaries will not be
uniform—but point out that this also means that
fewer class members will be subject to the variations
in signing bonuses that characterize first year players.
Id. In any event, they argue, variations in
compensation do not defeat predominance because
there are common payroll records that can be used to
assess a player’s rate of pay and damages for each
week. Id. (citing Kriegler Rebuttal Decl. ¶ 40). In fact,
they contend, the existence of computerized payroll
records has been found to support class certification
because it allows class claims to be evaluated on the
basis of generalized proof. Id. (citing Minns v.
Advanced Clinical Employment Staffing LLC, No. 13CV-03249-SI, 2015 WL 3491505, at *8 (N.D. Cal. June
2, 2015); Leyva v. Medline Indus., 716 F.3d 510, 514
(9th Cir. 2013); Newberg § 450 (5th ed)).
Plaintiffs further contend that under their new
proposal there are no defenses that require
individualized analyses. Id. at 11. The only defense
under Arizona law is that the players are not
employees, Plaintiffs contend, and the Court has
already held that this issue can be decided based on
common evidence. Id. Plaintiffs also argue that the
creative artist exemption under California law will
depend on common proof of the players’ duties and
that the seasonal and amusement exemptions will not
require any individualized analysis. Id.
Plaintiffs also argue that to the extent
individualized inquiries exist, they relate to damages
and therefore do not defeat class certification. Id. at
11. First, as to the Arizona and Florida Classes, the

App-133
players are not compensated, so liability will be
established once the defenses are resolved and the
players show that they performed any work, Plaintiffs
contend. Id. at 11-12. If these classes establish
liability, calculation of their damages will simply
require that the minimum wage is multiplied by the
hours worked. Id. at 12. Similarly, they contend, for
the California Class, the game schedules show that
players were commonly scheduled to work seven days
a week in violation of California law; consequently,
they contend, liability will be easily established as to
the overtime claim simply by looking to game
schedules. Id. (citing Kriegler Rebuttal Decl. ¶¶ 2426). Thus, the calculation of hours worked and pay will
relate only to damages, they contend. Id. Plaintiffs
assert that it is well settled under Ninth Circuit law
that the need to make individualized findings as to the
amount of damages does not defeat class certification.
Id. (citing Vaquero v. Ashley Furniture Indus., Inc.,
824 F.3d 1150, 1155 (9th Cir. 2016)).
Plaintiffs argue that Defendants’ assertions of
“new defects” are also incorrect. Id. at 12-13. As to
their argument that the class claims are too limited
relative to the many individual claims that would
remain to be litigated, Plaintiffs argue that there is no
requirement that all of the claims asserted in a class
action be litigated on a classwide basis. Id. Moreover,
they argue, the claims they seek to certify relate to a
core part of their case, challenging Defendants’ failure
to pay any compensation at all for spring training,
extended spring training and instructional leagues
and providing an opportunity for the over 2,000
members of the California League to seek a remedy for
Defendants’ alleged violations of class members’

App-134
rights under California wage and hour law. Id. at 13.
Plaintiffs also reject the argument that the proposed
class representatives are inadequate to the extent
they seek to apply a single state’s law to the entire
class when there might be individual class members
who could assert their claims under the laws of other
states with laws more favorable to them. Id. This
argument is simply a “recycling of their failed choice
of law arguments,” Plaintiffs contend. Id.
As to standing, Plaintiffs repeat their argument
that this issue is more appropriately addressed after
class certification. Id. at 14.
Plaintiffs also reiterate their argument that the
Rule 23(b)(2) class should be certified. Id. They argue
that the relief this class seeks is not monetary and
that it is well established that class claims for back
pay and injunctive relief can be pursued in the same
action where two separate classes are established to
do so. Id. (citing Wang v. Chinese Daily News, Inc., 737
F.3d 538, 544 (9th Cir. 2013)). Further, when such an
approach is taken, it is not necessary to ask whether
monetary relief is incidental to the injunctive relief
because there is no monetary relief being sought by
the injunctive relief class. Id. Finally, Plaintiffs
reiterate their argument that the Court should certify
one or more issue classes under Rule 23(c) even if it
declines to certify the new proposed Rule 23(b) classes
and that the Court should recertify the FLSA
collective consistent with the limitations in the new
proposed classes. Id. at 15.
In their Sur-Reply, Defendants contend Dr.
Kriegler’s model, as described in his rebuttal
declaration, does not “come close to fixing all of the

App-135
core impediments to collective or class certification
previously identified by the Court.” Sur-Reply at 1.
First, they challenge Dr. Kriegler’s model on the basis
that it relies on a survey that does not attempt to
assess “team-related” activities and therefore does not
provide a reliable measure of “work” for the proposed
classes. Id. at 2. They reject Dr. Kriegler’s reliance on
a percentile approach to correct for the variations in
the survey results, arguing that this approach will
“shortchange” 90% of minor league players. Id. at 3.
They also argue that Dr. Kriegler has failed to
“explain how an approach that dismisses the majority
of survey responses in an attempt to make the survey
responses ‘fit’ with schedules is reliable.” Id. n. 6.
Defendants contend this approach also raises
questions as to superiority and adequacy to the extent
Plaintiffs are essentially seeking less than the amount
to which they claim they are entitled. Id. at 3-4.
Defendants reject Dr. Kriegler’s use of schedules
as evidence of the “minimum amount of pregame
work” in combination with survey results as evidence
of pre- and post-game work, arguing that comparison
of the schedules and the survey results does not
address the “substantial variability” reflected in both.
Id. at 4. First, Defendants contend the use of the
schedules to demonstrate any time worked on a
representative basis is improper because “each Club
and its affiliates had their own schedules in varying
formats, at the discretion of the Club’s various minor
league managers, coaches, and trainers and written
schedule were not necessarily reflective of the
activities planned or actually performed on a given
day.” Id. at 5. Next, Defendants challenge Dr.
Kriegler’s comparative approach on the basis that he

App-136
made these comparisons “without controlling for
team.” Id. at 5. Moreover, Defendants assert,
comparison of the survey results with the team
schedules shows that the survey results “are not
correlated with the schedules by team and there are
substantial differences in the hours individual
respondents reported while playing for the same Club
in the same year.” Id. (citing Guryan Decl. ¶¶ 11-12;
Martin Decl. ¶¶ 36-37). Defendants also reject Dr.
Kriegler’s conclusion that “the majority of work
performed by all Minor Leaguers was required team
activities.” Id. (quoting Kriegler Rebuttal Decl. ¶ 13).
Defendants contend the Main Survey does not provide
any basis for this conclusion as it does not ask about
team-related activities; to the extent Dr. Kriegler
relies on his belief that all players were required to
perform the activities listed on the schedules,
Defendants argue that the deposition testimony does
not support this conclusion. Id. (citing Kriegler
Rebuttal Decl. ¶¶ 32-33; Bloom Opposition Decl.
(Docket No. 744-2), Ex. B).
Defendants also challenge Dr. Kriegler’s reliance
on the eBis data as the “starting point” for his
damages estimate. Id. at 6. According to Defendants,
the transaction histories only record a player’s
assignment to an affiliate roster; they do not “reveal
the activities a player may or may not have engaged
in during that assignment, whether any of those
activities constitute compensable ‘work,’ or how much
time a player may have spent engaged in any
particular activity.” Id. Furthermore, Defendants
assert, the eBis data “cannot be utilized in any way for
Plaintiffs’ Arizona and Florida classes, not even to
track player assignments, because eBis does not

App-137
contain any information regarding a player’s
attendance at spring training, extended spring
training, or instructional leagues, let alone
information regarding the nature of activities or
participation therein.” Id. The only thing this data can
be used for, according to Defendants, is “to identify the
number of players who were assigned to the roster of
a particular minor league affiliate and the dates they
were assigned to the roster.” Id.
Next, Defendants contend the game schedules
and rosters do not provide a sufficient basis for Dr.
Kriegler to draw distinctions between different types
of game days. Id. In particular, the game schedules do
not indicate which players participated in or attended
games, and the rosters reveal “only the names of active
players assigned to an affiliate on a particular game
day during the championship season” and “do not
include information regarding the activities a player
participated in, if any, or time spent on those
activities.” Id. at 7. Game schedules during spring
training and instructional leagues are even less
useful, Defendants contend, because “during these
periods, games are modified based on the training
needs of the players, and may be cut short or not
played at all.” Id.
Finally, Defendants contend Dr. Kriegler’s
reliance on other sources of information to
“reconstruct” a workday are to no avail because they
do not allow him to determine how long any particular
player engaged in compensable “work.” Id. at 7. Given
the variations in the players’ individual activities,
Defendants argue, these sources of information could
be used to measure hours worked only if Dr. Kriegler

App-138
conducted an individualized inquiry as to each player.
Id. at 8-9. Even if this could be done, Defendants
argue, the variations in forms and amounts of
compensation paid to players would mean that
individualized liability inquiries would still be
required. Id. at 9.
D. The Motion to Exclude
Defendants contend in their Motion to Exclude
that the Main Survey, like the Pilot Survey, is based
on flawed methodology and that its results are
similarly unreliable. Motion to Exclude at 1.
Defendants challenge the reliability of the Main
Survey on the following grounds:
•

•

The Main Survey asks players only about arrival
times, departure times and meal times and
assumes that all time spent at the ballpark except
meal times constituted “hours worked” instead of
attempting to measure players’ “baseball-relatedǁ
or “team-related activities.” Motion to Exclude at
7-9; Declaration of Eugene P. Ericksen in Support
of Defendants’ Motion to Exclude the Declaration
and Testimony of J. Michael Dennis, Ph.D., Docket
No. 726 (“Ericksen Decl.”) ¶¶ 5-6. Because the
Main Survey does not measure time that is spent
performing compensable work, Defendants
contend, the results of the Main Survey are
irrelevant and unreliable.
The questioning strategy of the Main Survey does
not remedy the problem of recall bias that the
Court found rendered the Pilot Survey unreliable.
Motion to Exclude at 2, 10-15; Ericksen Decl. ¶¶ 45, 7, 13, 19-37, 54. Dr. Ericksen opines that the
Main Survey results are unreliable because

App-139

•

•

players were asked to recall details about mundane
events (arrival and departure times and
mealtimes) that occurred months or years ago. Dr.
Ericksen further opines that Dr. Dennis’s reliance
on a “control group” of non opt-in players and use
of “aided recall questions” do not solve these
problems. Id. He opines that the recall problems
are worsened by the substantial “respondent
burden” arising from the fact that respondents
were required to answer up to 65 questions, many
of which were complex in structure and sought
information about events that occurred between
four months and five years before the survey
interviews. Motion to Exclude at 14; Ericksen Decl.
¶¶ 20-22.
The Main Survey does not remedy the problem of
self-interest bias and Dr. Dennis’s reliance on the
responses of the “control group” of non opt-in
players to validate his results is not persuasive
because these players have an interest in the
outcome of this case even if they did not opt in to
the FLSA collective as putative members of the
Rule 23 classes. Motion to Exclude at 3, 16-17;
Ericksen Decl. ¶¶ 4, 8 14, 38-48.
The Main Survey is unreliable because it may
suffer from non-response bias. Motion to Exclude
at 17-19. Dr. Dennis began with a random sample
of 994 opt-in class members and 6,769 non opt-in
players; 24.6 percent of the opt-ins and 7.0 percent
of the non opt-ins responded. Ericksen Decl. ¶ 47.
Dr. Ericksen opines that Dr. Dennis’s efforts to
assess whether any large biases were created due
to variations in response rates by looking at four
variables (age, fielding position, most recent year

App-140
played and number of games played) are not
sufficient because Dr. Dennis does not explain how
he selected these factors and does not acknowledge
that there may be other factors that affected the
response rate and that could result in bias. Id.
¶¶ 44, 48.
• Dr. Dennis’s attempt to “validate” the Main Survey
results by comparing averages of the survey
responses with the daily schedules is misguided
because the Main Survey and the schedules “reflect
different things: the [Main] Survey asks about
arrival and departure times from the ballpark
while the daily schedules list activities that were
planned for future days.” Motion to Exclude at 3,
19-21; Ericksen Decl. ¶¶ 16, 49-50. According to
Defendants, the averages of the arrival and
departure times reported in the Main Survey vary
significantly from the hours reflected on the
schedules, especially for nongame days, and these
discrepancies have not been addressed by Dr.
Dennis. Motion to Exclude at 20. Furthermore,
they contend, Dr. Dennis’s use of averages to
validate his results is “particularly insufficient” in
light of the “extreme variability in responses.” Id.
In addition to these alleged flaws, Defendants
contend the Main Survey and associated Dennis
Declaration should be stricken because Plaintiffs
“failed to produce critical information associated with
the Main Survey” including “data or back-up
information regarding the cognitive interviews [Dr.]
Dennis claims to have conducted to ‘test’ the Survey,
as well as the dates and durations of the Main Survey
interviews.” Motion to Exclude at 3-4, 21-24.
Defendants further contend that “based on the

App-141
extremely limited information that [Dr.] Dennis
provided in his declaration, it is clear that [he] has
grossly deviated from standard best practices
regarding cognitive interviews.” Id. at 21.
In their Opposition brief, Plaintiffs reject
Defendants’ assertion that the results of the Main
Survey are irrelevant because the Main Survey
measures only arrival and departure times and
mealtimes and does not attempt to measure time
spent on particular activities while at the ballpark.
Opposition at 3-8. According to Plaintiffs, under Rule
702 of the Federal Rules of Evidence expert testimony
need only “help the trier of fact to understand the
evidence;” it need not provide conclusive proof of an
ultimate fact in the case to be relevant. Id. at 4. Dr.
Dennis’s Main Survey meets this “‘low bar’ of
relevancy,” Plaintiffs contend, because the Main
Survey is “probative of whether minor leaguers
performed any work” and it “is also probative of how
much they worked.” Id. at 4-5. In particular, under the
whistle-to-whistle rule, the time minor league players
spent at the ballpark offers at least a rough estimate
of how much work they performed, Plaintiffs contend.
Id. at 5 (citing IBP, Inc. v Alvarez, 546 U.S. 21, 36
(2005)). To the extent the estimate may not be exact,
Plaintiffs assert, this is not a basis for exclusion given
the fact that Defendants do not keep records of the
time minor league players work and in light of the
Supreme Court’s admonition in Mt. Clemens that
“[t]he employer cannot be heard to complain that the
damages lack the exactness and precision of
measurement that would be possible had he kept
[time] records.” Id. (quoting 328 U.S. at 688).

App-142
Plaintiffs further contend that Dr. Dennis
adhered to sound survey principals and that this is all
that is required for a study to be reliable under
Daubert, and thus admissible. Id. at 9 (citing Fortune
Dynamic, Inc. v. Victoria’s Secret Stores Brand Mgmt.,
Inc., 618 F.3d 1025, 1036 (9th Cir. 2010) (recognizing
that “survey evidence should be admitted as long as it
is conducted according to accepted principles and is
relevant” and that “technical inadequacies” in a
survey, “including the format of the questions or the
manner in which it was taken, bear on the weight of
the evidence, not its admissibility”); Declaration of J.
Michael Dennis in Support of Plaintiffs’ Opposition to
Motion to Exclude (“Dennis Opp. Decl.”) ¶ 36;
Declaration of Stanley Presser, Ph.D., in Support of
Plaintiffs’ Opposition to Motion to Exclude the
Testimony of J. Michael Dennis, Ph.D. (“Presser
Decl.”) ¶¶ 4, 15. The alleged flaws cited by Defendants
relating to non-response bias, recall bias and selfinterest bias are, at most, technical deficiencies that
go to the weight of the evidence rather than
admissibility, Plaintiffs contend. Opposition at 12-22.
In any event, the challenges Defendants bring on
these grounds are exaggerated, according to Plaintiffs.
Id. Plaintiffs cite to the expert report of Dr. Presser,
who disagrees with the opinions of Dr. Ericksen as to
many of the alleged deficiencies of the Main Survey,
as well as to Dr. Dennis’s own Opposition declaration.
Plaintiffs also assert that they have complied with
their discovery obligations by turning over all of the
expert data required under the rules. Id. at 22-23.
Plaintiffs reject Defendants’ assertion that Dr. Dennis
did not follow best practices relating to use of cognitive

App-143
interviews, citing the opinions of both Dr. Dennis and
Dr. Presser. Id. at 23-24. Finally, Plaintiffs assert that
Dr. Dennis’s reliance on the schedules as a means of
validating the results of the Main Survey is
reasonable and supports the reliability of the survey
results. Id. at 24-25. Plaintiffs contend “Defendants’
own witnesses testified that the daily schedules are
the best documents available to show what happened
on a given day” and that “[i]f anything, the schedules
underestimate the length of the workday for many
class members because (as many defense witnesses
have confirmed) a considerable amount of work took
place in addition to that indicated on team schedules,
including weightlifting, and especially on non-game
days.” Id. at 25 (emphasis in original).
In their Reply brief, Defendants reiterate their
argument that the Main Survey is flawed and
irrelevant because it does not attempt to measure
team-related activities, even though Plaintiffs claim
they are seeking to establish the amount of time
worked by class members by looking at such activities.
Reply at 1-4. In addition, Defendants contend, the
responses to the Main Survey cannot be used to
establish the average time worked by putative class
members because the players were not asked to
provide information about the average hours worked;
instead, they were asked to provide the times of their
arrivals and departures and mealtimes that they
experienced “most often.” Id. at 1, 5 (citing Ericksen
Decl. ¶¶ 14-17, 42). According to Defendants, by
requesting times based on the “mode” the Main Survey
does not allow for a calculation of average hours
worked. Id. at 5 (citing Wallace v. Countrywide Home
Loans Inc., No. SACV 08-1463-JST, 2012 WL

App-144
11896333, at *5 (C.D. Cal. Aug. 31, 2012) (holding that
survey that asked respondents to report how many
hours they worked in a “typical” week could not be
used to show average hours worked)).
Defendants also argue that the Main Survey, like
the Pilot Survey, suffers from flawed methodology
because it asks “respondents who have an interest in
the outcome of the litigation to recall detailed and
trivial information from months, if not years, prior to
the survey concerning the very same ‘mundane events’
that concerned the Court previously . . . .” Id. at 6.
Defendants reject Plaintiffs’ assertion that the flaws
go to the weight of the Main Survey results rather
than their admissibility, arguing that Plaintiffs
“ignore that it is their burden to prove that the survey
satisfies Daubert and is reliable representative
evidence for class certification now.” Id. at 7 (emphasis
in original). According to Defendants, use of reliable
survey methods alone does not guarantee that the
results of a survey will be reliable or that they will not
be infected by self-interest, non-response or recall
bias. Id. (citing Ericksen Decl. ¶ 6).
Defendants contend the unreliability of the
results of the Main Survey can be seen in the
variability of the responses from players who played
for different Clubs. Id. at 8-9 (citing Ericksen Decl.).
These variations show that the survey responses do
not provide reliable evidence of “team activities,”
Defendants contend. Id. at 9. Defendants further
assert that the Main Survey does not address the
problems of recall bias, self-interest bias or nonresponse bias. Id. at 10-13. Nor do Plaintiffs
adequately respond to the problem of respondent

App-145
burden, Defendants argue. Id. To the extent Dr.
Presser rejected Dr. Ericksen’s opinion on this issue,
Defendants assert, his opinion is not persuasive
because he looked at only one question in the Main
Survey and did not address the fact that the questions
were asked up to 21 times for each respondent. Id. In
any event, Defendants argue, Dr. Presser’s
declaration should be excluded because it is based only
on Dr. Presser’s review of the scientific literature and
not a review of the Main Survey or its results. Id. at
13, 14-15.
Finally, Defendants reject Dr. Dennis’s attempt to
“validate” his survey results by comparing the
“average” responses of the Control Group to “average”
times reflected on schedules. Id. at 14-15. The Control
Group responses are subject to the biases discussed
above, Defendants contend, and moreover, the Main
Survey does not ask for averages and therefore cannot
be used for that purpose. Id. Averaging the schedules
is also meaningless, Defendants assert, because
Plaintiffs’ expert fail to account for the fact that there
is variation in schedules from Club to Club and there
has been no effort to link the survey respondents to
particular Clubs. Id.
E. The Motion to Intervene
In the Motion to Intervene, four current minor
leaguers (“Injunctive Intervenors”) and a fifth
intervenor who seeks to take the place of recently
dismissed named Plaintiff Matt Gorgen, seek to
intervene under Rule 24(a) of the Federal Rules of
Civil Procedure (governing intervention as of right) or
in the alternative, under Rule 24(b) (governing

App-146
permissive intervention). 5 Plaintiffs contend the
Motion to Intervene is timely because it is in response
to the Court’s Class Certification Order, which was
when the Injunctive Intervenors became aware that
their interests might no longer be protected by having
opted in to the FLSA collective. Motion to Intervene at
5. They further contend there will be no prejudice to
Defendants as minimal additional discovery will be
needed and the trial dates in this case have been
vacated. Plaintiffs argue that intervention as of right
is warranted because the Injunctive Intervenors have
a significantly protectable interest in the action that
may be impaired if they are not permitted to intervene
and the current named Plaintiffs, all of whom are
former minor leaguers, will not adequately represent
their interests.
Even if the Court were to find that intervention
under Rule 24(a) is not warranted, Plaintiffs assert,
the Court should allow permissive intervention under
Rule 24(b) because Plaintiffs have established
timeliness, commonality and a basis for jurisdiction.
Defendants oppose the Motion to Intervene,
arguing that the motion is untimely and would result
in severe prejudice to Defendants because of the
additional discovery that would have to be conducted
(including discovery related to individual claims they
plan to pursue) and the delay that could result as to
5 The Injunctive Intervenors are Shane Opitz, Corey Jones,
Brian Hunter, and Kyle Johnson. Motion to Intervene at 1. The
fifth intervenor is Aaron Dott, a former minor leaguer who played
for the Tampa Bay Rays’ organization from 2009 to 2011 and the
New York Yankees’ organization from 2011 to 2015. Id.; see also
Docket No. 719-6 (Proposed Complaint in Intervention) ¶ 3.

App-147
resolving the Motion for Reconsideration. They
contend leave to intervene under both Rule 24(a) and
24(b) should be denied.
III. MOTION TO INTERVENE
A. Legal Standards Under Rule 24
Pursuant to Rule 24(b), “[a]n applicant who seeks
permissive intervention must prove that it meets
three threshold requirements: (1) it shares a common
question of law or fact with the main action; (2) its
motion is timely; and (3) the court has an independent
basis for jurisdiction over the applicant’s claims.”
Donnelly v. Glickman, 159 F.3d 405, 412 (9th Cir.
1998) (citing Nw. Forest Resource Council, 82 F.3d at
839). If the party seeking to intervene meets those
elements, the district court has broad discretion to
grant or deny the motion, but “must consider whether
intervention will unduly delay the main action or will
unfairly prejudice the existing parties.” Id.; see also
Fed. R. Civ. P. 24(b)(3).
B. Discussion
The Court finds that the requirements of Rule
24(b) of the Federal Rules of Civil Procedure have been
satisfied and therefore exercises its discretion to
permit the Proposed Intervenors to intervene in this
action. The Court does not reach the question of
whether the requirements of Rule 24(a) have been
satisfied. Defendants do not dispute that the claims of
the proposed intervenors satisfy the commonality
requirement or that there is a basis for jurisdiction
over their claims. Rather, they contend the request to
intervene is untimely and will cause undue delay or
prejudice. The Court disagrees.

App-148
First, with respect to proposed intervenor Aaron
Dott, the Court has already addressed a very similar
issue in its July 6, 2016 Order Granting Motion to
Withdraw and Dismissing Claims Without Prejudice
[Docket No. 682]. There, the Court addressed whether
the withdrawal of named Plaintiff Matt Gorgen would
result in prejudice to Defendants such that his claims
should be dismissed with prejudice. The Court found
that it would not, finding that Plaintiffs timely
notified Defendants of their intent to seek leave to
substitute Aaron Dott for Matt Gorgen as a named
Plaintiff and that Defendants had suffered no
prejudice from Gorgon’s withdrawal from the case. For
the same reasons as are stated in that Order, and
because Mr. Dott filed a motion to intervene promptly
after the court issued its order permitting Matt
Gorgen to withdraw, the Court finds that Plaintiffs
have timely requested that Aaron Dott be permitted to
intervene and that they will suffer no prejudice from
that intervention. Therefore, the Court exercises its
discretion to permit Mr. Dott to intervene as a named
Plaintiff.
The Court also finds that intervention of the
Injunctive Intervenors is timely and will not result in
undue prejudice to Defendants. “Courts weigh three
factors in determining whether a motion to intervene
is timely: ‘(1) the stage of the proceeding at which an
applicant seeks to intervene; (2) the prejudice to other
parties; and (3) the reason for and length of the delay.’”
United States v. Alisal Water Corp., 370 F.3d 915, 921
(9th Cir. 2004) (quoting Cal. Dep’t of Toxic Substances
Control v. Commercial Realty Projects, Inc., 309 F.3d
1113, 1119 (9th Cir. 2002)). “[P]rejudice is evaluated
based on the difference between timely and untimely

App-149
intervention—not based on the work the defendants
would need to do regardless of when [the proposed
intervenors] sought to intervene.” Kamakahi v. Am.
Soc’y for Reprod. Med., No. 11-CV-01781-JCS, 2015
WL 1926312, at *4 (N.D. Cal. Apr. 27, 2015) (citing
Day v. Apoliona, 505 F.3d 963, 965 (9th Cir. 2007)
(paranthetical omitted)).
Here, the Injunctive Intervenors requested leave
to intervene promptly after the Court issued its order
decertifying the FLSA collective (of which the
Injunctive Intervenors were members) and denying
Plaintiffs’ request for certification of the State Law
Classes under Rule 23. The Supreme Court has made
clear that absent class members may rely on the
representation of class members and their counsel
during the pendency of a putative class action until
class certification is denied and that permitting them
to do so is in the interests of “efficiency and economy”
of litigation. Crown, Cork & Seal Co. v. Parker, 462
U.S. 345, 353-54 (1983) (“‘the commencement of a class
action suspends the applicable statute of limitations
as to all asserted members of the class who would have
been parties had the suit been permitted to continue
as a class action.’ . . . Once the statute of limitations
has been tolled, it remains tolled for all members of
the putative class until class certification is denied. At
that point, class members may choose to file their own
suits or to intervene as plaintiffs in the pending
action.”). Therefore, the Court concludes that the
Injunctive Intervenors did not unduly delay in seeking
to intervene.
Nor is the Court persuaded by Defendants’
assertions that they will be severely prejudiced if the

App-150
Injunctive Intervenors are permitted to intervene.
First, the Court rejects Defendants’ complaint that the
Injunctive Intervenors’ request amounts to an “effort
for a ‘second bite’ at Rule 23(b)(2) class certification.”
Opposition to Motion to Intervene at 1. As it is
undisputed that the Injunctive Intervenors could
assert these same claims in a separate action, the
prejudice that would result from permitting them to
intervene in this action is minimal. Indeed, combining
the claims of the Injunctive Intervenors with those of
the existing Named Plaintiffs is likely in the interest
of judicial efficiency as the Injunctive Intervenors’
claims are based on essentially the same theories and
evidence as those of the existing Named Plaintiffs.
Second, the Court rejects Defendants’ assertion
that permitting the Injunctive Intervenors to
intervene in this action will severely prejudice
Defendants by delaying the resolution of the Motion
for Reconsideration and the entire action because of
the need to conduct additional discovery. The Court
concludes that Defendants’ concerns on this score are
exaggerated. They have not pointed to anything about
these four individuals that requires additional
discovery to be conducted before the Court decides the
Motion for Reconsideration. Moreover, there are no
imminent deadlines relating to trial because the Court
vacated the trial dates following its Class Certification
ruling. And to the extent Defendants may be required
to conduct discovery as to claims that these
individuals do not seek to assert on behalf of the class,
the same discovery would be necessary if the Court
were to require them to file separate actions rather
than permitting them to intervene in this one.

App-151
Accordingly,
GRANTED.

the

Motion

to

Intervene

is

IV. MOTION TO EXCLUDE
A. Legal Standards
Rule 702 of the Federal Rules of Evidence
provides that “[i]f scientific, technical, or other
specialized knowledge will assist the trier of fact to
understand the evidence . . . a witness qualified as an
expert by knowledge, skill, experience, training, or
education, may testify thereto in the form of an
opinion.” Fed. R. Evid. 702. The Ninth Circuit has held
that in applying this standard to survey evidence,
such evidence “should be admitted ‘as long as [it is]
conducted according to accepted principles and [is]
relevant.’” Fortune Dynamic, Inc. v. Victoria’s Secret
Stores Brand Mgmt., Inc., 618 F.3d 1025, 1036 (9th
Cir. 2010) (quoting Wendt v. Host Int’l, Inc., 125 F.3d
806, 814 (9th Cir.1997)). Thus, a district court’s
treatment of a survey involves two steps. See In re:
Autozone, Inc., No. 3:10-MD-02159-CRB, 2016 WL
4208200, at *16 (N.D. Cal. Aug. 10, 2016) (citing Clicks
Billiards, Inc. v. Sixshooters, Inc., 251 F.3d 1252, 1263
(9th Cir. 2001)). “First, the court is to determine
admissibility: ‘is there a proper foundation for
admissibility, and is it relevant and conducted
according to accepted principles?’” Id. (quoting Click’s
Billiards, 251 F.3d at 1263). “Second, once the survey
is admitted, ‘follow-on issues of methodology, survey
design, reliability, the experience and reputation of
the expert, critique of conclusions, and the like go to
the weight of the survey rather than its
admissibility.’” Id. (quoting Click’s Billiards, 251 F.3d
at 1263); see also Fortune Dynamic, 618 F.3d at

App-152
1036)(“‘we have made clear that ‘technical
inadequacies’ in a survey, ‘including the format of the
questions or the manner in which it was taken, bear
on the weight of the evidence, not its
admissibility.’”)(quoting Keith v. Volpe, 858 F.2d 467,
480 (9th Cir. 1988)).
B. Discussion
Defendants’ challenges to Dr. Dennis’s Main
Survey are based on alleged shortcomings in the
methodology he used to conduct the survey and on the
alleged unreliability of its results. The Court has
carefully reviewed the opinions of both parties’ experts
and concludes that the Main Survey and the opinions
of Dr. Dennis that are based upon it are sufficient to
meet the standards set forth above. Therefore, the
Court DENIES the Motion to Exclude.
1.

Evidentiary Issues

As a preliminary matter, the Court rejects
Defendants’ requests to strike Dr. Dennis’s report and
survey under Rule 37 (c)(1) of the Federal Rules of
Civil Procedure on the basis that Plaintiffs failed to
comply with their discovery obligations under Rule
26(a)(2)(ii) with respect to disclosure of information on
which Dr. Dennis’s opinions are based. “Rule 26(a)(2)
only deals with disclosure of expert witnesses that
parties intend to use at trial.” Ewert v. eBay, Inc., No.
C-07-02198 RMW, 2010 WL 4269259, at *13 (N.D. Cal.
Oct. 25, 2010). “Rule 26(a)(2) does not require advance
disclosure of expert witness reports for use in class
certification briefing.” Id. In any event, the single case
cited by Defendants, Rembrandt Vision Techs., L.P. v.
Johnson & Johnson Vision Care, Inc., 282 F.R.D. 655,
667 (M.D. Fla. 2012), aff‘d, 725 F.3d 1377 (Fed. Cir.

App-153
2013), does not support their position. First, that case
(unlike the situation here) clearly implicated Rule
26(a)(2) because it addressed whether an expert’s
testimony was improperly admitted at trial. 282
F.R.D. 655, 658. Second, the alleged violation of Rule
26(a)(2) was obvious and egregious—the expert
acknowledged on cross-examination that his opinions
were not based on the test he described in his expert
report but instead, on a “completely different” test. Id.
at 663. Under these circumstances, the court found
that the disclosures in the expert report were
“woefully deficient.” Id. There is no such violation
alleged here.
Similarly, the Court declines to exclude the
opinions of Dr. Presser. Defendants contend it was
improper for Plaintiffs to introduce this declaration in
support of their opposition to Defendants’ Daubert
motion because they were already aware of
Defendants’ challenges to Dr. Dennis’s methodology.
This argument makes no sense. In the Ericksen
Declaration, Defendants introduced new and specific
challenges to Dr. Dennis’s updated expert report
based on the Main Survey. Dr. Presser’s opinions were
offered specifically to address the validity of Dr.
Ericksen’s new opinions, which Plaintiffs could not
have anticipated. Therefore, the Court concludes that
there was nothing improper about Plaintiffs’
submission of the Presser Declaration. Furthermore,
there was no prejudice to Defendants because they
had an opportunity to respond to Dr. Presser’s
opinions in their reply papers and indeed, they did so
by filing a responsive declaration by Dr. Ericksen that
directly addressed Dr. Presser’s criticisms of Dr.
Ericksen’s earlier opinions. See Docket No. 761.

App-154
2.

Whether
Relevant

the

Main

Survey

is

Defendants contend Dr. Dennis’s opinions based
on the Main Survey results are irrelevant for the
purposes of Rule 702 and Daubert because
respondents were asked only to recall their arrival and
departure times and meal times and were not asked
about their actual activities while they were at the
ballpark to determine the amount of time they spent
on team-related activities. The Court disagrees.
Dr. Dennis’s questions in the Main Survey are
premised on the “whistle-to-whistle” or continuous
workday doctrine, under which a workday is
considered to be “continuous, not the sum of discrete
periods,” Alvarez v. IBP, Inc., 339 F.3d 894, 907 (9th
Cir. 2003), aff’d, 546 U.S. 21 (2005), and consists “in
general, [of] the period between the commencement
and completion on the same workday of an employee’s
principal activity or activities.” IBP, Inc. v. Alvarez,
546 U.S. 21, 36 (2005); see also Ariz. Admin. Code R205-1202 (defining “hours worked” under Arizona
minimum wage law as “all hours for which an
employee . . . is employed and required to give to the
employer, including all time during which an
employee is on duty or at a prescribed work place and
all time the employee is suffered or permitted to
work.”); Morillion v. Royal Packing Co., 22 Cal. 4th
575, 582 (2000), as modified (May 10, 2000) (“Wage
Order No. 14-80 defines ‘hours worked’ as ‘the time
during which an employee is subject to the control of
an employer, and includes all the time the employee is
suffered or permitted to work, whether or not required
to do so.’”). Consistent with this doctrine, Dr. Dennis

App-155
used arrival and departure times as an indicator of
when ball players’ principal activities began and
ended.
While the data Dr. Dennis obtained may or not be
sufficient to establish the ultimate issue of how much
actual work was performed by the putative classes, it
will allow the jury to ascertain whether the class
members performed work and will provide estimates
of the amounts of time they worked. This evidence
may be helpful to the jury, especially when considered
in combination with other evidence such as the daily
schedules and witness testimony, and that is all that
is required to meet the relatively low relevance
requirement under Rule 702. See In re High-Tech
Employee Antitrust Litig., No. 11-CV-02509-LHK,
2014 WL 1351040, at *2 (N.D. Cal. Apr. 4, 2014) (“Rule
702 ‘mandates a liberal standard for the admissibility
of expert testimony.’”) (quoting Cook v. Rockwell Int’l
Corp., 580 F.Supp.2d 1071, 1082 (D.Colo. Dec. 7,
2006); and citing Daubert, 509 U.S. at 588; Dorn v.
Burlington N. Sante Fe R.R. Co., 397 F.3d 1183, 1196
(9th Cir.2005) (“The Supreme Court in Daubert [ ] was
not overly concerned about the prospect that some
dubious scientific theories may pass the gatekeeper
and reach the jury under the liberal standard of
admissibility set forth in that opinion[.]”).
As Judge Illston explained in Ridgeway v. WalMart Stores, Inc., “[t]he ‘fit test’ [under Daubert] does
not require an expert to provide all of the components
of a party’s case.” No. 08-CV-05221-SI, 2016 WL
4728668, at *4 (N.D. Cal. Sept. 12, 2016). Therefore,
in that case the court declined to exclude an expert
report that measured the amounts of time class

App-156
members spent on various tasks, where the expert
used these times in support of a damages estimate,
even though the expert did not address “whether the
tasks for which he gives time estimates were
performed during paid or unpaid time.” Id. (internal
quotations and citation omitted). The court concluded
that this was an issue that was more appropriately
addressed through “‘[v]igorous cross-examination,
presentation of contrary evidence, and careful
instruction on the burden of proof’” rather than
outright exclusion. Id. (quoting Daubert, 509 U.S. at
596). The Court reaches the same conclusion here. 6
3.

Whether Dr. Dennis
Accepted Principals

Followed

Defendants point to three types of bias in support
of their contention that Dr. Dennis’s methodology is
fatally flawed: 1) recall bias; 2) self-interest bias; and
3) non-response bias. In addition, they challenge the
Survey’s methodology to the extent it asks player to
describe their “most often” arrival and departure
times for particular periods rather than their average
arrival and departure time. As discussed above, the
Court cited both recall bias and self-interest bias in its
Class Certification Order as reasons for concluding
that the Pilot Survey was inadmissible, and went so
far as to find that “any future survey that applies a
similar methodology is likely to yield unreliable
results as well.” Class Certification Order at 103. The
6 In finding that Dr. Dennis’s opinions are relevant for the
purposes of admissibility, however, the Court does not hold that
use of the Main Survey results is a proper use of representative
evidence under Tysons Foods and Wal-Mart. That issue is
addressed below.

App-157
Court is now persuaded that the alleged flaws in Dr.
Dennis’s methodology have either been addressed in
the Main Survey or are the type of issues that are
more appropriately addressed through crossexamination, but that they do not warrant exclusion
of Dr. Dennis’s opinions under Rule 702 and Daubert.
a.

Recall Bias

In its Class Certification Order, the Court was
particularly concerned about the possibility of recall
bias because the Pilot Survey asked players to
remember mundane events that occurred, for many
respondents, over a year before they participated in
the survey. The problem was particularly pronounced,
the Court found, as to a question about spring training
that asked respondents to provide the total amount of
time they spent on a variety of activities for each week
of the four weeks of Spring training. The Court was
skeptical of Dr. Dennis’s assertion that he could use
“memory aids” to improve recall and also rejected his
assertion that the times reported by the players could
be validated using other records, concluding that Dr.
Dennis had not pointed to any specific types of records
that might be available to validate the results of the
survey. The Court concluded these problems were so
severe as to warrant outright exclusion. The Court
now finds that problems associated with respondents’
ability to recall details in connection with the Main
Survey can be addressed through cross-examination
and/or the introduction of admissible evidence and
that these problems are better left to a jury to
evaluate.
As the Court revisits this question, it notes that
there is no authority suggesting that there is a bright-

App-158
line rule or cut-off with respect to how far in the past
survey respondents can be asked to recall past events
in order for a survey to be admissible. To the contrary,
courts have found admissible surveys—including in
the wage and hour context—that asked respondents to
recall events that occurred many years in the past.
See, e.g., Medlock v. Taco Bell Corp., No. 1:07-CV01314-SAB, 2015 WL 8479320, at *5 (E.D. Cal. Dec. 9,
2015) (finding that survey that asked respondents to
report on their rest and meal breaks for an eleven year
period was admissible and concluding that any issues
as to memory were better addressed through crossexamination); Oracle Am., Inc. v. Google Inc., No. C
10-03561 WHA, 2016 WL 1743116, at *8 (N.D. Cal.
May 2, 2016) (holding that survey that asked
respondents to recall details about their decisionmaking process many years before the survey was
conducted did not warrant outright exclusion as the
issue of imperfect recall was not “a fatal flaw of the
survey methodology” and could be addressed through
cross-examination or the introduction of other
admissible evidence). Moreover, surveys that rely on
the respondents’ ability to recall detailed information
are widely used by the United States Census Bureau
and other “official statistical agencies, government
health agencies, and academic research centers.”
Dennis Opp. Decl. ¶ 20 n. 2.
The Court also finds that notwithstanding the
criticisms Defendants’ experts have made of Dr.
Dennis’s approach, Dr. Dennis’s efforts to improve
recall accuracy and test for recall bias are based on
accepted principles in the survey research literature.
For example, Dr. Dennis used memory aid questions
for each year a respondent played. See August 4, 2016

App-159
Dennis Decl. ¶¶ 35-36. There is a body of literature
that shows that aided recall questions are an accepted
technique for assisting in recall. See Presser Decl. ¶ 7
& n. 3. He has also removed the question about spring
training that the Court found was particularly
burdensome and might give rise to recall bias. August
4, 2017 Dennis Decl. ¶ 37. In addition, Dr. Dennis has
cited to literature indicating that even if mundane
events may be more difficult for respondents to recall,
routine events are more easily remembered than nonroutine events. Dennis Opp. Decl. ¶ 21 & n. 3; see also
August 4, 2016 Dennis Decl. ¶¶ 30-31. Plaintiffs have
also introduced evidence that the activities of minor
league players are, in fact, routinized. See Declaration
of Garrett E. Broshuis in Support of Opposition to
Motion to Exclude (“Broshuis Opposition Decl.”), Ex.
A (chart summarizing testimony of minor league
players regarding routine nature of activities).
Dr. Dennis has also conducted various types of
“checks” on his responses to determine whether the
results of the Main Survey are characterized by any
recall bias. First, he analyzed daily schedules
produced by Defendants for both game days and nongame days and concluded that the results of these
schedules are in line with the results of the Main
Survey. August 4, 2016 Dennis Decl. ¶¶ 26-28.
Second, he looked at the deposition testimony of
Defendants’ witnesses as to arrival and departure
times before night games during the championship
season to see how it compared with the Main Survey
Results. Id. ¶ 29. He found that the amount of time
reflected in the testimony of Defendants’ witnesses
was lower but not “substantially lower” and that a
“conservative measure of the survey data, such as the

App-160
tenth percentile, could be used if needed to account for
any differences.” Id. Finally, Dr. Dennis compared the
responses of the Control Group (who played in the
2015 or 2016 season and who did not opt in to the
FLSA collective) to the responses of all of the
respondents and did not find that they were
significantly different, leading him to conclude that
recall bias was not a problem. Id. ¶ 6.
In light of the measures Dr. Dennis has taken to
avoid recall bias and also because Defendants’ experts
have not been able to identify in any convincing way
that the responses to the Main Survey are
characterized by any actual recall bias, the Court
concludes that the criticisms leveled by Defendants
and their experts relating to recall bias do not warrant
exclusion of the Main Survey in its entirety.
b.

Self-Interest Bias

In its Class Certification Order, the Court
expressed concern that respondents to the Pilot
Survey might have inflated their responses as to time
worked because they might have believed they had a
vested interest in the outcome of the survey. The
Court noted that all of the respondents to the Pilot
Survey had opted in to the FLSA collective and that
the respondents were told that they were being asked
to complete the survey because they had opted in.
Class Certification Order at 100. The measures taken
to avoid self-interest bias and test for its existence
alleviate the Court’s concerns and therefore, the Court
concludes that the potential self-interest bias cited by
Defendants does not justify exclusion of Dr. Dennis’s
opinions and the Main Survey.

App-161
First, in the Main Survey (in contrast to the Pilot
Survey) Dr. Dennis did not tell respondents why they
were being asked to complete the survey and he used
a logo that suggested the survey was being conducted
as independent research. See Dennis Opp. Decl., ¶ 12.
He also attempted to reduce the possibility that
respondents would connect the survey to this lawsuit
by describing the survey to respondents as one about
their “experiences” as minor league players and not
asking directly about their hours. Id. Second, he
sought and obtained responses from a significant
number of non opt-in players; he also corrected the
results statistically to ensure that the weight of opt-in
and non opt in responses would correspond to the
relative proportions of these groups as part of the
class. August 4, 2016 Dennis Decl. ¶¶ 4, 46.
While the Court previously expressed the concern
that reliance on the responses of non opt-ins to address
the possibility of self-interest bias would not be
effective because even these players were likely to
have an interest in the outcome of this action, see
Class Certification Order at 101-102, the Court now
concludes that this is an issue that goes to the weight
of the evidence and not its admissibility. See Medlock
v. Taco Bell Corp., No. 1:07-CV-01314-SAB, 2015 WL
8479320, at *5 (E.D. Cal. Dec. 9, 2015) (rejecting
Daubert challenge to survey based on alleged selfinterest bias arising from the fact that respondents
were told throughout the survey that they were
members of the class and holding that any selfinterest bias that might have result went to the weight
of the evidence rather than its admissibility); Johnson
v. Big Lots Stores, Inc., No. CIV.A. 04-3201, 2008 WL
1930681, at *7 (E.D. La. Apr. 29, 2008) (“statistical

App-162
experts frequently employ surveys in which
respondents have a potential interest in the outcome
of the survey. . . . Potential bias by the survey
respondents may affect the ultimate weight that
should be accorded to Rausser’s opinion, but it does
not render his study unreliable.”).
Finally, Dr. Dennis has also conducted tests for
self-interest bias that apply accepted principles of
survey research; conversely, Defendants have not
established the existence of any actual self-interest
bias.
The Court concludes that Plaintiffs have taken
meaningful measures in the Main Survey to reduce
the likelihood of self-interest bias and that while
Defendants will have an opportunity to challenge Dr.
Dennis on this question through cross-examination
and the introduction of admissible evidence, this
problem does not warrant exclusion of the Main
Survey.
c.

Non-response Bias

Defendants make much of the low response rate
to the Main Survey. Dr. Dennis, however, has cited
research survey literature (including a paper by
Defendants’ expert, Dr. Ericksen) that suggests that a
low response rate is not likely to skew the results of a
survey where, as here, the respondents were randomly
selected. Dennis Opp. Decl. ¶ 31. Dr. Dennis also
conducted analyses of various factors that could have
led to bias as a result of the low response rate and did
not find any significant bias. See id. ¶ 27. Although
Defendants’ expert suggests there might be other
criteria that Dr. Dennis should have considered, see
Ericksen Decl. ¶¶ 44, 48, he has not established that

App-163
any such bias exists. Accordingly, the Court concludes
this is not a shortcoming of the Main Survey that
requires exclusion.
d.

“Most often” arrival and departure
times

Defendants have offered the expert opinion of Dr.
Martin that by asking respondents to describe their
“most often” arrival and departure times, rather than
their average arrival and departure time, Dr. Dennis
may have skewed the results of the survey. As
discussed above, Dr. Martin offers a hypothetical
example to illustrate how this approach might have
led to an inflated result with respect to the
measurement of work performed by class members.
Dr. Kriegler, on the other hand, rejects Dr. Martin’s
opinion that Dr. Dennis’s use of the “mode” rather
than the average arrival and departure times of the
players leads to an unreliable result. See Kriegler
Rebuttal Decl. at 6, 21. In particular, he contends Dr.
Martin’s example is misleading because she used
“fictitious data and extremely small sample sizes,
neither of which is based on actual data in the instant
matter.” Id. at 6. He goes on to address, in detail, why
use of the mode may, in fact, give rise to a more
conservative estimate of hours worked than would be
obtained based on use of averages. See id. at 21-23.
The Court concludes that this is a dispute between the
experts about survey methodology and that
Defendants have failed to show that the methodology
used by Dr. Dennis is not within the range of accepted
principals of survey design. Accordingly, Defendants’
challenge goes to the weight of the Survey and not its
admissibility.

App-164
Accordingly, the Motion to Exclude is DENIED.
V. MOTION FOR RECONSIDERATION
A. Legal Standard
“A district court . . . retains jurisdiction over an
interlocutory order—and thus may reconsider,
rescind, or modify such an order—until a court of
appeals grants a party permission to appeal.” City of
Los Angeles, Harbor Div. v. Santa Monica Baykeeper,
254 F.3d 882, 886 (9th Cir. 2001). Further, Rule
23(c)(1)(C) of the Federal Rules of Civil Procedure
provides that “[a]n order that grants or denies class
certification may be altered or amended before final
judgment.” “Accordingly, it is not uncommon for
district courts to permit renewed certification motions
that set out a narrower class definition or that rely
upon different evidence or legal theories.” Hartman v.
United Bank Card, Inc., 291 F.R.D. 591, 597 (W.D.
Wash. 2013) (citing Bushbeck v. Chicago Title Ins. Co.,
No. C08-0755JLR, 2012 WL 405173, at *2 (W.D.Wash.
Feb. 8, 2012); In re Apple iPod iTunes Antitrust Litig.,
No. 05-0037, 2011 WL 5864036, at *1-2, *4 (N.D.Cal.
Nov. 22, 2011)). 7

Defendants contend, in a footnote, that Plaintiffs’ Motion for
Reconsideration should be denied on the ground that Plaintiffs
have “completely ignored the standard governing” motions for
reconsideration and that they do not satisfy that standard.
Opposition at 3 n. 2. This argument fails because the Court made
clear in its August 19 Order that it was granting Plaintiffs leave
to file a motion that not only addressed whether the Court should
reconsider aspects of its Class Certification Order but also
addressed whether the court should certify narrower classes.
7

App-165
B. Certification of Rule 23 Classes
1.

Rule 23(a)

Rule 23(a) requires that a plaintiff seeking to
assert claims on behalf of a class demonstrate:
1) numerosity; 2) commonality; 3) typicality; and 4)
fair and adequate representation of the interests of the
class. Fed. R. Civ. P. 23(a). While the Court treated
ascertainability as a separate Rule 23 requirement in
its Class Certification Order, the Ninth Circuit’s
recent decision in Briseno v. ConAgra Foods, Inc.
suggests that the concerns that have led courts to
conclude that classes are not ascertainable should be
addressed with reference to the requirements of Rule
23 that are expressly enumerated in that rule. See 844
F.3d 1121, 1126 (9th Cir. 2017) (holding that “Rule 23
does not impose a freestanding administrative
feasibility prerequisite to class certification” and
finding that “Supreme Court precedent . . . counsels in
favor of hewing closely to the text of Rule 23.”).
There is no dispute that the numerosity
requirement is satisfied for all of the new Rule 23
Classes proposed by Plaintiffs. The Court also finds
that the commonality requirement is satisfied because
the claims asserted by the proposed classes turn on a
number of common and central questions that are
likely to give rise to common answers, including:
1) whether the Clubs and MLB are joint employers;
2) whether the activities Minor League players
perform at the ballpark and/or or in connection with
games constitute “work” for the purposes of the
applicable wage and hour laws; and 3) whether the
common compensation policies applied to Minor
Leaguers by Defendants under the Minor League

App-166
Rules and Uniform Player Contracts—including
failure to pay players a salary outside the
championship season and failure to pay minimum
wage and overtime during the championship season—
violate the applicable wage and hour laws. See Mazza
v. Am. Honda Motor Co., 666 F.3d 581, 588 (9th Cir.
2012).
The Court also finds that the claims of the
proposed class representatives meet the typicality
requirement because they are “reasonably coextensive
with those of the absent class members.” See Hanlon
v. Chrysler Corp., 150 F.3d 1011, 1020 (9th Cir. 1998);
Broshuis Decl., Exs. E & F. To the extent that the
Court expressed concern regarding the typicality of
Named Plaintiffs’ claims in connection with off-season
training performed in different states, see Class
Certification Order at 65, that concern has been
addressed by Plaintiffs’ new Rule 23 Classes, which do
not seek to assert claims based on off-season training
on a classwide basis. For the same reason, the Court’s
concerns relating to the ascertainability of the
proposed classes have been adequately addressed. 8
As noted above, in light of the Ninth Circuit’s discussion in
Briseno, it appears that ascertainability is not an independent
requirement under Rule 23. Nonetheless, the main concerns that
were the basis of the Court’s conclusion in its Class Certification
Order with respect to ascertainability, namely, the wide range of
activities and circumstances under which minor leaguers
perform their winter training and the difficulty of determining
class membership based on winter training activities, are
relevant to both typicality (as the Court found in its Class
Certification Order) and the superiority requirement of Rule
23(b)(3), which allows courts to take into account the
administrative difficulties associated with identifying class
members. See Briseno, 844 F.3d 1121, 1127-28 (finding that a
8

App-167
Finally, the Court addresses whether the
adequacy requirement is met by the new Rule 23
classes. The Court rejects Defendants’ assertion that
Plaintiffs’ plan to use a conservative “percentile”
approach to determine the amount of work performed
by class members will result in inadequate
representation of the proposed Rule 23 absent class
members because the vast majority of those who
responded to the Main Survey reported longer hours
than the named Plaintiffs will seek to recover for the
proposed classes. See Sur-Reply at 3-4. As in any class
action, Plaintiffs must make judgment calls about
what claims can be addressed on a classwide basis and
what relief should be pursued for the class. So long as
class members are adequately informed of their right
to opt out of the class and the potential for a larger
recovery if they proceed individually, the Court does
not find that Plaintiffs’ approach will impair their
ability to adequately represent the proposed classes.
On the other hand, the Court agrees, at least in
part, with Defendants’ primary challenge to the
adequacy of representation for the new Rule 23(b)
classes, which is based on the fact that Plaintiffs now
ask the Court to apply the law of a single state to all
members of each class. Defendants contend this
creates a conflict between the named Plaintiffs and
absent class members because some absent class
members will forfeit their right to recover significant
additional damages under the laws of other states that
separate “administrative feasibility” requirement is unnecessary
because Rule 23(b)(3) “already contains a specific, enumerated
mechanism to achieve that goal: the manageability criterion of
the superiority requirement”).

App-168
may potentially apply to their claims. The Court
addresses the choice of law question below, in the
context of the predominance inquiry of Rule 23(b)(3).
There, the Court finds that Plaintiffs have not met
their burden of showing that the claims of all of the
Florida and Arizona Class members are governed by
the laws of those two states. Consequently, the Court
agrees with Defendants that the adequacy
requirement has not been met for the Florida and
Arizona Classes. On the other hand, the Court finds
that Plaintiffs have established that all of the claims
of the California Class members can be decided under
California law. Therefore, the Court concludes that
the adequacy requirement is met as to that class.
Therefore, the Court concludes that the
requirements of Rule 23(a) are met as to all three of
the proposed Rule 23(b)(3) classes, except that the
adequacy requirement is not met as to the Arizona and
Florida classes.
2.

Rule 23(b)(3)

Rule 23(b)(3) allows for certification of a class
where a court finds that: 1) “questions of law or fact
common to class members predominate over any
questions affecting only individual members;” and 2)
“a class action is superior to other available methods
for fairly and efficiently adjudicating the controversy.”
Defendants’ challenges to Plaintiffs’ new Rule 23(b)(3)
classes
implicate
both
the
“predominance”
requirement and the “superiority” requirement.

App-169
a.

Whether the Claims of the New Rule
23(b) Classes Can be Proved Using
Representative Evidence Obtained
from the Main Survey

One of Defendants’ primary challenges to
Plaintiffs’ new Rule 23(b) classes is that the claims
these classes assert cannot be proven through the use
of common evidence, especially in light of the
variations in players’ arrival and departure times,
work routines and compensation. This challenge
requires that the Court revisit the question of what
the Supreme Court’s Tyson Foods v. Bouaphakeo
decision means at the class certification stage.
As discussed in the Court’s Class Certification
Order, in Tyson Foods, Inc. v. Bouaphakeo, the
Supreme Court reiterated the principle first
articulated in Anderson v. Mt. Clemens Pottery Co.,
328 U.S. 680 (1946) that “when employers violate their
statutory duty to keep proper records, and employees
thereby have no way to establish the time spent doing
uncompensated work, the ‘remedial nature of [the
FLSA] and the great public policy which it
embodies . . . militate against making’ the burden of
proving uncompensated work ‘an impossible hurdle
for the employee.’” 136 S. Ct. at 1047 (quoting Mt.
Clemens, 382 U.S. at 687). Thus, “where the
employer’s records are inaccurate or inadequate and
the employee cannot offer convincing substitutes . . .
an employee has carried out his burden if he proves
that he has in fact performed work for which he was
improperly compensated and if he produces sufficient
evidence to show the amount and extent of that work
as a matter of just and reasonable inference.” 328 U.S.

App-170
at 687-88. The Mt. Clemens rule is not limited to FLSA
cases and has also been invoked in cases involving
state law wage and hour claims based on the same
reasoning that was applied to FLSA claims in Mt.
Clemens, namely, that it would unfairly penalize
employees to deny recovery because of the employer’s
failure to keep proper records. Class Certification
Order at 88.
There is no dispute that Defendants have not kept
the records of the activities that Plaintiffs contend are
“work” under any potentially applicable wage and
hour laws, state or federal. Thus, Plaintiffs are
entitled to prove the amount of work they performed
by “just and reasonable inference” so long as they can
show that they did, in fact, perform work for which
they were improperly compensated. The Court
previously found, though, that the experiences of the
players varied so widely with respect to the activities
upon which their claims were based, that reliance on
Dr. Dennis’s Pilot Survey to draw conclusions on a
classwide basis would be improper. See Class
Certification Order at 90. The Court now reaches a
different conclusion and finds that the classes have
been narrowed sufficiently that any individualized
issues that arise in connection with the representative
evidence offered by Plaintiffs will not predominate
over common issues.
As a preliminary matter, the Court notes that the
“continuous workday” doctrine did not figure
prominently (if at all) in the first round of briefs,
addressing Plaintiffs’ original class certification
request. In its Motion for Reconsideration, however,
Plaintiffs rely heavily on the doctrine, arguing that

App-171
“[a]pplication of the continuous workday doctrine
means that it does not matter what specific activities
class members performed during the workday or
whether they took short breaks.” Motion for
Reconsideration at 8 (emphasis in original). In other
words, Plaintiffs contend, because their proposed Rule
23(b)(3) classes are “focused exclusively on work class
members performed as teams at team complexes,
under the direct supervision and control of
Defendants,” “individualized inquiries into the
activity-by-activity course of a class member’s
workday are unnecessary.” Id. at 1.
“[T]he continuous workday rule . . . means that
the ‘workday’ is generally defined as ‘the period
between the commencement and completion on the
same workday of an employee’s principal activity or
activities.” IBP, Inc. v. Alvarez, 546 U.S. 21, 28 (2005)
(citing 29 C.F.R. § 790.6(b)). It dates back to the
enactment of the Fair Labor Standards Act of 1938, as
amended by the Portal-to-Portal Act of 1947, and is set
forth in long-standing Department of Labor
regulations. See 29 C.F.R. §§ 778.223 (providing that
an employer must compensate an employee for “(a) All
time during which an employee is required to be on
duty or to be on the employer’s premises or at a
prescribed workplace and (b) all time during which an
employee is suffered or permitted to work whether or
not he is required to do so”), 785.18 (providing that
“[r]est periods of short duration, running from 5
minutes to about 20 minutes, are common in the
industry” and “must be counted as hours worked”) &
790.6 (defining “workday” as “the period between the
commencement and completion on the same workday
of an employee’s principal activity or activities”

App-172
“includ[ing] all time within that period whether or not
the employee engages in work throughout all of that
period”).
Under this rule, “work” is defined relatively
broadly to include “physical or mental exertion
(whether burdensome or not) controlled or required by
the employer and pursued necessarily and primarily
for the benefit of the employer.” Alvarez v. IBP, Inc.,
339 F.3d 894, 902 (9th Cir. 2003), aff‘d, 546 U.S. 21
(2005) (citing Tenn. Coal, Iron & R. Co. v. Muscoda
Local No. 123, 321 U.S. 590, 598 (1944)). Florida law
follows federal law, Fla. Stat. Ann. § 448.110 (Florida
minimum wage law, incorporating terms of FLSA),
while Arizona and California define work even more
broadly. See Ariz. Admin. Code § R20-5-1202(9)
(defining “hours worked” as “all hours for which an
employee covered under the Act is employed and
required to give to the employer, including all time
during which an employee is on duty or at a prescribed
work place and all time the employee is suffered or
permitted to work”).
Plaintiffs’ original classes asserted claims that
were based not only on activities in which they
engaged at the ballpark but also winter conditioning
activities performed individually. The evidence in the
record indicated that players had wide latitude as to
what types of winter conditioning they engaged in and
where and when they performed this work. Players
were not required to perform their conditioning at a
particular workplace and were not under the control
of their employer when they performed their
conditioning activities. Under these circumstances,
the continuous workday doctrine was of little

App-173
assistance for measuring the amount of work they
performed, at least for the winter conditioning work,
and therefore classwide determination of the amount
of work performed by class members would have been
difficult, if not impossible. Moreover, the wide
variations as to players’ winter conditioning activities
and the broad discretion each player had as to how he
would meet these requirements (including the amount
of conditioning, the type of activities and the place
where they were performed) were significant factors
in the Court’s conclusion that it would be improper to
rely on the results of Dr. Dennis’s survey to establish
the amount of work on classwide basis. In particular,
as to these activities the Court found that Plaintiffs’
proposed classes—and the survey evidence they
intended to use prove their claims based on these
activities—amounted to the sort of “trial by formula”
approach against which the Supreme Court cautioned
in Wal-Mart Stores, Inc. v. Dukes. See 564 U.S. 338,
367 (2011).
Under their new proposal, Plaintiffs no longer
seek to assert claims on behalf of the proposed classes
based on winter conditioning work. In dropping these
claims, they have significantly reduced the variations
that led the Court to conclude that Plaintiffs were
attempting to stretch the holding of Tyson Foods too
far. To be sure, Defendants’ experts have identified
variations in the survey responses relating to arrival
and departure times, hours worked by players
affiliated with different clubs and even hours worked
reported by players affiliated with the same clubs. See
generally Guryan Decl. In addition, as noted by the
Court in its previous order, there is evidence of other
variations, including variations with respect to:

App-174
1) whether players participated in extended training,
mini-camps or instructional leagues; 2) the types of
activities in which players engaged when they
participated in these various training opportunities;
3) practices related to travel time; 4) and salaries,
bonuses and other forms of compensation received by
players. The Court concludes, however, that the
remaining variations are not so significant as to
preclude a jury from addressing Plaintiffs’ claims on a
classwide basis.
As discussed above, Plaintiffs have narrowed the
range of activities on which they base their class
claims by eliminating winter conditioning, instead
focusing on activities that are conducted primarily on
a team basis. In addition, Plaintiffs’ theory of liability
as to the new classes reduces the need to focus on the
players’ specific activities in order to quantify the
amount of work performed to the extent they rely on
the continuous workday doctrine. While it is likely
that some individualized issues will remain as to
whether certain types of activities should be included
under the continuous work-day rule or are properly
considered “work” under the applicable law, the Court
is not persuaded that they will overwhelm the
common issues raised by Plaintiffs’ claims.
The Court also revises its conclusion as to the
significance of variations in salary and other forms of
compensation; these variations do not present an
obstacle to class treatment because sufficient payroll
records have been maintained by Defendants to
account for them in Plaintiffs’ damages model. See
Kriegler Rebuttal Decl. ¶¶ 38-44; Minns v. Advanced
Clinical Employment Staffing LLC, No. 13-CV-03249-

App-175
SI, 2015 WL 3491505, at *8 (N.D. Cal. June 2, 2015)
(“the necessity of making individualized factual
determinations does not defeat class certification if
those determinations are susceptible to generalized
proof like employment and payroll records”) (citing
Newberg on Class Actions § 4:50 (5th ed.)).
Finally, the Court finds that many of the
individualized inquiries cited by Defendants go to
damages and not liability, and therefore do not
present an impediment to class certification. See
Vaquero v. Ashley Furniture Indus., Inc., 824 F.3d
1150, 1155 (9th Cir. 2016) (“Under Tyson Foods and
our precedent, therefore, the rule is clear: the need for
individual damages calculations does not, alone,
defeat class certification.”). First, with respect to the
Florida and Arizona Classes, Plaintiffs have presented
evidence that virtually all players were unpaid for
their participation in spring training, extended spring
training and instructional leagues. See Kriegler
Rebuttal Decl. ¶ 41 & Ex. 5. Consequently, for these
classes, liability can be established simply by showing
that class performed any work. In addition, with
respect to the California Class, Plaintiffs may be able
to establish liability as to some of their overtime
claims by using schedules reflecting weeks in which
teams were scheduled to play games on seven
consecutive days in violation of California overtime
law. See Kriegler Rebuttal Decl. ¶¶ 24-26. According
to Dr. Kriegler, approximately 65-85% of Minor
Leaguers had at least one workweek in which they
were scheduled for seven days. Id. ¶ 26.
Of particular significance to the Court’s
conclusion that the variations among players do not

App-176
preclude certification of the new Rule 23(b)(3) classes
is the fact that Plaintiffs will be able to use the survey
data in combination with other evidence that may be
sufficient to allow a jury to draw conclusions based on
reasonable inference as to when players were required
to be at the ballpark and how long after games they
were required to remain at the ballpark. This evidence
includes the transactional histories of the players, the
daily schedules, and records of games that were
played, including where the games were played and
how long they lasted. Thus, as in Tyson Foods, it
appears that representative evidence can be combined
with actual records of time spent engaged in the
various activities to derive a reasonable estimate of
the amount of time worked by class members. The
Court also notes that in Tyson Foods itself, there were
variations among class members with respect to the
time it took them to perform the donning and doffing
activities that were at issue in that case—even when
class members performed the same activities, but
these were not found to preclude reliance on
representative evidence. See 136 S. Ct. at 1055
(Thomas, J. dissenting). Moreover, the Court rejects
Defendants’ suggestion that under Tyson Foods, only
observational studies are permitted to fill in
evidentiary gaps. There is simply nothing in the
reasoning of that decision that supports such a narrow
reading of the opinion.
Furthermore, certification of the proposed classes
will not preclude Defendants from challenging the
sufficiency of the Main Survey and Plaintiffs’ damages
model on summary judgment and/or at trial. See
Tyson Foods, 136 S. Ct. at 1047 (“When, as here, the
concern about the proposed class is not that it exhibits

App-177
some fatal dissimilarity but, rather, a fatal
similarity—an alleged failure of proof as to an element
of the plaintiffs’ cause of action—courts should engage
that question as a matter of summary judgment, not
class certification.”)(internal quotations, brackets and
citations omitted). At that point, it is likely that the
Court also will be in a better position to evaluate the
overarching theory of Plaintiffs’ claims and whether
they will be able to prove their claims on a classwide
basis.
Therefore, the Court finds that individualized
issues that will arise in connection with proving the
claims of the new Rule 23(b)(3) classes are not
sufficient to defeat the predominance requirement as
to those classes.
b.

Whether
individualized
issues
related
to
defenses
preclude
certification of the Rule 23(b)(3)
classes

In its previous Order, the Court found that the
individualized inquiries that would be associated with
Defendants’ main defenses—the seasonal amusement
and recreational establishment defenses and the
creative professionals exemption—would not be
sufficient, on their own, to warrant denial of class
certification for lack of predominance. Class
Certification Order at 84-86. The Court expressed
some concern, however, regarding the need to conduct
a multitude of inquiries to determine whether the
various venues where Minor Leaguers play baseball
fell within the ambit of the seasonal amusement and
recreational establishment exemptions. Id. at 85. That
concern is now significantly diminished. Under

App-178
Plaintiffs’ new proposal, it appears that there are only
about 40 facilities that would need to be evaluated.
See Motion for Reconsideration at 20. The Court
concludes that any individualized inquiries required
to evaluate whether facilities qualify for the
exemptions are likely to be manageable and will not
overwhelm the common questions raised by the new
classes proposed by Plaintiffs.
With respect to the creative professionals
exemption, the Court finds (as it did in its previous
order) that Defendants have failed to point to any
material variations in the duties of the class members
with respect to the degree of creativity that
characterizes their primary duties and therefore
rejects Defendants’ assertion that evaluation of that
question would require a multitude in individualized
inquiries. Further, with respect to the minimum
compensation requirement that must be satisfied for
this exemption to apply, the Court concludes that
there are sufficient employment and payroll records to
address this question on a classwide basis for the
reasons discussed above. To the extent the Court
previously held that the salary part of the test for the
creative professional exemption will require
individualized inquiries because of “significant
variation in the players’ compensation,” see Class
Certification Order at 86, the Court now concludes
that it was incorrect.
Finally, the Court rejects Defendants’ assertion
that the new Rule 23(b)(3) classes revive the problem
of addressing the joint employer question on a
classwide basis for the Arizona and Florida Classes
because players did not expect compensation for their

App-179
participation in spring training, extended spring
training and instructional leagues. Apart from the fact
that the Court already rejected a very similar
argument, see Class Certification Order at 78,
Defendants’ argument only highlights the common
nature of the inquiry as all of the members of the
Florida and Arizona classes were treated the same in
this respect.
Accordingly, the Court finds that Defendants’
defenses do not require the Court to engage in so many
individualized inquiries that they will overwhelm the
common issues and defeat the predominance
requirement.
c.

Individualized Issues Related to
Choice of Law

A class action that requires the court to apply
multiple state laws implicates the predominance
requirement of Rule 23(b)(3). Zinser v. Accufix
Research Inst., Inc., 253 F.3d 1180, 1189 (9th Cir.),
opinion amended on denial of reh’g, 273 F.3d 1266 (9th
Cir. 2001) (“Understanding which law will apply
before making a predominance determination is
important when there are variations in applicable
state law.”). Consequently, where plaintiffs seek
certification of classes for which the laws of multiple
states potentially apply, it is the plaintiffs’ burden to
offer a realistic plan tor trying the class claims. Id.
Here, Plaintiffs contend their new Rule 23(b)(3)
classes do not defeat predominance because for each of
the proposed classes the Court need apply only the law
of the state where the class performed the activities
Plaintiffs contend is work. Thus, according to
Plaintiffs, California law will apply to the claims of the

App-180
California Class, Arizona law will apply to the claims
of the Arizona class and Florida law will apply to the
Florida class. The Court concludes that Plaintiffs have
met their burden on this question with respect to the
California Class. On the other hand, the Court finds
that as to the Arizona and Florida classes, there is a
danger that choice of law questions will overwhelm the
common issues raised by these classes.
California choice of law principles govern the
determination of which state’s law should be applied
to Plaintiffs’ state law claims. See Klaxon Co. v.
Stentor Elec. Mfg. Co., 313 U.S. 487 (1941); SEC v.
Elmas Trading Corp., 683 F. Supp. 743 (D. Nev. 1987),
aff’d without opinion, 865 F.2d 265 (9th Cir.1988).
Under those principals, the Court asks: “(1) whether
the laws of various jurisdictions differ, and (2)
whether both states have an interest in applying their
respective law. If the laws conflict, this Court is to
apply the law of the state whose interest would be
more impaired if its law were not applied.” Church v.
Consol. Freightways, Inc., No. C-90-2290 DLJ, 1991
WL 284083, at *12 (N.D. Cal. June 14, 1991) (citing
Ledesma v. Jack Stewart Produce, Inc., 816 F.2d 482,
484 (9th Cir. 1987)).
While these basic rules are the same regardless of
whether a plaintiff seeks to apply California law (as is
the case for the California Class) or the law of some
foreign jurisdiction (as is the case for the Arizona and
Florida classes), the choice of law analysis differs
somewhat in these two scenarios because “[i]n
California (as in every other American jurisdiction) a
court begins with the presumption that the applicable
substantive rule is drawn from its own forum law.”

App-181
Sullivan v. Oracle Corp., 547 F.3d 1177, 1181-82 (9th
Cir. 2008), opinion withdrawn, reh’g dismissed, 557
F.3d 979 (9th Cir. 2009), certified question answered,
51 Cal. 4th 1191 (2011). Where a party brings a
constitutional challenge to the application of
California law, the class action proponent bears the
initial burden to show that California has “significant
contact or significant aggregation of contacts” to the
claims of each class member. Mazza v. Am. Honda
Motor Co., 666 F.3d 581, 589 (9th Cir. 2012) (citation
omitted) (citing Wash. Mut. Bank v. Superior Court,
24 Cal. 4th 906, 921, (Cal.2001)). “Once the class
action proponent makes this showing, the burden
shifts to the other side to demonstrate ‘that foreign
law, rather than California law, should apply to class
claims.’” Id. (quoting Wash. Mut. Bank, 24 Cal.4th at
921).
Applying these principles to the proposed
California Class, the Court finds that Plaintiffs have
met the threshold requirement of showing that
application of California law to their claims is
constitutional. In particular, all of the class members
have had significant contact with California because
they have been assigned to the California League and
played baseball in California with the California
League. Further, Plaintiffs have proposed the addition
of a temporal component to the class definition to
exclude any individuals who were assigned to the
California League for less than a specified period in
order to ensure that the class does not include any
class members whose contacts with California were so
minimal as to raise questions about the
constitutionality of applying California law to their
claims. The Court concludes that a seven-day

App-182
minimum is sufficient to meet this objective. With this
limitation, the Court finds that Plaintiffs have met
their burden as to the constitutionality of applying
California law to the claims of the California Class.
Because Plaintiffs have met their burden as to the
constitutionality of applying California law, the
burden shifts to Defendants to demonstrate that
foreign law should be applied to the claims of the
California Class members. In the class certification
context, the Court concludes that this means that in
order to defeat class certification on choice of law
grounds, Defendants must make a specific and
meaningful showing that the application of California
law will not be appropriate under California choice of
law principals to absent class members. See
Opperman v. Path, Inc., No. 13-CV-00453-JST, 2016
WL 3844326, at *10 (N.D. Cal. July 15, 2016), leave to
appeal denied (Oct. 20, 2016) (rejecting defendants’
assertion that classes should not be certified because
of the complex and individualized choice of law
questions that would have to be addressed, citing the
fact that defendants did not “identify or discuss the
interests of other jurisdictions except at the greatest
level of generality.”). Defendants have not met that
burden.
The California Supreme Court has found that
California has a strong interest in applying its wage
and hour laws to work performed in California even if
it is performed by non-residents. See Sullivan v.
Oracle Corp., 51 Cal. 4th 1191, 1196 (2011). In
Sullivan, the California Supreme Court agreed to
answer several certified questions from the Ninth
Circuit, including whether the California Labor Code

App-183
applied to overtime work performed in California for a
California-based employer by non-residents. Id. The
court held, as a matter of statutory construction, that
California overtime laws did apply where, as in that
case, the employees asserted overtime claims based on
“entire days and weeks worked in California.” Id. at
1200. In reaching that conclusion, the court rejected
the employer’s reliance on language in an earlier
decision by the California Supreme Court, Tidewater
Marine W., Inc. v. Bradshaw, 14 Cal. 4th 557 (1996),
in which the court suggested that California law
“might follow California resident employees of
California employers who leave the state
‘temporarily . . . during the course of the normal
workday’ . . . , and California law might not apply to
nonresident employees of out-of-state businesses who
‘enter California temporarily during the course of the
workday.’” Sullivan, 51 Cal. 4th at 1199 (quoting
Tidewater, 14 Cal. 4th at 578). The court in Sullivan
found that “[n]othing in Tidewater suggests a
nonresident employee, especially a nonresident
employee of a California employer such as Oracle, can
enter the state for entire days or weeks without the
protection of California law.” Id. at 1200.
The Court in Sullivan went on to address whether
the laws of the states where the employees resided—
Arizona and Colorado—conflicted with California law
and if they did, whether California’s interest in having
its own law applied outweighed the interests of the
other two states. Id. at 1202-1206. The court
concluded that there was no true conflict because
neither Arizona nor Colorado had expressed an
interest in regulating overtime work performed in
another state. Id. at 1204. The court also rejected the

App-184
employer’s argument that Arizona and Colorado law
should be applied based on those states’ interest in
providing a business-friendly environment for their
own businesses, reasoning that “every state enjoys the
same power in this respect” and that “[i]t follows from
this basic characteristic of our federal system that, at
least as a general matter, a company that conducts
business in numerous states ordinarily is required to
make itself aware of and comply with the law of a state
in which it chooses to do business.” Id. at 1205
(citations omitted). Therefore, the court concluded,
neither Colorado nor Arizona had a “legitimate
interest in shielding [the employer] from the
requirements of California overtime law as to work
performed here.” Id.
Finally, the Sullivan court addressed which
state’s interest would be more impaired by application
of another state’s law and concluded that California’s
interest would be more impaired. The court reasoned:
Assuming for the sake of argument a genuine
conflict does exist . . ., to subordinate
California’s interests to those of Colorado and
Arizona unquestionably would bring about
the
greater impairment.
To permit
nonresidents to work in California without
the protection of our overtime law would
completely sacrifice, as to those employees,
the state’s important public policy goals of
protecting health and safety and preventing
the evils associated with overwork. . . . Not to
apply California law would also encourage
employers to substitute lower paid temporary
employees from other states for California

App-185
employees, thus threatening California’s
legitimate interest in expanding the job
market. . . . By way of comparison, not to
apply the overtime laws of Colorado and
Arizona would impact those states’ interests
negligibly, or not at all. Colorado overtime
law expressly does not apply outside the
state’s boundaries, and Arizona has no
overtime law. . . . Alternatively, viewing
Colorado’s and Arizona’s overtime regimens
as expressions of a general interest in
providing
hospitable
regulatory
environments to businesses within their own
boundaries, that interest is not perceptibly
impaired by requiring a California employer
to comply with California overtime law for
work performed here.
Id. at 1205-1206.
Defendants reject Plaintiffs’ reliance on Sullivan,
asserting that case is distinguishable because it
involved a California employer whereas many of the
members of the putative California Class are
employed by non-California affiliates. While it is true
that the holding of Sullivan was limited to the facts of
that case, the Court does not find that the reasoning
of that case supports the conclusion that non-residents
who perform work in California are entitled to the
protections of California wage and hour laws only if
they work for a California employer. To the contrary,
the emphasis of the Sullivan court on the “state’s
important public policy goals of protecting health and
safety and preventing the evils associated with
overwork” applies equally to California employers and

App-186
non-California employers. Sullivan also suggests that
to the extent other states may have adopted labor laws
that are friendlier to employers, employers from other
states may not “shield” themselves from the
requirements of California labor law when their
employees perform work in California. See 51 Cal. 4th
at 1205.
In the face of California’s strong interest in
applying its own law to work performed within the
state, as recognized by the California Supreme Court,
Defendants can only defeat the predominance
requirement based on choice of law if they can make a
meaningful and detailed showing that other states’
laws are likely to apply to the class members’ claims.
Instead, Defendants have not gone beyond speculating
in a general manner that the claims of some members
of the putative California Class might be subject to the
law of another state and that the interests of another
state might be more impaired by application of
California law.
The only specific example offered by Defendants
in support of their contention that the Court will need
to conduct choice of law inquiries as to every member
of the California Class is based on the experience of
Named Plaintiff Mitch Hilligoss and it is not
persuasive. According to Defendants, Hilligoss, a
putative representative of the California Class, “spent
a total of two months (out of a 6 year long career) in
the state of California playing in the California
League,” has “never played for a California-based
MLB Club, has spent many months each year
allegedly performing off-season training in Illinois,
and has resided in Illinois since his release.” See

App-187
Opposition at 9 n. 13. Given the California Supreme
Court’s guidance in Sullivan, in which it distinguished
between work performed in the state “temporarily . . .
during the course of the normal workday” (to which
California wage and hour laws might not apply) and
work performed “over entire days and weeks” (to
which California overtime laws were found to apply),
it is not at all obvious the work performed by Hilligoss
in California would not be subject to California’s wage
and hour laws. Furthermore, to the extent Defendants
are suggesting that Illinois law should apply to
Hilligoss’s claims, they have not cited any case law
indicating that Illinois wage and hour laws would
apply extraterritorially to that work; nor have they
pointed to any interest on the part of the state of
Illinois that might outweigh California’s interest in
having its own law applied. The Court therefore finds
Defendants’ general assertions related to the choice of
law questions raised by the California Class to be
unpersuasive.
On the other hand, the choice of law problem
associated with the Florida and Arizona classes is
significant. In support of their assertion that it is
appropriate to apply Florida law to all Florida class
members and Arizona law to all Arizona class
members, Plaintiffs point to the fact that in many
jurisdiction, “the place where the work takes place is
the critical issue.” Jimenez v. Servicios Agricolas Mex,
Inc., 742 F. Supp. 2d 1078, 1099 (D. Ariz. 2010) (citing
cases); see also O’Neill v. Mermaid Touring Inc., 968
F. Supp. 2d 572, 578-79 (S.D.N.Y. 2013) (granting
summary judgment in favor of employer on wage and
hour claim asserted under New York law for work
performed outside of New York and holding that New

App-188
York law does not apply to work performed outside
New York because “[t]he crucial issue is where the
employee is ‘laboring,’ not where he or she is
domiciled.”); Killian v. McCulloch, 873 F. Supp. 938,
942 (E.D. Pa. 1995), aff’d sub nom. Stadler v.
McCulloch, 82 F.3d 406 (3d Cir. 1996) (“The
legislature has a strong interest in enacting
legislation to protect those who work in the
Commonwealth, but has almost no interest in
extending that protection to those who work outside
Pennsylvania.”); Mulford v. Computer Leasing, Inc.,
759 A.2d 887, 891 (N.J. Law. Div. 1999) (holding that
New Jersey’s interest in enforcing wage and hour laws
against New York employer who employed workers in
New Jersey gave New Jersey “the paramount interest
in enforcing its law”); Bigham v. McCall Serv.
Stations, Inc., 637 S.W.2d 227, 231-32 (Mo. Ct. App.
1982) (holding that Missouri wage and hour law
rather than Kansas law applied based, in part, on the
fact that the work was performed in Missouri);
Risinger v. SOC LLC, 936 F. Supp. 2d 1235, 1249-50
(D. Nev. 2013) (holding that Nevada wage and hour
law did not apply to work performed outside Nevada);
Abdulina v. Eberl’s Temp. Servs., Inc., 79 F. Supp. 3d
1201, 1205-06 (D. Colo. 2015) (holding that plaintiff
did not have standing to assert claim under Colorado’s
Wage Claim Act where she did not reside or work in
Colorado); Mitchell v. Abercrombie & Fitch, No. C2-04306, 2005 WL 1159412, at *4 (S.D. Ohio May 17, 2005)
(holding that Ohio Minimum Fair Wage Standards
Act could not be applied to work performed outside
Ohio).
Plaintiffs have not, however, addressed in any
detail the interests of either Florida or Arizona in

App-189
applying their law to the claims of the class members.
Nor have they cited authority comparable to
O’Sullivan addressing the comparative interests of
these states to the interests of other states whose
residents come to Florida or Arizona to perform work.
Further, Defendants point to numerous states in
which courts have recognized an interest in applying
the law of that state to residents who work outside of
the state, raising the possibility that the laws of states
other than Arizona and Florida should be applied to
the claims of some absent class members. See Docket
No. 740 at 3 n. 3. For example, among the states that
have found that their wage and hour laws may be
applied to work performed outside the state are
Washington and Massachusetts. See Bostain v. Food
Exp., Inc., 159 Wash. 2d 700, 711 (2007); Gonyou v.
Tri-Wire Engineering Solutions., Inc., 717 F. Supp. 2d
152, 154 (D. Mass. 2010). It is thus possible that class
members from those states, e.g., minor leaguers who
play for clubs affiliated with the Boston Red Sox or the
Seattle Mariners, might be entitled to assert their
claims under the laws of those states.
And in contrast to the California Class, there is no
presumption that the law of either Arizona or Florida
must be applied by this Court. Rather, as to these
classes the burden is on Plaintiffs to show that the
interests of Arizona and Florida will outweigh the
interests of any of the potential states that the claims
of absent class members may implicate. Plaintiffs
have not met that burden. Therefore, the Court
concludes that the choice of law questions that are
likely arise in connection with the Florida and Arizona
classes defeat the predominance requirement as to
those classes.

App-190
d.

Superiority of Class Mechanism

In its previous Order, the Court found that most
of the factors courts consider in determining whether
class treatment is superior to individual actions favor
class treatment in this case. See Class Certification
Order at 91-92. The only factor that pointed away from
that conclusion was the Court’s finding that
adjudication of Plaintiffs’ claims under their previous
proposal would have been unmanageable because “too
many individualized issues [would] have to be
adjudicated because of the variations among the
players, the choice of law issues that will have to be
addressed and certain defenses asserted by
Defendants to handle Plaintiffs’ claims.” Id. at 92. For
the reasons discussed above, the Court concludes that
Plaintiffs’ proposed California Class, which is the only
Rule 23(b)(3) class that meets the predominance
requirement, will not require so many individualized
inquiry as to make it unmanageable and that class
treatment of the claims asserted by that class meets
the superiority requirement of Rule 23(b)(3).
3.

Rule 23(b)(2)

Rule 23(b)(2) allows a class action to be
maintained where “the party opposing the class has
acted or refused to act on grounds that apply generally
to the class, so that final injunctive relief or
corresponding declaratory relief is appropriate
respecting the class as a whole.” Fed. R. Civ. P.
23(b)(2). While 23(b)(2) class actions have no
predominance or superiority requirements, the class
claims must be cohesive. See Barefield v. Chevron,
U.S.A., Inc., No. C 86-2427 TEH, 1988 WL 188433, at
*3 (N.D. Cal. Dec. 6, 1988) (noting that “[t]he

App-191
trademark of the (b)(2) action is homogeneity” and
explaining that “[i]t is this characteristic that allows
the court to dispense with notice to the class and bind
all members to any judgment on the merits without an
opportunity to opt out”); see also Barnes v. Am.
Tobacco Co., 161 F.3d 127, 142-43 (3d Cir. 1998)
(noting that “a (b)(2) class may require more
cohesiveness than a (b)(3) class . . . because in a (b)(2)
action, unnamed members are bound by the action
without the opportunity to opt out”); In re Prempro,
230 F.R.D. 555, 569 (E.D. Ark. 2005) (noting that
“[w]hile 23(b)(2) class actions do not have the
predominance or superiority requirements of 23(b)(3),
courts have held that the class claims under 23(b)(2)
must be cohesive” and holding that this requirement
was not met where claims of proposed b(2) class
implicated laws of 24 to 29 states); In re Rezulin Prod.
Liab. Litig., 210 F.R.D. 61, 75 (S.D.N.Y. 2002) (holding
that “the individual issues that defeat the
predominance requirement of Rule 23(b)(3) also pose
an obstacle to class certification in the Rule 23(b)(2)
context” and noting that “[a]t base, the (b)(2) class is
distinguished from the (b)(3) class by class
cohesiveness”); Santiago v. City of Philadelphia, 72
F.R.D. 619, 628 (E.D. Pa. 1976) (“In a (b)(2) class
action the court must be especially vigilant in
protecting unnamed members of the class who are
bound by the action without the opportunity to
withdraw. As a result, the court should be more
hesitant in accepting a (b)(2) suit which contains
significant individual issues than it would under
subsection 23(b)(3).”).
Here, Plaintiffs’ proposed Rule 23(b)(2) class is
aimed at alleged wage and hour violations arising

App-192
from spring training activities in Florida and Arizona.
The problem with this class is that it seeks injunctive
and declaratory relief for a class whose members come
to Florida and Arizona from many different states. As
discussed above, it is not apparent that is appropriate
to apply the law of the states where spring training is
conducted to the claims of all class members. As a
consequence, the Court could not necessarily
adjudicate the claims of the Rule 23(b)(2) classes or
fashion a remedy (assuming Plaintiffs’ claims are
meritorious) based on the law of only one or two states.
Instead, it could potentially be required to apply the
law of numerous states to Plaintiffs’ claims, which
undermines the cohesiveness of the class and makes
certification of Plaintiffs’ proposed (b)(2) class
inappropriate.
Accordingly, the Court declines
Plaintiffs’ proposed Rule 23(b)(2) class.

to

certify

C. Recertification of the FLSA Collective
Under Section 16 of the FLSA, workers may sue
their employers for unpaid wages on their own behalf
and on behalf of “other employees similarly situated.”
29 U.S.C. § 216(b). District courts in the Ninth Circuit
apply an “ad hoc, two-tiered approach” in determining
whether the plaintiffs are similarly situated, applying
a more lenient standard to determine whether a
collective should be certified for the purposes of giving
notice to potential opt-ins and a stricter standard once
discovery has been completed. Class Certification
Order at 94-95 (citations omitted). The Court applies
the stricter standard to the question of whether the
narrower FLSA collective that Plaintiffs now propose
should be certified. Under that standard, the Court

App-193
concludes that the new FLSA class meets the
“similarly situated” requirement of Section 216(b).
Courts consider three factors in deciding whether
plaintiffs have met their burden at the second step of
the FLSA certification inquiry: “(1) the disparate
factual and employment settings of the individual
plaintiffs; (2) the various defenses available to
defendants with respect to the individual plaintiffs;
and (3) fairness and procedural considerations.”
Beauperthuy v. 24 Hour Fitness USA, Inc., 772 F.
Supp. 2d 1111, 1118 (N.D. Cal. 2011). While this
standard is more stringent than at the conditional
certification stage, it “is different, and easier to satisfy,
than the requirements for a class action certified
under Federal Rule of Civil Procedure 23(b)(3).” Id.
(citing Lewis v. Wells Fargo & Co., 669 F.Supp.2d
1124, 1127 (N.D. Cal. 2009)).
The Court found in the Class Certification Order
that “[t]he analysis of whether Plaintiffs in the FLSA
collective are similarly situated largely mirrors the
analysis under Rule 23(b)(3), except that the
variations in state law and potential choice-of-law
questions that may arise as to those classes are not an
issue for the FLSA collective.” Id. at 95. The Court
concluded that the class members were not similarly
situated because there were “wide variations among
the players as to the types of activities in which they
engaged and the circumstances under which they
engaged in them, which will give rise to a plethora of
individualized inquiries relating to the determination
of the amount of compensable work Plaintiffs
performed.” Id. It further pointed to the need to
conduct “numerous individualized inquiries regarding

App-194
the amount of compensation received by class
members and the applicability of various defenses,
including the amusement exemption and the creative
professionals exemption.” Id. The Court now revises
those conclusions consistent with its conclusions
relating to the new Rule 23(b)(3) classes.
First, by eliminating the winter conditioning
claims and pursuing on a classwide basis only claims
that are based on the continuous workday doctrine,
Plaintiffs have significantly reduced the need to
engage in individualized inquiries relating to the type
of work performed. Second, the Court is now
persuaded that the payroll records maintained by
Defendants will allow any variations in compensation
to be analyzed without burdensome individualized
inquiries. This is especially true as to the spring
training, extended spring training and instructional
league claims because players generally were not
compensated for their participation in these activities
and the small fraction of players who did receive
compensation for these activities can be identified
using payroll records maintained by Defendants. 9
In addition, the Court is persuaded that the problems that
were addressed at length at oral argument concerning the
difficulty of identifying which minor leaguers participated in
spring training, extended spring training and instructional
leagues do not pose such serious problems that they render class
treatment unmanageable. In particular, Plaintiffs’ counsel has
represented to the Court that numerous witnesses testified in
depositions that the Clubs and affiliates maintained rosters
listing players who participated in these activities, and that
many such rosters have been produced already, albeit in redacted
form. In addition, the eBis transaction records, used in
combination with disabled lists and payroll records, are likely to
provide relevant information that will allow the parties to
9

App-195
Third, as discussed above, the Court finds that the
defenses asserted by Defendants to the FLSA present
common questions that are not likely to be
overwhelmed by the need to conduct individualized
inquiries. Finally, the possibility that the Court will
be required to apply the laws of numerous states (or
at a minimum, conduct numerous choice of law
inquiries) is not present as to the FLSA class, which
will require the Court to apply only federal wage and
hour law.
Accordingly, the Court grants Plaintiffs’ request
to recertify the narrower FLSA collective proposed in
its Motion for Reconsideration.
VI. CONCLUSION
For the reasons stated above, the Motion for
Leave to File Sur-Reply and the Motion to Intervene
are GRANTED. The Motion for Reconsideration is
GRANTED in part and DENIED in part. The Motion
to Exclude is DENIED.
The Court certifies the following FLSA Collective:
Any person who, while signed to a Minor
League
Uniform
Player
Contract,
participated in the California League, or in
spring training, instructional leagues, or
extended spring training, on or after
February 7, 2011, and who had not signed a
Major League Uniform Player Contract
before then.

determine who may have participated in spring training,
extended spring training and instructional leagues.

App-196
The parties shall meet and confer to address the
specific wording of the Rule 23(b)(3) California class
definition that the Court has approved, incorporating
the temporal limitation discussed above. If the parties
can agree, a stipulation shall be filed with the Court
by April 28, 2017 containing the revised class
definition. If the parties are unable to agree, they
should jointly file by the same date a statement, not to
exceed five pages, setting forth the competing
proposed class definitions and explaining the basis for
any disagreements. In addition, the parties shall meet
and confer and jointly submit a proposed schedule for
the case, also to be filed by April 28, 2017. A Case
Management Conference is set for May 12, 2017 at
2:00 p.m.
IT IS SO ORDERED.
Dated: March 7, 2017
[handwritten: signature]
JOSEPH C. SPERO
Chief Magistrate Judge

